SEC’s Oversight of Bear Stearns
and Related Entities:

The Consolidated Supervised
Entity Program




 Sections of this report have been redacted to
 delete information that SEC believes is non-    September 25, 2008
 public and confidential                           Report No. 446-A
                                           UNITED STATES
                          SECURITIES AND EXCHANGE COMMISSION
                                      WASHINGTON, D.C.    20549


     OFFICE OF
INSPECTOR GENERAL




                                       September 25, 2008

         To:          Chairman Christopher Cox
                      Erik Sirri, Director, Division of Trading and Markets
                      Lori Richards, Director, Office of Compliance Inspections and
                              Examinations
                      John White, Director, Division of Corporation Finance
                      Jonathan Sokobin, Director, Office of Risk Assessment

         From:        H. David Kotz, Inspector Gene*K'

         Subject:     Audit of SEC's Oversight of Bear Steams and Related Entities: The
                      Consolidated Supervised Entity Program, Report No. 446-A

         This memorandum transmits the Securities and Exchange Commission, Office of
         Inspector General's (OIG) final report detailing the results of our audit on the
         SEC's Oversight of Bear Stearns and Related Entities: The Consolidated
         Supervised Entity Program. This audit was conducted pursuant to a
         Congressional request from Ranking Member Charles E. Grassley of the United
         States Senate Committee on Finance.

         The final report consists of 26 recommendations that are addressed primarily to
         the Division of Trading and Markets (TM). Recommendations 18 and 25 are also
         addressed to the Office of Compliance Inspections and Examinations (OCIE)
         and Recommendation 19 is also addressed to the Office of Risk Assessment
         (ORA). Recommendations 20 and 21 are addressed to the Division of
         Corporation Finance (CF), Recommendation 17 is addressed to CF and TM, and
         Recommendation 22 is addressed to Chairman Cox.

         In response to the draft report, responsible management officials agreed with 21
         out of 26 recommendations. TM concurred with 20 of 23 recommendations
         addressed to them and disagreed with Recommendations 13, 15, and 16. OGlE
         concurred with both recommendations addressed to them. CF concurred with
         Recommendation 17, but disagreed with Recommendations 20 and 21.

         Your written responses to the draft report, dated September 18, 2008, are
         included in their entirety in Appendices VI and VII. In addition, DIG's response
         to Chairman Cox's and Management's comments are included in Appendix VIII.
Should you have any questions regarding this report, please do not hesitate to
contact me. During this audit we appreciate the courtesy and cooperation that
you and your staff extended to our auditors.

Attachment
cc:   Peter Uhlmann, Chief of Staff, Chairman's Office
      Diego Ruiz, Executive Director, Office of the Executive Director
      Brian Cartwright, General Counsel, Office of General Counsel
      Andrew Donohue, Director, Division of Investment Management
      John Nester, Director Office of Public Affairs
      William Schulz, Office of Legislative and Intergovernmental Affairs
      Bob Colby, Deputy Director, TM
      Daniel Gallagher, Deputy Director, TM
      Shelley Parratt, Deputy Director, CF
      Michael Macchiaroli, Associate Director, TM
      Mary Ann Gadziala, Associate Director, OCIE
      Matthew Eichner, Assistant Director, TM
      John Walsh, ChiefCounsel, OCIE
      Thomas K. McGowan, Assistant Director, TM
      Herb Brooks, Assistant Director, TM
      William Lenox, Ethics Counsel, Office of General Counsel
      Denise Landers, Legal Counsel, TM
      Juanita Bishop Hamlett, Branch Chief, OCIE
      Darlene L. Pryor, Management Analyst, Office of the Executive Director

        Rick Hillman, Managing Director of Financial Markets and Community
              Investment, GAO




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                 111
The CSE Program (Including Reviews Performed
on Bear Stearns)

                                       Executive Summary
Background: During the week of March 10, 2008, rumors spread about liquidity
problems at The Bear Steams Companies, Inc. (Bear Steams).! As the rumors
spread, Bear Steams was unable to obtain-secured financing from
counterparties. This caused severe liquidity problems. As a result, on Friday
March 14, 2008, JP Morgan Chase & Co. (JP Morgan) provided Bear Steams
with emergency funding from the Federal Reserve Bank of New York (FRBNY).2
According to Congressional testimony,S after the markets closed on March 14,
2008, it became apparent that the FRBNY's funding could not stop Bear Steams'
downward spiral. As a result, Bear Steams concluded that it would need to file
for bankruptcy protection on March 17, 2008, unless another firm purchased it.
On Sunday March 16, 2008, (before the Asian markets opened), Bear Steams'
sale to JP Morgan was announced with financing support from the FRBNY. In
May 2008, the sale was completed.

Because Bear Steams had collapseQ, at the time of our fieldwork, there were six
holding companies in the Securities and Exchange Commission's (Commission)
Consolidated Supervised Entity (CSE) program. hi addition to Bear Steams,
these six holding companies include or included Goldman Sachs Group, Inc.
(Goldman Sachs), Morgan Stanley, Merrill Lynch & Co. (Merrill Lynch), Lehman
Brothers Holdings Inc. (Lehman Brothers), Citigroup Inc. and JP Morgan. On
September 15, 2008, Lehman Brothers announced that it would file for
bankruptcy protection and Bank of America announced that itagreed to acquire
Merrill Lynch. 4 Both firms had experienced serious financial difficulties. Finally,
on September-21, 2008, the Board of Governors of the Federal Reserve System
(Federal Reserve) approved, pending a statutory five-day antitrust waiting period,
applications from Goldman Sachs and Morgan Stanley to become bank holding
companies with the Federal Reserve as their new principal regulator. As a
result, the future of the CSE program is uncertain.



1   See Acronyms used in Appendix I.
2   The funding was from the Federal Reserve Bank of New York (FRBNY) through JP Morgan Chase & Co.
    (JP Morgan) to The Bear Steams Companies, Inc. (Bear Steams) because JP Morgan. unlike Bear
    Steams, could borrow money from the FRBNY.
3   Timothy Geithner (President and Chief Executive Officer, FRBNY) and Alan Schwartz (President and
    Chief Executive Officer of Bear Steams) before U.S. Senate Committee on Banking, Housing and Urban
    Affairs on Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
    dated April 3, 2008.                                                         -
4   The audit fieldwork was completed prior to these events on September 15, 2008.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                   September 25. 2008
Report No. 446-A
                                                      IV
Of the seven original CSE firms, the Commission exercised direct oversight ov~r
only five firms (Bear Steams, Goldman Sachs, Morgan Stanley, Merrill lynch,
and Lehman Brothers), which did not have a principal regUlator. The
Commission does not directly oversee Citigroup Inc. and JP Morgan because
these firms have a principal regulator, the Federal Reserve.
                                               .                                          -
  The CSE program is a voluntary program that was created in 2004 by the
  Commission pursuant to rule amendments under the Securities Exchange Act of
  1934.5 This program allows the Commission to supervise these broker-dealer
  holding companies on a consolidated basis. In this capacity, Commission
. supervision extends beyond the registered broker-dealer to the unregulated
  affiliates of the broker-dealer to the holding company itself. The CSE program
  was designed to allow the· Commission to monitor for financial or operational
  weakness in a CSE holding company or its unregulated affiliates that might place
  United States regulated broker-dealers and other regulated entities at risk.

A broker-dealer becomes a CSE by applying to the Commissioll for an
exemption from computing capital using the Commission's standard net capital
rule, and the broker-dealer's ultimate hQlding company consenting to group-wide
Commission supervision (if it does not already have a principal regulator). By
obtaining an exemption from the standard net capital rule, the CSE firms' broker-
dealers are p~rmitted to compute netcapital using an alternative method. The
Commission designed the CSE program to be broadly consistent with the
Federal Reserve's oversight of bank holding companies.

Bear Steams' main activities were investment banking, securities and derivatives
sales and trading, clearance, brokerage and asset management. Bear Steams
was highly leveraged with a large exposure (i.e., concentration of assets) in
mortgage-backed securities. Bear Steams had less capital and was less
diversified than several of the other CSE firms.

The Commission stated that Bear Steams' unprecedented collapse was due to a
liquidity crisis caused by a lack of confidence. Chairman Christopher Cox
described Bear Steams as a well-capitalized and apparently fully liquid major
investment bank that experienced a crisis of confidence, denying it not only
unsecured financing, but short-term secured financing, even when the collateral
consisted of agency securities with a market value in excess of the funds to be
borrowed. 6                                     .




 5 Source: Final Rule: Alternative Net Capital Requirements for Broker-Dealers That Are Part of
   Consolidated Supervised Entities (69 Fed Reg. 34.428). Securities and Exchange Commission
   (Commission). 21 June 2004.
   <http://www.sec.gov/rulesflinal/34-49830.htm>.
 6 Source: Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
                                                                                             lh
   Before United states (U.S.) Senate Committee on Banking, Housing and Urban Affairs, 110 Congo (April
   3,2008) (statement of Christopher Cox, Chairman, Commission).
 SEC's Oversight of Bear Steams and Related Entities: The CSE Program                  September 25, 2008
 Report No. 446-A
                                                    v
Congressional Request. On April 2, 2008, the Office of Inspector General
(OIG) received a letter from Ranking Member Charles E. Grassley of the United
States Senate Committee on Finance, requesting that the o.lG analyze the
Commission's oversight of CSE firms and broker-dealerS subject to the
                                           7
Commission's Risk Assessment Program. This letter noted that the
Commission's Division of Trading and Marke~s (TM) was responsible for
regulating the largest broker-dealers, and their associated holding companies.
The letter requested a review of TM's oversight of the five CSE firms it directly
oversees, with a special emphasis on Bear Steams. The letter requested that
the OIG analyze.how the CSE program is run, the adequacy of the
Commission's monitoring of Bear Steams, and make recommendations to
improve the Commission's CSE program.

The United States Senate Committee on Finance letter also requested that the
OIG provide an update of findings made in its previous audit report on the
Commission's Broker-Dealer Risk Assessment Program (Broker-Dealer Risk
Assessment Program, Report no. 354, issued on August 13,2002).8

Audit Objectives. In response to the April 2, 2008 Congressional Request, the
OIG conducted two separate audits with regard to the Commission's oversight of
Bear Steams and related entities. This audifs objectives were to evaluate the
Commission's CSE program, emphasizing the Commission's oversight of Bear
Steams and to determine whether improvements are needed in the
Commission's monitoring of CSE firms and its administration of the CSE
program.

The OIG performed a second audit on the Commission's Broker-Dealer Risk
Assessment Program to follow up on the current status of recommendations
made in the GIG's prior audit report of the Risk Assessment Program (Broker-
Dealer Risk Assessment Program, Report no. 354, issued on August 13, 2002)
and to examine the Broker-Dealer Risk Assessment program to determine
whether improvements are needed. The Commission's Risk-Assessment
program tracks the filing status of 146 broker-dealers that are part of a holding
company structure arid have at least $20 million in capital. The Risk
Assessment Program report found that TM is not fulfilling its obligations in
accordance with the underlying purpose of the Broker-Dealer Risk Assessment
program in several respects. TM has failed to update and finalize the rules
goveming the program, TM has not enforced the filing requirement incumbent on
broker-dealers, resulting in the failure of nearly one-third of the required firms to
file 17(h) documents, TM has not yet determined whether the two remaining
Bear Steams' broker-dealers are obligated to file Form 17-H, and TM only

7A copy of this request letter Is attached to this report in full in Appendix II.
8The U.S. Senate Committee on Finance letter also requested that the Office of Inspector General (OIG)
  conduct an investigation into the facts and circumstances surrounding the Commi~sion's decision not to
  pursue. an Enforcement Action against Bear Steams. This issue will be addressed in an OIG
  investigative report to be issued on September 30. 2008.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                 September 25,2008 .
Report No. 446-A
                                                  vi
conducts an in-depth review of the filings for six of the 146 filing firms that TM
determined are most significant, based on their free credit balances and          .
customer accounts. Audit report number 446-B examining the Commission's
Risk Assessment program contains 10 recommendations and was issued on
September 25, 2008.

Retention of an Expert~ Given the complexity of the subject matter, the' OIG
retained an expert, Albert S. (Pete) Kyle to provide assistance with this audit.
Professor Kyle joined the University of Maryland faculty as the Charles E. Smith
Chair Professor gf Finance at the Robert H. Smith School of Business in August
2006. He earned a Bachelor of Science degree. in Mathematics from Davidson
College in 1974, studied Philosophy and Economics at Oxford University as·a
Rhodes Scholar and completed his Ph.D. in Economics at the University of
Chicago in 1981. He was a professor at Princeton University's Woodrow Wilson
School from 1981-1987, at the University of California's Haas Business School in
Berkeley from 1987-1992, and at Duke University from 1992-2006.

.Professor Kyle is a renowned expert on many aspects of capital markets, with a
 particular focus on market microstructure. He has conducted significant
 research on such topics ·as informed speculative trading, market manipulation,
 price volatility, and the information content of market prices, market liquidity,· and
 contagion. His paper "Continuous Auctions and Insider Trading" (Econometrica,
 2005) is one of the mostly highly cited papers in theoretical asset pricing.

Professor Kyle,was elected a Fellow of the Econometric Society in 2002. He
was also a board member of the American Finance Association from 2004-
2006. He selVed as a staff member of the Presidential Task Force on Market
Mechanisms (Brady Commission), after the stock market crash of 1987. During
his career, he has worked as a consultant on finance topics for several
government agencies, in addition to the Commission, -including the Department
of Justice, the Internal Revenue Service, the Federal Re~elVe and the
Commodity Futures Trading Commission.

Professor Kyle's Curriculum Vitae appears in Appendix'" of this report.

In this audit, Professor Kyle analyzed TM's oversight of the CSE firms, with ~
particular focus on Bear Steams, Professor Kyle reviewed TM's internal
memoranda on the CSE firms, which documented TM's assessment of the CSE
firms' operations and reviewed data in the CSE firms' monthly and quarterly CSE
program filings.

From this information, Professor Kyle analyzed the firms' financial data, holdings,
risk management strategies, tolerance for risk and assessed the adequacy of the
firms' filings. In particular, Professor Kyle analyzed Bear Steams' capital,
liquidity, arid leverage ratios, access to secured and unsecured financing, and its


SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                vii
compliance with industry and worldwide standards such as the Basel Standards. 9
Professor Kyle analyzed how TM supervised or oversaw Bear Steams'
mortgage-backed securities portfolio, its use of models to measure risk, the
adequacy of its models, its model review process, the relationship between its
traders and risk management department, and its risk-management scenarios.
Professor Kyle also examined how TM supervised Bear Stearns' internal
operations, including its funding of two prominent hedge funds that collapsed iri
the summer of 2007.

Audit Conclusions and Results. The CSE program's mission (goal) provides
in pertinent part as follows:
          The regime is intended to allow the Commission to monitor for, and
          act quickly in response to, financial or operational weakness in a
          CSE holding company or its unregulated affiliates that might place
          regulated entities, including US and foreign-registered banks and
       .. broker-dealers, or the broader financial system at risk. 10 ~mphasis
          added]

Thus, it is undisputable that the CSE program failed to carry out its mission in its
oversight of Bear Steams because under the Commission and the CSE
program's watch, Bear Steams suffered significant financial weaknesses and the
FRBNY needed to intervene dt:Jring the week of March 10, 2008, to prevent
                                                  11
significant harm to the broader financial system.                           .


  This audit was not intended to be a complete assessment of the multitude of
  events that led to Bear Steams' collapse, and accordingly, does not purport to
  demonstrate any specific or direct connection between the failure of the CSE
  Program's oversight of Bear Steams and Bear Steams' collapse. However, we
  have identified serious deficiencies in the CSE program that warrant
  improvements. Overall, we found that there are significant questions ~bout the
. adequacy of a number of CSE program requirements, as Bear Steams was


9  "The Basel Committee on Banking Supervision (Basel Committee) seeks to improve the quality of
   banking supervision worldwide, in part by developing broad supervisory standards. The Basel Committee
   consists of central bank and regulatory officials from 13 member countries: Belgium, Canada, France,
   Germany, Italy, Japan, Luxembourg. the Nethertands, Spain, Sweden. Switzerland, United Kingdom. and
   United States. The Basel Committee's supervisory standards are also often adopted by nonmember
              w
   countries. Source: Government Accountability Office. Bank Regulators Need to Improve Transparency
   and Overcome Impediments to Finalizing the Proposed Basel II Framework. Report No. 07-253, February
   15,2007.
10 Source: SEC [Commission] Consolidated Supervision of Broker-Dealer Holding Companies Program
    Overview and Assessment Criteria. Commission. 16 Mar 2007.
   <http://www.sec.gov/divisionslmarketreg/cseoverview.htm>.
11 The Commission established criteria (the link is provided belOW) for measuring the success of the
   Consolidated Supervised Entity (CSE) program. While the CSE program may have been successful in .
   achieving its established criteria, none of the criteria standards directly related to the failure of a CSE firm
   and its effect on the broader financial system (as stated in the CSE program's goal statement).
    Source: SEC [Commission] Consolidated Suoervision of Broker-Dealer Holding Companies Program
    Overview and Assessment Criteria. Commission. 16 Mar 2007.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                        September 25, 2008
Report No. 446~A
                                                       viii
compliant with several of these requirements, .but nonetheless collapsed. In
addition, the audit found that TM became aware of numerous potential red flags
prior to Bear Stearns' collapse, regarding its concentration of mortgage
securities, high leverage, shortcomings of risk management in mortgage-backed
securities and lack of compliance with the spirit of certain Basel II standards, but
did not take actions to limit these risk factors.

In addition, the audit found that procedures and processes were not strictly
adhered to, as for example, the Commission issued an order approving Bear
Stearns to become a CSE prior to the completion of the inspection process.
Further, the Division of Corporation Finance (CF) did not conduct Bear Stearns'
most recent 1O-K filing review in a timely manner.

The audit also identified numerous specific concerns with the Commission's
oversight of the CSE program, some of which are summarized as follows: 12
        (a)      Bear Stearns was com~liant with the CSE program's capital and
                                        1
                 liquidity requirements; however, its collapse raises questions
                 about the adequacy of these requirements;
        (b)      Although TM was aware, prior to Bear Stearns becoming a CSE
                 firm, that Bear Stearns' concentration of mortgage securities was
                 increasing for several years and was beyond its internal limits, and
                 that a portion of Bear Stearns' mortgage securities (e.g., adjustable
                 rate mortgages) represented a significant concentration of market
                 risk, TM did not make any efforts to limit Bear Stearns' mortgage
                 securities concentration;
        (c)      Prior to the adoption of the rule amendments which created the
                 CSE program, the broker-dealers affiliated with the CSE firms were
                 required to either maintain:
                      •   A debt to-net capital ratio of less than 15 to 1 (after their first
                          year of operation); or
                      •    Have net capital not less than the greater of $250,000 or two
                           percent of aggregate debit items computed in accordance
                           with the Formula for Determination of Reserve Requirements
                           for Broker-Dealers.

                  However, the CSE program did not require a leverage ratio limit for
                  the CSE firms. Furthermore, despite TM being aware that Bear
                  Stearns' leverage was high, TM made no efforts to require Bear



12 We have no specific evidence indicating whether any of these issues directly contributed to Bear Stearns'
   collapse since our audit scope did not include a determination of the cause of Bear Stearns' collapse
   (see Appendix IV).
13 As discussed in the Scope and Methodology section (see Appendix IV), we did not independently verify
   (i.e., recalculate and determine the accuracy) Bear Stearns' capital or liquidity amounts.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                     September 25, 2008
Report No. 446-A
                                                      IX
               Stearns to reduce its leverage, despite some authoritative sources
               describing a linkage between leverage and liquidity risk;
       (d)·    TM became aware that risk management of mortgages at Bear
               Steams had numerous shortcomings, including lack of expertise by
               risk managers in mortgage-backed securities at various times; lack
               of timely formal review of mortgage models: persistent -
               understaffing; a proximity of risk managers to traders suggesting a
               lack of independence; turnover of key personnel during times of
               crisis; and the inability or unwillingness to update models to reflect
               changing circumstances. Notwithstanding this knowledge, TM
               missed opportunities to push Bear Steams aggressively to address
               these identified concerns;
       (e)      There was no documentation of discussions between TM and Bear
                Steams of scenarios involving a meltdown of mortgage market
                liquidity, accompanied by a fundamental deterioration of the
                mortgages themselves. TM appeared to identify the types of risks
                associated with these mortgages that evolved into the subprime
                mortgage crisis yet did not require Bear Steams to reduce its
                exposure to subprime loans;
       (f)      Bear Steams was not cOmpliant with the spirit of certain Basel II
                standards and we did not find sufficient evidence that TM required
                Bear Steams to comply with these standards;
       (g)      TM took no actions to assess Bear Steams' Board of Directors' and
                senior officials' (e.g., the Chief Executive Officer) tolerance for risk
                although we found that this is a prudent and necessary oversight.
                procedure;
       (h)      TM authorized (without an appropriate delegation of authority) the
                CSE firms' internal audit staff to perform critical audit work involving
                the risk management systems instead of the firms' external
               .auditors as required by the rule that created the CSE program;
        (i)     In June 2007, two of Bear Steams' managed hedge funds
                collapsed. Subsequent to this collapse, significant questions were
                raised about some of Bear Steams' senior managements' lack of
                involvement in handling the crisis. However, TM did not reassess
                the communication strategy component of Bear Steams'
                Contingency Funding Plan (CFP) after the collapse of the hedge
                funds, and very significant questions were once again raised about
                some of Bear Steams' managements' handling of the crisis during
                the week of March 10, 2008;
        0>      The Commission issued four of the five Orders approving firms to
                use the alternative capital method, and thus become CSEs
                (including Bear Steams) before the inspection process was
                completed; and

SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                x·
       (k)     CF did not conduct Bear Steams' most recent 1O-K filing review in
               a timely manner. The effect of this untimely review was that CF
               deprived investors of material information that they could have
               used to make well-informed investment decisions (i.e., whether to
               buy/sell Bear Steams' securities). In addition, the information (e.g.,
               Bear Steams' exposure to subprime mortgages) could have been
               potentially beneficial to dispel the rumors that led to Bear Stearns'
               collapse.

Recommendations. We identified 26 recommendations (see Appendix V) that
should significantly improve the Commission's oversight of CSE firms. Chairman
Cox's and Management's comments are attached in Appendix VI and VII,
respectively. Our recommendations include:
       (a)     A reassessment of guidelines and rules regarding the CSE firms'
               capital and liquidity levels;
       (b)      Taking appropriate measures to ensure that TM adequately·
              . incorporates a firm's concentration of securities into the CSE
                program's assessment of a firm's risk management systems and
                more aggressively prompts CSE firms to take appropriate actions
                to mitigate such risks;
       (c)      A reassessment of the CSE program's policy regarding leverage
                ratio limits;
       (d)    . Ensuring that: (1) the CSE firms have specific criteria for reViewing
                and approving models used for pricing and risk management, (2)
                the review. and approval process conducted by the CSE firms is
                performed in an independent manner by the CSEs' risk
                management staff, (3) each CSE firm's model review and approval
                process takes place in a thorough and timely manner, and (4) limits
                are imposed. on risk taking by firms in areas where TM determines
                that risk management is not adequate;
       (e)      Being more skeptical of CSE firms' risk models and working with
                regulated firms to help them develop additional stress scenarios
                that have not already been contemplated as part of the prudential
                regulation process;
        (f)     Greater involvement on the part of TM in formulating action plans
                for a variety of stress or disaster scenarios, even if the plans are
                informal;
        (g)     Taking steps to ensure that mark disputes do not provide an
                occasion for CSE firms to inflate the combined capital of two firms
                by using inconsistent marks;     .
        (h)     Encouraging the CSE firms to present Value at Risk and other risk
                management data in a useful manner, which is consistent with how

SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                xi
               the CSE firms use the information internally and allows risk factors
               to be applied consistently to individual desks;
       (i)      Ensuring (in accordance with Basel II) that the Consolidated
                Supervised Entities take appropriate capital deductions for illiquid
                assets and appropriate capital deductions for stressed repos,
                especially stressed repos where illiquid securities are posted as
                collateral;
       G)       Greater discussion of risk tolerance with the CSE firms' Boards of
                Directors and senior management to better understand whether the
                actions of CSE firms' staff are consistent with the desires of the
                Boards of Directors and senior management;
       (k)      Requiring compliance with the existing rule that reqUires. external
                auditors to review the CSE firms' risk management control systems
                or seek Commission approval in accordance with the
                Administrative Procedures Act for this deviation from the current
                rule's requirement;
       (I)      Ensuring that reviews of a firm's CFP includes an assessment of a
                CSE firm's intemal and external communication strategies;
       (m)      Developing a formal automated process to track material issues
                identified by the monitoring staff to ensure they are adequately
                resolved;
       (n)      Ensuring that they complete all phases of a firm's inspection
                process before recommending that the Commission allow any
                additional CSE firms the authority to use the alternative capital
                method;                                                    .
       (0)      Improving collaboration efforts among TM, eF, the Office of
                Compliance Inspections and Examination (OCIE), and the Office of
                Risk Assessment (ORA);
        (p)     The development by CF of internal guidelines for reviewing filings
                timely and tracking and monitoring compliance with its internal
                guidelines; and
        (q)     The creation of a Task..Force led by ORA with staff from TM, the
                Division of Investment Management, and OGlE to perform an
                analysis of large firms with customer accounts that hold significant
                amounts of customer funds and have unregulated entities, to
                determine the costs and benefits of supervising these firms on a
                consolidated basis.
The final report consists of 26 recommendations that are addressed primarily to
the Division of Trading and Markets (TM). Recommendations 18 and 25 are also
addressed to the Office of Compliance Inspections and Examinations (OGlE)
and Recommendation 19 is also addressed to the Office of Risk Assessment
(ORA). Recommendations 20 and 21 are addressed to the Division of
SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                xii
Corporation Finance (CF), Recommendation 17 is addressed to CF and TM, and
Recommendation 22 is addressed to Chairman Cox.

In response to the draft report, responsible management officials agreed with 21
out of 26 recommendations. TM concurred with 20 of 23 recommendations
addressed to them and disagreed with Recommendations 13, 15, and-16. OCIE
concurred with both recommendations addressed to them. CF concurred with
Recommendation 17, but disagreed with Recommendations 20 and 21.




SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                               xiii
TABLE OF CONTENTS
Executive Summary                                                                                                  iv

Table of Contents                                                                                                 xiv

Background and Objectives ................................................................•......................... 1

Findings and Recommendations                                                                                      10

       Finding 1:- Bear Stearns Was Compliant With The CSE
       Program's Capital Ratio And Liquidity Requirements, But The
       Collapse Of Bear Stearns Raises Questions About The
       Adequacy Of These Requirements                                                                             10
             Capital                                                                                              10
                Adequacy of Capital Levels                                                                        10
                Increased Access to Secured Financing                                                             11
                Recommendation 1                                                                                  13

                   Liquidity                                                                                      14
                   Recommendation 2                                                                               17

          Finding 2: TM Did Not Adequately Address Several Significant
          Risks That Impact The Overall Effectiveness Of The CSE
          Program                                                                                                 17
               Concentration of Assets                                                                            17
               Recommendation 3                                                                                   18

                  Leverage                                                                                        19
                  Recommendation 4                                                                                20

                  Bear Stearns Model Review Process and Risk
                  Management Staffing Were Inadequate In The Area Of
                  Mortgage Backed Securities                                                                      20
                  Recommendation 5                                                                                24

                  Risk Scenarios                                                                                  24
                  Recommendation 6                                                                                27
                  Recommendation 7                                                                                27

                  Non-compliance With Basel 11                                                                    27
                     Mark Disputes                                                                                27
                     Recommendation 8                                                                             29

                        Inconsistent VaR Numbers                                                                  29
                        Recommendation 9                                                                          29

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                    September 25, 2008
Report No. 446-A
                                                     XIV
                      Bear Stearns' Capital Requirements for Illiquid
                      Assets and Stressed Repos Require Careful
                      Oversight                                                                  29
                      Recommendation 1 D                                                         33

               Tolerance for Risk                                       ;                        33
               Recommendation 11                                               -                 33

        Finding 3: TM, Without Explicit Authority, Allowed The CSE
        Firms' Internal Auditors To Perform Critical Work                                        34
             Recommendation 12                                                                   35

        Finding 4: TM Did Not Review The Communication Strategy
        Component Of Bear Stearns' Contingency Funding Plan After
        The Collapse Of Two Of Its Managed Hedge Funds                                           35
              Recommendation 13                                                                  36

        Finding 5: TM's Monitoring Staff Do Not Adequately Track
        Material Issues                                                                          37
              Develop a Formal Automated Tracking Process                                        37
              Recommendation 14                                                                  38

                Follow-up on Prior OCIE Findings                                                 38
                Recommendation 15                                                                4D

        Finding 6: The Commission's Orders Allowing Firms (Including
        Bear Stearns) To Use The Alternative Capital Method Were
        Generally Approved Before The Inspection Process Was
        Completed                                                                                4D
              Recommendation 16                                                                  41

        Finding 7: Collaboration Between TM and Other Commission
        Divisions/Offices Should Be Significantly Improved                                       41
              Collaboration with CF                                                              41
              Recommendation 17                                                                  42

                Collaboration with OCIE                                                          42
                Recommendation 18                                                                43

                Collaboration with ORA                                                           43
                Recommendation 19                                                                43

        Finding 8: CF's Filing Review Of Bear Stearns' 2DD6 1 D-K
        Was Not Timely                                                                            44
              Review of Bear Stearns' 1 D-K Filing                                               .44
              Recommendation 2D                                                                   45
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program       September 25, 2008
Report No. 446-A
                                                xv
                Bear Stearns' Response to CF's Comment Letter.                               .45
                Recommendation 21                                                             46

        Finding 9: Certain Firms May Pose A Systemic Risk
        Because They Are Not Supervised On A Consolidated Basis                              .46
              Recommendation 22                                                               47

        Finding 10: TM Should Address Organizational Issues
        Involving The Future Of The CSE Program                                              .48
              Changes to the CSE Program                                                     .48
              Recommendation 23                                                               49

                Program Staffing                                                             49
                Recommendation 24                                                            50

                Ethics Manual                                                                50
                Recommendation 25                                                            50

                Coordination with Other Regulators                                           50
                Recommendation 26                                                            51

Appendices
     Appendix I: Acronyms                                                                    52
     Appendix II: Congressional Audit Request                                                54
     Appendix III: Curriculum Vitae (OIG expert: Albert "Pete" Kyle)                         56
     Appendix IV: Scope and Methodology                                                      70
     Appendix V: List of Recommendations                                                     76
     Appendix VI: Chairman Cox's Comments                                                    81
     Appendix VII: Management Comments                                                       83
     Appendix VIII: OIG Response to Chairman Cox & Management
           Comments                                                                          116
     Appendix IX: Gross Leverage Ratios                                                      120
     Appendix X: Criteria                                                                    121




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                XVI
                     Background and Objectives

Background
General Background Information. The Division of Trading and Markets (TM) 14
is responsible for regulating broker-dealers, which includes administering the
Consolidated Supervised Entity (CSE) and Broker-Dealer Risk Assessment
programs. The Office of Compliance Inspections and Examinations (OCIE) has
responsibility within the Securities and Exchange Commission (Commission) for
conducting the inspections 15 of broker-dealers, including broker-dealers that are
affiliated with CSE firms 16 (i.e., investment banks).17 The following TM offices
are directly involved in these programs:
     •   Office of Financial Responsibility: This office is responsible for
         administering the financial responsibility regulations (e.g., net capital rule 18


14 See Acronyms used ir;J Appendix I.
15 The Division of Trading and Markets (TM) uses the term "inspections", however, the Office of Compliance
   Inspections and Examinations (OCIE) uses the term "examinations". For purposes of this audit report, we
   use the term "inspections" to refer to both. In addition, for purposes of this audit report, OCIE also
   includes the Inspection staff in the Commission's regional offices.
16 During our audit fieldwork, there were four Consolidated Supervised Entity (CSE) firms whose principal
   regulator (as discussed below) was the Commission: Goldman Sachs Group, Inc., Lehman Brothers
   Holdings Inc. (Lehman Brothers), Merrill Lynch & Co., Inc., and Morgan Stanley. On September 15,
   2008, Lehman Brothers announced that it would file for bankruptcy protection and Bank of America
   announced that it agreed to acquire Merrill Lynch & Co., Inc. On September 21, 2008, the Federal
   Reserve approved, pending a statutory five-day antitrust waiting period, applications from Goldman
   Sachs and Morgan Stanley to become bank holding companies. The Bear Stearns Companies, Inc.
   (Bear Stearns) was also a CSE firm (approved in November 2005) until its collapse. In addition, JP
   Morgan Chase & Co. (JP Morgan) and Citigroup Inc. have been approved to use the alternative method
   for their broker-dealer capital requirements, but the Board of Governors of the Federal Reserve System
   (Federal Reserve) is their principal regulator (i.e., is responsible for the consolidated entity) but the
   Commission is responsible for the oversight of their broker-dealers. As a result, the Securities and
   Exchange Commission (Commission) defers oversight (of the consolidated entity) of JP Morgan and
   Citigroup to the Federal Reserve to avoid duplicative or inconsistent regulation.
17 In 2007, in response to a Government Accountability Office (GAO) report Financial Market Regulation:
   Agencies Engaged in Consolidated Supervision Can Strengthen Performance Measurement and
   Collaboration. Report 07-154, March 15,2007 (as discussed in the Prior Audit Coverage section of the
   Scope and Methodology - see Appendix III); the Chairman (in consultation with the other Commissioners)
   decided to transfer the responsibility for conducting inspections of the consolidated entities from OCIE to
   TM. The timing of the actual transfer is discussed in more detail later in this report. OCIE retained
   (within the Commission) responsibility for conducting inspections of the CSEs' broker-de-alers. The Self
   Regulatory Organizations (SRO) have the primary inspection responsibility for the registered broker-
   dealers. OCIE has oversight responsibility of these broker-dealers and conducts periodic inspections.
   The Financial Industry Regulatory Authority (FINRA) is the primary regulator of approximately 5,000
   broker-dealers registered in the United States (U.S.).
18 "The net capital rule focuses on liquidity and is designed to protect securities customers, counterparties,
   and creditors by requiring that broker-dealers have sufficient liquid resources on hand at all times to
   satisfy claims promptly". Source: GAO Report Risk~Based Capital Regulatorv and Industry Approaches
   to Capital and Risk, Report No. GGD-98-153, July 20,1998.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                        September 25, 2008
Report No. 446-A


                                                      1
         and customer protection19). These regulations are intended to protect
         customers and financial institutions. This office also oversees the
         Securities Investor Protection Corporation and has approximately nine
                20
         staff.
    •    Office of Prudential Supervision and Risk Analysis: The staff (referred to
         as "monitors") in this office work in teams of three to review each CSE
         firm. They perform their work mainly through periodic meetings and
         informal discussions with CSE staff. The staff also review CSE required
         financial filings. The staff have backgrounds in economics, accounting,
         and finance and expertise in credit, market, or liquidity risk. Approximately
         13 individuals comprise the staff.
    •    Office of CSE Inspections: this office is responsible for conducting the
         inspections on the CSE firms. They have seven staff who are located in
         both Washington D.C. and New York.

CSE Program. In 2004, the Commission adopted rule amendments under the
Se'curities and Exchange Act of 1934,21 which created the voluntary CSE
program. This program allows the Commission to supervise certain broker-
dealer holding companies on a consolidated basis. In this capacity, Commission,
supervision extends beyond the registered broker-dealer to the unregulated
affiliates of the broker-dealer and the holding company itself. The CSE program
was designed to allow the Commission to monitor for financial or operational
weakness in a CSE holding company or its unregulated affiliates that might place
United States (U.S.) regUlated broker-dealers and other regulated entities at risk.

A broker-dealer becomes a CSE by applying to the Commission for an
exemption from the Commission's standard net capital rule,22 and the broker-
gealer's ultimate holding company consenting to group-wide Commission'
supervision, if it does not already have a principal regUlator. By obtaining an
exemption from the standard net capital rule, the CSE firms' broker-dealers are
                                                                23
permitted to compute net capitai using an alternative method. ,



19 The  customer protection rule "is designed to ensure that customer property (securities and funds) in the
   custody of broker-dealers is adequately safeguarded:
   Source: GAO Report Risk-Based Capital Regulatory and Industry Approaches to Capital and Risk,
   Report No. GGD-98-153, July 20,1998.
20 The Securities Investor Protection Act of 1970. 15 U.S.C. § 78aaa et. seq., as amended, was enacted to
   protect customers from losses resulting from a broker-dealers' failure, thereby promoting investor .
 . confidence in the securities markets. The Securities Investor Protection Corporation was created by the
   Act to pay investor claims. (See 15 U.S.C. § 78ccc).
21 Source: Final Rule: A1temative Net Capital Requirements for Broker-Dealers That Are Part of
   Consolidated Supervjsed Entities (69 Fed Reg. 34.428). Commission. 21 June 2004,
   <http://www.sec.gov/ruleslfinal/34-49830.htm>.
22 See 17 C.F.R. § 24015c3-1.
23 The altemative capital method is based on mathematical models and scenario testing, while broker-
   dealers operating under the' standard net capital rule must meet certain ratios and maintain minimum net
   capital levels based on the type of securities activities they conduct. (See 17 C.F.R. 240.15c3-1(a)(7».
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                      September 25. 2008
Report No. 446-A
                                                     2
The Commission designed the CSE program to be broadly consistent with the
Board of Governors of the Federal Reserve System's (Federal Reserve)
oversight of bank holding companies. However, the CSE program "reflects the
reliance of securities firms on mark-to-market -accounting as a critical risk and
governance control. Second, the design olthe CSE regime reflects the critical
importance of maintaining adequate liquidity in all market environments for
holding companies that do not have access to an external liquidity provider.n24
                                                                             25
 The CSE application process includes TM reviewing a firm's application (for an
 exemption from the net capital rule) and makes a recommendation to the
 Commission. Approval of. the firm's application is contingent on the firm agreeing
 to group-wide Commission supervision of the consolidated entity (including
.unregulated affiliates), if the firm does not already have a principal regulator. In
 addition, CSE firms must agree to:
     •   "Maintain and document an internal risk management control system for
         the affiliategroup;n26                           .   -
     •   "Calculate a group-wide capital adequacy measure consistent with the
         international standards adopted by the Basel Committee on Banking
         Supervision [27] ('Basel Standards,).,,28 The CSEs are required to maintain
         an overall Basel capital ratio29 of not less than the Federal Reserve's 10
         percent "well-capitalized" standard for bank holding companies. The CSE
         must notify the Commission (e.g., file an EarlyWaming Notice) if the 10
         percent capital ratio is or is likely to be violated,3o or if tentative net capital
         of the broker-dealer falls below $5 billion;31


24 Source: Examining Regulation and SupelVision of Industrial Loan Companies Before us Senate           .
   Committee on Banking, Housing and Urban ~ffairs, 110lh Cong. (October 4,2007) (statement of Erik
   Slm, Director ofTM, Commission).
25 The application process includes inspections whose purPose is to verify the information the firms
   provides during the application process and to "assess the adequacy of the implementation of the firm's
   internal risk management policies and procedures."
   Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
   2008. <http://www.sec.gov/divislonslmarl<etreg1hcsupervision.htm>..
26 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
   2008. <http://www.sec.gov/divisionslmarl<etreg/hcsupervision.htm>. .
27 "The Basel Committee on Banking Supervision (Basel Committee) seeks to Improve the quality of
   banking supervision worldwide, in part by developing broad supervisory Standards. The Basel Committee
   consists of central bank and regulatory officials from 13 member countries: Belgium, Canada, France,
   Germany, Italy, Japan, Luxembourg, the Netherlands, Spain, Sweden, Switzerland, United Kingdom, and
   United States. The Basel Committee's supervisory standards are also often adopted by nonmember .
   countries." Source: GAO. Bank Regulators Need to Improve Transparencv and Overcome Impediments
   to Finalizing the Proposed Basel II Framework. Report No. 07-253, February 15, 2007.
28 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
   2008. <http://www.sec.gov/divisionslmarl<etreg/hcsupervisioh.htm>. [footnote added]
29 The Basel capital ratio is capital divided by risk weighted assets.
30 We are aware of one instance where this occurred. In our opinion, TM acted reasonably..
31 Sources for the infonnation include:                                                     .
      • Risk Management and its Implications for Systemic Risk Before U.S. Senate Committee on
                                                      th
          Banking, Housing and Urban Affairs, 110 Congo (June 19, 2008) (statement of Erik Sim, Director
          ofTM, Commission); and                        .
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                 September 25, 2008
Report No. 446-A
                                                    3
     •   Maintain "sufficient stand-alone liquidity and sufficient financial resources
         to meet its expected cash outflows in a stressed liquidity environment
         where access to unsecured funding is not available for a period of at least
         one year. Another premise of this liquidity planning is that any assets held
         in a regulated entity are unavailable for use outside of the entity to deal
         with weakness elsewhere in the holding company structure, based on the
         assumption that during the stress event, including a tightening of market
         liquidity, regulators in the U.S. and relevant foreign jurisdictions would not
         permit a withdrawal of capital;,,32          .
     •   "Consent to Commission examination [inspection] of the books and
         records of the ultimate holding company [i.e., the consolidated enti~l and
         its affiliates, where those affiliates do not have principal regulators;"
     •   "Regularly report qn the financial and operational condition of the holding
         company, and make available tc) the Commission information about the
         ultimate holding company or any of its material affiliates that is necessary
         to evaluate financial and operations risks within the ultimate holding
         company and its material affiliates;,,34 and
     •   "Make available [examination] inspection reports of principal regulators for
         those affiliates that are not subject to Commission [examination]
         inspection.,,35

  The firms agreed to consolidated supervision because of the preferential capital
 ·treatment under the alternative method and international reqUirements. The
  European.Union's (EU) Conglomerates Directive reqUired that affiliates of U.S.
  registered broker-dealers demonstrate that they were subject to consolidated
  supervision by a U.S. regulator or face significant restrictions on their European
. operations. 36               .

     •      Final Rule: Alternative Net Capital Requirements for Broker-Dealers That Are Part of Consolidated
            Supervised Entities (69 Fed Reg. 34-428). Commission. 21 June 2004.
            <http://www.sec.gov/ruleslfinal/34-49830.htm>.
 32 Source: Risk Management and its Implications for Systemic Risk Before u.s. Senate Committee on
    Banking, Housing and Urban Atfuirs, 110lh Congo (June 19, 2008) (statement of Erik Sim, Director ofTM,
    Commission),
 33 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisionslmarketreg/hcsupervision.htm>.                      .
 34 Source: SEC [CommisSion] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisionslmarketreg/hcsupervision.htm>.
 35 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisions/marketreg/hcsupervision.htm>.
 36 According to the CSE final rule, "EU [European Union] 'consolidated supervision' consists -of a series of
    quantitative and qualitative rules, imposed at the level ofthe ultimate holding company, regarding firms'
    internal controls, capital adequacy, intra-group transactions, and risk concentration. Without a
    demonstration of 'equiValent' supervision, U.S. securities firms have expressed concems that an affiliate
    institution located in the EU either may be subject to additional capital charges or be required to form a
    sub-holding company in the EU: See 'Directive 2002l87/EC of the European Parliament and of the
    Council of 16 December 2002." Source: Final Rule: Alternative Net Capital Requirements for Broker-
    Dealers That Are Part of Consolidated Supervised Entities (69 Fed Reg. 34.428). Commission. 21 June
    2004. <http://www.sec.gov/rules/final/34-49830.htmP42 10820>.
 SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                   September 25, 2008
 Report No. 446-A
                                                       4
Mortgage Loans. Beginning around late 2004, lenders offered mortgages to
individuals who did not meet the normal qualifications (e.g., income or credit
history). Many of these loans had teaser rates and/or were interest only. These·
more risky loans are referred to as "subprime mortgages." The theory behind
approving these risky loans was that the homeowner would be able to -refinance
the loan in a few years because of the increased growth in home values and the
individual's improved credit rating. Banks converted these loans into securities
and sold the securities to other firms (known as the securitization process).

Once home values began to decrease, mortgage loan defaults started to
increase, causing the market value of the mortgage securities to decrease. In
the ensuing months, the financial services industry wrote-down billions of dollars
                                                  37
in the value of all types of mortgage securities.

Bear Stearns' Collapse.38 The Bear Steams Companies, Inc. (Bear Steams)
was a holding company that had two registered broker-dealers. -Its main
activities were investment banking, securities and derivatives sales and trading,
clearance, brokerage and asset management. 39 Bear Steams was highly
           40
leveraged with a large exposure (i.e., concentration of assets) in mortgage-
                   41
backed securities. Bear Steams also had less capital and was less diversified
than several of the CSE firms.

In June 2007, two of Bear Steams' managed hedge funds collapsed because of
                            42
subprime mortgage losses. Nearly a year later, dUring the week of March 10,
2008, rumors spread about liqUidity problems at Bear Steams. Due to Bear
Steams' lenders not rolling over secured financing, Bear Steams faced severe
                                      43
liqUidity problems on March 14,2008. As a result, on March 14,2008, JP
Morgan Chase & Co. (JP Morgan) provided Bear Steams with emergency


87 In accordance with Generally Accepted Accounting Principles, the securities must be valued at fair
   market value (i.e., mark to market accounting).
38 Sources for this Information include:
      •   Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
          Before U.S. Senate Committee on Banking, Housing and Urban Affairs, 11 Oth Congress (April 3,
          2oo8) (statement of Timothy Geithner, President and Chief Executive Officer, Federal Reserve
          Bank of New York (FRBNY);              .                                                 .
      •   Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
           Before U;S. Senate Committee on Banking, Housing and Urban Affairs, 110th Congress (April 3,
           2008) (statement of Jamie Dimon (Chairman and Chief Executive Officer, JP Morgan); and
       •   Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators .
           Before U.S. Senate Committee on Banking, Housing and UrI;lan Affairs, 11 Oth Congress (April 3,
           2008) (statement of Alan Schwartz (President and Chief Executive Officer, Bear Steams).
89 Source: 2006 Bear Steams' Annual Report (page 32).
40 There are many definitions of leverage. A simple definition of leverage is assets divided by capital. Bear
   Steams' gross leverage ratio was about 33-1 .. See Appendix IX.
                                                                         u
41 Depending on the definition used to classify a mortgage as "subprime , Bear Steams' exposure to
   5ubprime mortgages varied.' However, it clearly had a large exposure to mortgage securities overall.
42 Bear Steams' direct exposure to these hedge funds was minimal.
43 A pledge of collateral supports secured financing.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                    September 25, 2008
Report No. 446-A
                                                     5
            44
funding. According to Congressional testimony,45 after the markets closed on
March 14, 2008, it became apparent that FRBNY's funding could not stop Bear'
Steams' downward spiral. As a result, Bear Stearns concluded that it would
need to file for bankruptcy protection on March 17, 2008, unless another firm
              46
purchased it. On March 16, 2008, Bear Stearns' sale to JP Morgan was
announced with financing support from the FRBNY. In May 2008, the-sale was
completed.

In testimony given before the Senate Committee on Banking, Housing, and
Urban Affairs on-April 3, 2008, Chairman Christopher Cox stated that Bear
                                                                               47
Steams' collapse was due to a liquidity crisis caused by a lack of confidence.
Chairman Cox described Bear Steams' collapse as a "run on the bank'.48 which
occurred exceptionally fast and in an already distressed market environment
(i.e., the credit crisis). Specifically, Chairman .Cox testified as follows:
          What happened to Bear Steams during the week of March 10th
          was likewise unprecedented. For the first time, a major iRvestment
          bank that was well-capitalized and apparently fully liquid
          experienced a crisis of confidence that denied it not only unsecured
          financing, but short-term secured financing, even when the
          collateral consisted of agency securities with a market value in
          excess of the funds to be borrowed. Counterparties would not
          provide securities lending services and clearing services. Prime
          brokerage clients moved their cash balances elsewhere. These
          decisions ~y counterparties, clients, and lenders to no longer
          transact with Bear Steams in tum influenced other counterparties,
          clients, and lenders to also reduce their exposure to Bear
          Steams.49 .




44   The funding was from FRBNY through JP Morgan to Bear Steams because JP Morgan could borrow
     money from FRBNY.
45 SoUrce: Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
                                                                              th
   Before U.S. Senate Committee on Banking, Housing and Urban Affairs, 110 Congress (April 3, 2008)
   (statements of Timothy Geithner, President and Chief Executive Officer, FRBNY) arid Alan Schwartz,
   President and Chief Executive Officer, Bear Steams).
46 Source: Turmoil in the U.S. Credit Markets: Examining the RegUlation of Investment Banks by the
   Securities' and Exchange Commission Before the U.S. Senate on Securities, Insurance, and Investment
   110111 Cong. (May 7,2008) (statement of Erik Sirri, Director ofTM, Commission).         _
47 Source: Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
                                                                            lh
   Before US Senate Committee on Banking, Housing and Urban Affairs, 110 Congo (April 3, 2008)
   (statement of Christopher Cox, Chairman, Commission).                 .
48 Source: Turmoil in U.S. Credit Markets: Examining the Recent Actions of Federal Financial Regulators
   Before US•. Senate Committee on Banking, Housing and Urban Affairs, 110th Cong. (April 3, 2008)
   (statement of Christopher Cox, Chairman, Commission).
49 Source: Turmoil in U.S. Credit Markets: Examining the Recent Actions of FederafFinancial Regulators
                                                                               th
   Before U.S. Senate Committee on Banking, Housing and Urban Affairs. 110 Congo (April 3, 2008)
  .(statement of Christopher Cox, Chairman, Commission).
SEC's Over'Sight of Bear Steams and Related Entities: The CSE Program               September 25. 2008
Report No. 446-A
                                                   6
According to a Commission press release,50 TM monitored Bear Stearns' capital
and liquidity daily since Bear Stearns' hedge funds collapsed. According to data
(provided to TM by Bear Stearns), there was adequate capital at the holding
company level and at Bear Stearns' two registered broker-dealers prior to and
dUring the week of March 10,2008. hi addition, the Commission stated that
Bear Steams was compliant with the $5 billion liquidity requirement,51-
Furthermore, according to data we reviewed, Bear Steams had significantly
                                               52
increased its liquidity levels since May 2007.                            .

The Commission stated that neither the CSE program nor any regulatory model
(i.e., the Basel Standards)53 used by commercial or investment banks considered
the possibility that secured financing, even when backed by high-quality .
collateral could become completely unavailable. Instead, the CSE program only
considered that a deterioration of secured financing could occur (e.g., that
financing terms could become less favorable) and that unsecured funding could
be unavailable for at least one year.

The Commission's Response to Bear Steams' Collapse. In the aftermath of
Bear Steams' collapse, the Commission has:
     •   Supported the work of the Basel Committee on Banking Supervision
         regarding their planned updated guidance (i.e., strengthening the
         standards applicable to liqUidity risks) on liquidity management;54
     •   Supported legislation to make the CSE program mandatory.55 At a recent
         Congressional hearing before the Committee on Financial Services,
         House of Representatives, July 24, 2008, Chairman Christopher Cox
         stated:


60 Source: Statement of SEC Division ofTradinq and Mar1<ets Regarding The Bear Steams Companies.
   Commission. 14 March 2008. <http://www.sec.gov/news/pressl2008/2008-44.htm>. The Chairman alsO
   made similar statements in his letter to the Basel Committee regarding liquidity management; and
   testimony (Turmoil in U.S. Credit Market Examining the Recent Actions of Federal Rnancial RegUlators
   Before US Senate Committee on Banking, Housing and Urban Affairs,11Oth Cong. (April 3, 2008)
  (statement of Christopher Cox, Chairman, Commission».
51 As discussed in the Scope and Methodology section (see Appendix IV), we did not independently verify
   (i.e., recalculate and determlne·the accuracy) Bear Steams' capital or liquidity amounts.
52 According to the Commission, Bear Steams had a high of $21 billion (in liqUidity) in early March 2008,
   (I.e., before the week of March 10), compared to $7.6 billion in May 2007 according to TM data.
   Source: Chairman Cox Letter to Basel Committee in Sypport ofNew Guidance on liquidity Management.
   Commission. 14 March 2008. <htlp:llwww.sec.gov/newslpress/2008/2008-48.htm>.
63 The CSE firms operate under the Basel II standards.
64 Source: Chairman Cox Letter to Basel Committee in Support of New Guidance on liquiditY Management.
   Commission. 14 March 2008. <htlp:llwww.sec.gov/neWstpressl2008/2008-48.htm>.
55 Sources of this information include:
      •     Risk Management and its Implications for Systemic Risk Before U.S. Senate Committee on
            Banking, Housing and Urban Affairs, 110lh Congo (June 19, 2008) (statement of Erik Sirri; Director
            ofTM, Commission); and
      •     Systemic Risk and the Financial Markets Before U.S. House of Representatives Committee on
                                   lh
          . Financial Services, 110 Congo (July 24,2008) (statement of Christopher Cox, Chairman,
            Commission).
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                     September 25, 2008
Report No. 446-A
                                                      7
                 The mandatory consolidated supervision regime for
                 investment banks should provide the SEC
                 [Commission] with several specific authorities.      .
                 Broadly, with respect to the holding company, these
                 include authority to: set capital and liquidity
                 standards; set recordkeeping and reporting
                 standards; set risk management and internal control
                 standards; apply progressively more significant
                 restrictions on operations if capital or liquidity
                 adequacy falls, including requiring divestiture of lines
                 of business; conduct examinations and generally
                 enforce the rules; and share information with other
                 regulators. Any future legislation should also establish
                 a process for handling extraordinary problems,
                 whether institution-specific or connected with broader
                 market events, to provide needed predictability and
                 certainty.56                               , -
     •   Requested dedicated Congressional funding for the CSE program and
         increased CSE staffing from about 25 to 40 people;57
     •   Consulted with the CSE firms on their liquidity situation (e.g., funding
         plans). Specifically, the Commission worked with the firms to:
             o    increase their liquidity levels;5B
             o lengthen the terms of their secured and unsecured financing;59
             o review their risk practices and models;6o
             o    discuss their long-term funding plans, including plans for raising
                  new capital by accessing the equity and long-term debt markets;61
             o increase their public disclosures of their capital and liquidity;62




56 Source: Systemic Risk'and the Financial Markets Before U.S. House of Representatives Committee on
  ,Financial Services, 11 Olh Cong. (July 24, 2008)(statement of Christopher Cox, Chairman, Commission).
57 Source: Risk Management and Its Implications for Systemic Risk. Before U.S. Senate Committee on
   Banking, Housing and Urban Affairs, 11 Oth Congo (June 19, 2008) (statement of Erik Sirri, Director of TM,
   Chairman, Commission).
58 Source: Turmoil in U.S. Credit Market Examining the Recent Actions of Federal Financial Regulators,
   Before the U.S. Senate Committee on Banking, Housing, and Urban Affairs, 11 Oth Cong. (~pril 3, 2008)
   (statement of Christopher Cox, Chairman, Commission).
59 Source: Turmoil in the U.S. Credit Markets: Examining the Regulation of Investment Banks by the
   Securities and Exchange Commission Before the U.S. Senate on Securities, Insurance, and Investment
       th
   110 Congo (May 7, 2008) (statement of Erik Sirri, Director ofTM, Commission).
60 Source: Turmoil in the U. S. Credit Markets: Examining the RegUlation of Investment Banks by the
   Securities and Exchange Commission Before the U.S. Senate on Securities, Insurance, and Investment
       th
   110 Congo (May 7, 2008) (statement of Erik Sirri, DirectorofTM, Commission).                '
61 Source: Systemic Risk and the Financial Markets Before U.S. House of Representatives Committee on
                           th
   Financial Services, 110 Congo (July 24, 2008) (statement of Christopher Cox, Chairman, Commission).
SEC's Oversight of Bear Steams and Related Entitles: The CSE Program                   September 25, 2008
Report No. 446-A
                                                      8
     •   Invited FRBNY examiners to review·the CSE firms' funding and how the
         firms are managing their funding;63 and
     •   In July 2008, the Commission and the Federal Reserve agreed on a
         Memorandum of Understanding (MOU) involving coordination and
                              64
         information sharing.                                       . _




Objectives
As a result of the collapse of Bear Steams in March 2008, we received a
Congressional request to perform this audit of the Commission's CSE Program,
in addition to an audit of the Commission's Broker-Dealer Risk Assessment
Program (see Appendix II).

The objectives of this audit were to evaluate the Commission's CSE program,
emphasizing the Commission"s oversight of Bear Steams and to determine
whether improvements are needed in the Commission's monitoring of CSE firms
and its administration of the CSE program.

The objectives of the audit on the Commission's Broker-Dealer Risk Assessment
Program were to follow up on recommendations made in the Office of Inspector
General's (DIG) prior audit report of the Risk Assessment Program (Broker-
Dealer Risk Assessment Program, Report No. 354, issued on August 13, 2002)
and to examine the Broker-Dealer Risk Assessment process to determine
whether improvements are needed. Audit report number 446-8 discusses the
Risk Assessment Program in detail and addresses these objectives.




                                                                                           -
62   Source: Speech by SEC [Commission] Chairman: Address to the Security Traders 12th Annual
   . Washington Conference. Commission. 7 May 2008.
     <http://www.sec.gov/news/speech/2008/spch050708cc.htm>.
 63 Source: Turmoil in U.S. Credit Market: Examining the Recent Actions of Federal Financial Regulators
     Before US Senate Committee on Banking, Housing, and Urban Affairs, 110th Cong; (April 3, 2008)
     (statement of Christopher Cox, Chairman, Commission).
.64 SEC [Commission], FRB Sign Agreement to Enhance Collaboration. Coordination and Information
     Sharing. Commission. 7 July 2008. <http://www.sec.gov/news/pressl2008/2008-134.htm>.

SEC's Oversight of Bear Steams and Related Entities: The CSE Program                  September 25, 2008
Report No. 446-A
                                                     9
                     Findings and Recommendations

 Finding 1: Bear Stearns Was Compliant With The
 CSE Program's Capital Ratio And Liquidity -
 Requirements, But The Collapse Of Bear Stearns
 Raises Questions About The Adequacy Of These
 Requirements 65

          Bear Steams was compliant with .the capital and liquidity
          requirements; however, its collapse raises serious questions about
          the adequacy of these requirements.


 Capital 66
 Adequacy of Capital Levels
  In 2004, the Commission adopted rule amendments under the Securities and
  Exchange Act of 1934, which created the CSE program and allowed broker-
. dealers to apply for an exemption from the net capital rule and instead use the
  alternative capital method. 67 The Commission designed the CSE program to be
  broadly consistent with the Federal Reserve's oversight of bank holding
  companies; However, the CSE I?rogram "reflects the reliance of securities firms
  on mark-to-market accounting            r1
                                     as a critical risk and governance control.
  Second, the design of the CSE regime reflects the critical importance of
  maintaining adequate liquidity in all market environments for holding companies
  that do not have access to an extemalliquidity provider." 69

 If approved, a firm must comply with capital requirements at both the holding
 company and the broker-dealer levels. The CSEs at the holding company level
 are required to maintain an overall Basel capital ratio of not less than the Federal


 66 The   capital ratio requirement is stipulated by Basel II, which TM incorporated into the CSE program. TM
    developed the CSE program's liquidity requirements.
 66 Capital is the difference between a firm's assets and liabilities.
    Source: Answers to Frequently Asked Investor Questions Regarding The Bear Steams Companies, Inc.
    Commission. 8 March 2008. <http://www.sec.gov/newslpresS/2008/2008-46.htm>.                      .
 67 The alternative. capital method is based on mathematical models and scenario testing while broker-
    dealers operating under the standard net capital rule must meet certain ratios and maintain minimum net
    capital levels based on the type of securities activities they conduct.
 68 Mark-ta-market accounting refers to a reqUirement that the securities must be valued at fair market value
    in accordance with Generally Accepted Accounting Principles.
 69 Source: Examining Regulation and Supervision of Industrial Loan Companies Before U.S. Senate
                                                                th
    Committee on Banking, Housing and Urban Affairs, 110 Congo (October 4, 2007) (statement of Erik
    Sirri, Director ofTM, Commission).
 SEC's Oversight of Bear Steams and Related Entities: The CSE Program                        September 25, 2008
 Report No. 446-A
                                                       10
                                                                                  7o
Reserve's 10 percent "well-capitalized" standard for bank holding companies.
In addition, a broker-de~ler calculating its capital using the alternative method
                                     71
must maintain tentative net capital of at least $1 billion and net capital of at
least $500 million. If the tentative net capital of a broker-dealer using alternative
                                                                72
method falls below $5 billion, it must nptify the Commission.

According to Bear Steams' data, it exceeded the required capital amounts at the
holding company and broker-dealer" level the entire time it was in the CSE
                                                       73
program, including during the week of March 10,2008. Although Bear Steams
was compliant with the capital requirements, there are serious questions about
                                                          74
whether the capital requirement amounts were adequate. For instance, some
individuals have speculated that Bear Steams would not have collapsed if it had
more capital than was required by. the CSE program. In fact, a former Director of
               75
TM has stated:
        The losses incurred by Bear Steams and other large broker-dealers
        were not caused by 'rumors' or a 'crisis of confidence,' but rather by
        inadequate net capital and the lack of constraints on the incurring
        of debt.

Increased Access to Secured Financing
Notwithstanding the fact that Bear Steams was compliant with the CSE
program's capital requirements, there are serious questions about whether Bear
Steams had enough capital to sustain its business model. As the subprime crisis
unfolded, Bear Steams' cost of unsecured financing tended to increase. For
example, by March 2008, a ten-year bond wfJich had recently been issued at a
spread of 362 basis points over Treasury rates was trading at 460 basis points
over Treasury rates. The high spread indicates that market participants believed
that Bear Steams' creditworthiness was deteriorating in a manner consistent with
downgrades by ratings agencies. According to the expert retained by the OIG in
connection with this aUdit,76 the high cost of financing tended to undermine the

10 Source: SEC [Commission] Holding Company Supervision with Respect to Capital Standards and
   liquidity Planning. Commission. 7 Mar 2007. <http://www.sec.gov/divisions/marketreg/hcliquidity.htm>.
11 T~ntative capital is net capital before deductions for market and credit risk.                "
12 Source: Final Rule: Alternative Net Capital Requirements for Broker-Dealers That Are Part of
   Consolidated Supervised Entities (69 Fed Reg. 34.428). Commission. 21 June 2004.
   <http://www.sec.gov/rules/finall3449830.htm>.
13 Source: Chairman Cox Letter to Basel Committee in Support of New Guidance on liquiditY Management.
" Commission. 14 March 2008. <http://www.sec.gov/news/press/2008/2008-48.htm>.               .
14 It is worth noting that prior to the current mortgage crisis, a main concem surrounding the securities
   industry was a real/perceived lack of competitiveness with overseas markets. One specific area of
   concern was that U.S. firms were potentially at a competitive disadvantage because U.S. regulators were
   requiring excessive capital compared to foreign banks. Source: Sustaining New York's and the US'
   Global Financial Services Leadership (Recommendation 6, page 24) by McKinsey & Company.
15 Source: Pickard Lee. ·SEC's [Commission] Old Capital Approach Was Tried-and-True." American Banker
   August 8, 2008.
16 Professor Albert S. (Pete) Kyle was retained by the Office of Inspector General (OIG) to provide
   assistance with this audit. See Appendix III for Professor Kyle's Curriculum Vitae and the Methodology
   section of AppendiX IV.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                      September 25, 2008
Report No. 446-A
                                                     11
viability of Bear Steams' business model, which relied heavily on leverage.
Therefore, to preserve the viability of its business model, Bear Stearns had a
strong incentive to lower its financing costs. One way to lower borroWing costs is
to raise new equity capital, thus providing a larger equity cushion to protect
unsecured lenders. To the extent that secured financing was cheaper than
unsecured financing, another way for Bear Steams to lower its borrowing costs
was to shift its funding model from unsecured to secured financing.

From April 2006 to March 2008, Bear Steams' Basel capital ratio
                  -            : 77   .                   .  .  ': in March 2008, TM
inquired about whether Bear Steams was contemplating capital infusions, but \
            .  I does not suggest that TM exerted influence over Bear Steams to

raise additional capital. 78 The DIG expert was unable to find .               .. .
         J that TM had formally required or informally pressured Bear Steams to
raise additional equity capital prior to March 2008. In this sense, TM acted as
though it did not believe it had a mandate to compel Bear Stea~s to raise .
additional capital as long as its Basel capital ratio was greater than 10%. In fact,
Bear Steams did not raise additional capital during this time in 2007 or 2008.

                                           •                           in                I


November 2006, Bear Steams initialea a plan to inCrease its availability of
secured funding at the holding company level. 79 One component of this plan
                                            80
involved a tn-party repurchase agreement with secured ·Ienders, giving Bear
Steams access to                                         t Bear Steams' secured
borrowings were initially for terms of          with the goal of extending the
                                                            I

terms to .                       . . ~ By May 2007, Bear Steams' short-term
borrowin~was,.              secured and by September 2007, it was
secured. Finalll4 by.March 2008, Bear Steams' sho~-term borrowing .was
        secured. Nevertheless, Bear Steams Was stili unable to obtain
ad~uate secured funding to save the firm in March 2008.




                                               .                                              -
80   In a tn-partY. repo arrangement, a third party I                 , • acts as a custodian for loans
     between Bear Steams and other lenders. The custodian holds Bear Steams assets as collateral for the
     loans from the other lenders. Bear Steams used this tn-party repurchase agreement (repo) facility to
     finance assets which were otherwise difficult to fund,




---------_.......__ --------......._---........;-----
                                               ..~--
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                  September 25, 2008
Report No. 446-A
                                                       12
Bear Steams' increasing reliance on secured funding indicates that, although it
appeared to be compliant with CSE program's capital requirement, the market
did not perceive it to be sufficiently capitalized to justify extensive unsecured
lending. In this sense, Bear Stearns was not adequately capitalized.

These facts illustrate that although Bear Stearns was compliant with the CSE
program's ten percent Basel capital requirement, it was not sufficiently
capitalized to attract the funding it needed to support its business model.
Although the Cpmmission has maintained that liquidity (not capital) problems
caused Bear Steams' collapse, this alidit found that it is entirely possible that
Bear Steams' capital levels could have contributed to its collapse by making
lenders unwilling to provide Bear Steams the funding it needed.

The fact that Bear Steams collapsed while it was compliant with the CSE
program's capital requiremerits raises serious questions about the adequacy of
the CSE program's capital ratio requirements.

The CSE capital requirements are· broadly consistent with the Basel"
framework. The Basel II framework is based on three pillars: (1) minimum
capital requirements, (2) supervisory review, and (3) market discipline in the form
of increased pUblic disclosure.85 CSE firms caiculate their capital ratios in a
manner consistent with a models-based approach of pillar 1. Under pillar 2,
supervisors are required to ensure that banks comply with the minimum capital
reqUirements of pillar 1; address risks not fully captured by pillar 1, including
liquidity risk and credit concentration risk; and encourage good risk management
practices. Under pillar 2, supervisors should expect banks to operate above the
minimum regulatory capital ratio~, and should intervene at an early stage to
prevent banks from falling below minimum levels required to support the risk
characteristics of a particular bank, inclUding requiring banks to raise additional
capital immediately.86 Pillar 3 establishes disclosure requirements that aim to
inform market participants about banks' capital adequacy in a consistent
framework·that enhances comparability.8? The Basel" framework does not
dictate a maximum capital ratio, but instead gives the supervisor the ability to set"
a high enough capital ratio to be consistent with the characteristics Qf the banks
it regulates.

Recommendation 1:
The Division of Trading and Markets, in consultation with the Board of Governors
of the Federal Reserve System and the Basel Committee should: (1) reassess
the gUidelines and rules regarding the Consolidated Supervised Entity (CSE)

85 Source: GAO. Bank Regulators Need to Improve Transparency and Overcome Impediments to Finalizing
   the Proposed Basel II Framework. Report No. 07-253, page 20. February 15, 2007.
86 Source: Basel Committee on Banking Supervision. International Convergence on Capital Measurement
   and Capital. Standards, June 2006, paragraphs 9 and 756-760. < http://www.bis.org/publlbcbs128.pdf>.
87 Source: GAO. Bank Regulators Need to Improve Transparency and Overcome Impediments to Finalizing
   the Proposed Basel II Framework. Report No. 07-253, page 91. February 15, 2007.

SEC's Oversight of Bear Steams and Related Entities: The CSE Program               September 25, 2008
Report No. 446-A
                                                  13
 firms' capital levels: and (2) identify instances (e.g., a firm's credit rating is
 downgraded, or its unsecured debt trades at high spreads over Treasuries) when
 firms should be required to raise additional capital, even if the firm otherwise
 appears to be well capitalized according to CSE program requirements.

 Liquidity 88
 The Commission designed the CSE program to ensure that, in, a stressed
 environment, a firm could withstand the loss of its unsecured financing for up to
 one year,89 under the assumption that secured funding for liquid assets would be
 available. In addition, the liquidity analysis assumes that any assets held in a
 regulated entity are unavailable for use outside of the entity to deal with liquidity
 issues elsewhere in the consolidated entity.9o The CSE program's gUidelines on
 liquidity implement supervisory principles concerning liquidity in a manner that
                                                      91
 attempts to be consistent with pillar 2 of Basel 11.      .

 According to agreements between the Commission and the United Kingdom's
 Financial Services Authority entered into in April 2006, each CSE is required to
 maintain a liquidity portfolio of cash or highly liquid debt and equity securities of
 $10 billion, with the exception of Bear Steams, which was required to maintain a
 liquidity portfolio Qf $5 billion. The liquiditY requirement for Bear Steams was
 lower because it was the smallest eSE. Bear Steams was continuously
 compliant with this reqUirement.

 Bear Steams initiated a plan in November 2006 to increase its liquidity levels and
 in fact (according to TM data), it significantly increased its liquidity levels from


. 88   According to the Commission, "Plt is important to realize capital is not synonymous with liquidity. A firm
       can be highly capitalized, that is, can have more assets than liabilities, but can have liquidity problems if
       the assets cannot quickly be sold for cash or alternative sources of liquidity, including credit, obtained to
       meet other demands. While the ability of a securities firm to withstand market, credit, and other types of
       stress events is linked to the amount of capital the firm possesses, the firm also needs sufficient liquid
       assets, such as cash and U.S. Treasury securities, to meet its financial obligations as they arise.

    Accordingly, large securities firms must maintain a minimum level of liqUidity in the holding company.
    This liquidity is intended to address pressing needs for funds across the firm. This liquidity consists of
    cash and highly liquid securities fur the parent company to use without restriction.·
    Source: Answers to Frequently Asked Investor Questions Regarding The Bear Steams Companies. Inc.
    Commission. 18 March 2008. <http://www.sec.gov/newslpress/2008l2008-46.htm>.
 89 Source: Risk Management and its Implications fur Systemic Risk Before the U.S. Senate
    Subcommittee on Securities, Insurance, and Investment Committee on Banking, Housing. and Urban
    Affairs, 110th Congo (June 19,2008) (statement by Erik Sim, DirectorofTM, Commission).
 90 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://WNW.sec.gov/divisions/marketreglhcsupervision.htm>.
 91 Sources for this information include:
     •     Basel Committee on Banking Supervision. International Convergence on Capital Measurement
           and Capital Standards, June 2006. paragraphs 738 and 741.
           < http://www.bis.org/publlbcbs128.pdf>; and             .
     •     Basel Committee on Banking Supervision. Sound Practices for Managing LiqUidity in Banking
           Organizations. February 2000. <http://INWW.bis.org/publlbcbs69.pdf?noframes=1>.

  SEC's Oversight of Bear Steams and Related Entities: The CSE Progr:am                       September 25, 2008
  Report No. 446-A
                                                           14
                                                                                               92
 May 2007 until it suddenly collapsed during one week in March 2008.
 According to the Commission, Bear Steams collapsed because it experienced a
 liquidity crisis when it lost its secured financing. The collapse of Bear Steams
 thus indicates that the CSE program's liquidity guidelines (implementing the spirit
 of pillar 2 of Basel II) are inadequate in two respects. First, the time horizon over
 which a liquidity crisis unfolds is likely to be significantly less than the one-year
 period. Second, secured lending facilities are not automatically available in
 times of stress.

  Bear Steams' liquidity planning indicates that Bear Steams was well aware of
  these impractical aspects of the CSE program's approach to liquidity more than a
  year before it failed.                                               :, Bear Steams
.             . it had developed a 60-day cash inflow and outflow analysis that it
                                                     93
  could use to track cash flows ona daily basis.                                  the
  60-day stress test "provides a detailed cash inflows and outflows analysis during
  the most critical part of a liquidity crisis."94 The 60-day analysisLhowever, did not
  assume that secured funding was always available. Instead, the analysis
                                                      95
  assumed the availability of existing credit Iines. A 60-day period corresponds
  more closely than a one-year period to the timeframe over which a liquidity crisis
  unfolds. A 60-day period also corresponds to a time period over which a firm
  can raise new equity capital in an orderly manner. In this sense, Bear Steams
  realized that the one-year period was not realistic and also recognized that
  secured funding might not be available in times of stress. .

 In November 2006, Bear Steams also undertook efforts to line up committed
 secured lending facilities. The fact that Bear Steams made a special effort to
 line up committed secured lending facilities indicates that Bear Steams did not
 think that such facilities would automatically be available in a stressed
 environment.                           f   the secured funding initiative was
 improving the firm's performance in the 60-day stress scenarios, because the 60-
 day stress scenarios did not assume that secured funding would always be
 available as contemplated by the CSE program's one-year liquidity stress test.
 Bear Steams planned to extend its 60-day stress model to one year and to
 modify its analysis to include unused credit lines only to the extent that they were
             96
 committed. . As part of its secured funding initiative, Bear Steams planned to
 use uncommitted lines of credit on an ongoing basis, thus increasing its access




 92   According to the Commission, Bear Steams had a high liquidity level of $21 billion in early March 2008
      (i.e., before the week of March 10) compared to $7.6 billion in May 2007 (according to TM data). Bear
      StealT!s' rp.ouired liquidity was $5 billion.




, SEC's Oversight of Bear Steams and Related Entities: The CSE Program                    September 25, 2008
  Report No. 446-A
                                                        15
to credit in a stressed environment where uncommitted lines might not be
           97
available.

                                     TM believed that the secured funding
initiative helped Bear Stearns weather the credit difficulties it faced during the
summer of 2007, when two hedge funds sponsored by Bear Steams' Asset
Management (BSAM) failed.                                         .


                                                                             An
evergreen facility allows a borrower to lock in funding for a predetermined
minimum period of time. For example, in a six-month evergreen facility, the
lender must give notice to terminate the facility six months before being entitled
to start getting its money back. If Bear Stearns had such facilities, which were
terminated, such terminations would have created potential financial stress for
Bear Steams with a known, contractually predetermined time lag. Therefore, it
would have been important for TM to know about such terminations, in order for
TM to anticipate the potential financia1 stress. OIG has asked TM for information
concerning whether TM knew about terminations of any evergreen facilities
providing secured collateralized lending to Bear Steams, but OIG has been
unable to determine what additional information TM had about any such
facilities, including terminations.

To summarize, as early as November 2006, Bear Steams was implementing a
more realistic approach to liqUidity planning than contemplated by the CSE
programs' liqUidity stress test. While this more realistic approach may have
helped Bear Steams in the summer of 2007, it was not sufficient to save the firm
in March 2008. Bear Stearns'initiative to line up secured funding indicates that
the crisis which occurred in March 2008 was not totally unanticipated by Bear
Steams, in that Bear Steams had been taking specific steps to avoid such a
crisis for more than a year before it occurred.

 According to the expert retained by OIG in conjunction with this audit, the need
.for Basel II filmsto undertake specific efforts to line up committed secured
 funding in advance of a stressed environment depends on the extent to which
 the Basel II firms can rely on secured lending facilities from the central bank




 SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
 Report No. 446·A
                                                 16
during a liquidity crisis. On the one hand, if it is assumed that secured lending
facilities will always be available from the central bank, lining up committed
secured lending facilities is not necessary. In this case, a liquidity stress test,
which assumes that secured lending facilities will automatically be available is
appropriate. On the other hand, if it is assumed that collateralized central bank
lending facilities might not be available during a time of market stress,-Baselll
firms have incentives to line up committed secured lending facilities, in advance,
from other sources. I.n the context of CSE .firms which are not banks, the policies
of the Federal Reserve towards making collateralized loans to non-banks
becomes an important element of their liquidity planning process.

Subsequent to the collapse of Bear Steams, the Basel Committee released a
draft set of updated guidelines concerning supervision of Iiquidity.99

Recommendation 2:
The Division of Trading and Markets, in consultation with the Board of Governors
of the Federal Reserve System, should reassess pillar 2 of the Basel II
framework and the Consolidated Supervised Entity (CSE) program gUidelines
regarding liquidity and make appropriate changes to the CSE program's liquidity
requirements. Changes should describe assumptions CSE firms shoulp be
required to make about availability of secured lending in times of stress
(inclUding secured lending from the Federal Reserve) and should spell out
circumstances in which CSE firms should be required to increase their liqUidity
beyond levels currently contemplated by CSE program liquidity requirements.


Finding 2: TM Did Not Adequately Address
Several Significant Risks That Impact The Overall
Effectiveness Of The CSE Program

        TM did not adequately address several significant risks, which
        affected the overall effectiveness of the CSE program.
                                                       . . .indicate that TM
        often discussed risks, which turned out to be relevant, but the
        discussions did not prompt TM to exert sufficient influence over
       .Bear steams to make changes as a result of the risks identified.

Concentration of Assets
Bear Steams had a high concentration of mortgage securities. Prior to Bear
Steams becoming a CSE, TM was aware that its concentration of mortgage
securities had been steadily increasing.. For instance,


99Source: Basel Committee on Banking Supervision. Principles for Sound Liquidity Risk Management and
  Supervision. June 2008 - Draft for Consultation. <http://WINW.bis.org/publlbcbs138.pdf?noframes=1>.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                September 25, 2008
Report No. 446-A
                                                  17
TM staff even found that the amount of mortgage securities was ocCasionally
                                        For instance,




Furthermore, according to TM's own documentation,




        In the course of their activities, supervisors should assess the
        extent of a bank's credit risk concentrations, how they are
      . managed, and the extent to which the bank considers them in its
        iritemal assessment of capital adequacy under Pillar 2. Such
        assessments should include reviews of the results of a bank's
        stress tests. Supervisors should take appropriate actions where the
        risks arising from a bank's credit risk concentrations are not
                                              102
        adequately addressed by the bank.

Yet, notwithstanding,                                     . and warnings in the
Basel standards, TM did not make any efforts to limit Bear Steams' mortgage
securities concentration.                   .

Recommendation 3:
The Division of Trading and Markets should ensure that it adequately
incorporates a firm's concentration of securities ·into the Consolidated Supervised
Entity (CSE) program's assessment of a firm's risk management systems (e.g.,
internal controls, models, etc.) and more aggressively prompts CSE firms to take
appropriate actions to mitigate such risks.              .




              -                      -
  Source: Basel Committee on Banking Supervision: International Convergence on Capital Measurement
102
  and Capital Standards, June 2006. paragraph 777. < http://www.bis.org/pubVbcbs128.pdf>. .
SEC's Oversight of Bear Steams and Related Entities: The CSE Program             September 25, 2008
Report No. 446-A
                                               ·18
Leverage
Prior to the adoption of the rule amendments which created the CSE program,
the broker-dealers affiliated with the CSE firms were required to either maintain:
        •    A debt to net capital ratio of less than 15 to 1 (after their first year of
             operation); or
         •   Have net capital not less than the greater of $250,000 or two percent
             of aggregate debit items computed in accordance with the Formula for
             Determi'}ation of Reserve Requirements for Broker-Dealers.

However, theCSE program did not require a leverage ratio limit for the CSE
firms. As a result, Bear Stearns was highly leveraged, with a gross leverage ratio
                                                103
of approximately 33 to 1 prior to its collapse.     Leverage can affect liquidity risk.
For instance:
         •   The Counterparty Risk Management Policy Group (in June 1999)104
             stated:
                  The link between leverage and funding liquidity risk is
                  relatively straightforward: leverage amplifies funding
                  liquidity risk...
         •   The President's Working Group (PWG) on Financial Markets 105 Report
                                                                            106
             (in April 1999) on Long-Term Capital Management (LTCM) stated:
                  In addition, the liquidity risk of a hedge fund interacts
                  with and is magnified by leverage, most clearly in
                  distressed market circumstances. 107

Although TM has maintained that leverage is not directly related to liquidity, it is
clear that if a firm experiences a lack of confidence, its liquidity can be adversely
affected and that leverage can influence confidence levels. Thus, it is entirely

103 There are many definitions of leverage. Other firms also had high gross leverage amounts (i.e., assets
    divided by stockholders' equity). See Appendix VI.
104 "In January 1999, a group of 12 major, internationally active commercial and investment banks
    announced the formation of a Counterparty Risk Management Policy Group (CRMPG). The objective of
    the Policy Group, whose formation was endorsed by Chairman Greenspan [then Federal Reserve
    Chairman], Chairman Levitt [then Commission Chairman] and Secretary Rubin [then Secretary of the
    U.S. Department of Treasury], has been to promote enhanced strong practices in counterparty credit
    and market risk management.' Improving Counterparty Risk Management Policies, Counterparty Risk
    Management Policy Group 2 (June 1999).                             .
105 In 1988, Executive Order 12631 established the President's Working ,Group (PWG). The PWG's
    purpose is "... enhancing the integrity, efficiency, orderliness, and competitiveness of our nations
    financial markets and maintaining investor confidence ... " The PWG members are: the Chairmen of the
    Commission, the Commodities Futures Trading Commission, and the Federal Reserve; and the
    Secretary of the U.S. Department of Treasury.
106 Long-Term Capital Management (LTCM) was a very large U.S. hedge fund that collapsed in 1998.
    However, apparently some counterparties treated LTCM as an investment bank and not a hedge fund.
107 Although, Bear Stearns was not a hedge fund, we believe that the concept of leverage's relationship to
    liquidity still applies, especially since apparently some counterparties treated LTCM as an investment
    bank and not a hedge fund.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                      September 25, 2008
Report No. 446-A
                                                     19
 possible that Bear Steams' high leverage contributed to a lack of confidence in
 the firm (including unsubstantiated rumors) which had an impact on its collapse.
 In fact, TM believed in early 2006 that Bear Steams was still managing its
 balance sheet at quarter end, a practice which suggests that Bear Steams was
                                                              108
 aware that its leverage ratios affected market perceptions.      Although banking
 regulators have established a leverage ratio limit, the CSE program has not
                                     109
 established a leverage ratio Iimit.     The adoption of leverage limits must be
 reassessed in light of the circumstances surrounding the Bear Steams' collapse,
 especially since some individuals believe that this policy failure directly
 contributed to the current financial crisis.

  Recommendation 4:
  The Division of Trading and Markets, in consultation With the Board of Governors
  of the Federal Reserve System, should reassess the Consolidated Supervised
  Entity (CSE) program's policy regarding leverage ratio limits and make a
  determination as to whether, and under what circumstances, to impose leverage
. ratio limits on the CSEs.                                       -

 Bear Stearns' Model Review Process and Risk Management
 Staffing Were Inadequate in the Area of Mortgage Backed
 Securities
 Prior to Bear Steams' approval as a CSE in November 2005 OCIE found
 ,                                                .,
                                                         d
                                                       11 nor did it
                                  Further, OCIE found



     _ It was critically imperative for Bear Steams' risk managers to review
 mortgage models because its primary business dealt with buying and selling
 mortgage-backed securities.

 During the initial CSE aoolication, TM staff .




 109 However, there are some fundamental differences between commercial and investment banks. For
      instance, unlike investment banks, commercial banks rely on customer deposits.
 110 "Value at Risk (VaR) is the maximum loss not exceeded with a given probability defined as the
     confidence level, over a given period of time." Source: Wikipedia- The Free Encyclopedia.
    <http://en.wikipedia.nmlwi1dNalue._at risk>.


 SEC's Oversight of Bear Steams and Related Entities: The CSE Program              September 25, 2008
 Report No. 446-A
                                                  20
At a meeting with TM on September 20,2006, Bear Steams' risk managers
provided TM with                             .




                 _                                    According to the DIG expert,
this information is consistent with the interpretation that pricing at Bear Steams
was based more on looking at trading levels in the market than on looking at
models. This information is also consistent with the interpretation that traders
used their own models (perhaps empirically based) for hedging purposes and not
the ones that the risk managers were reviewing. When markets are liquid and
trading is active, market prices can be. used'to value assets accurately. In times
of market stress, trading dries Up and'reliable price information is difficult to
obtain. Models therefore become relatively more important than market price in
times of market stress than in times when markets are liquid and trading actively.
Such stressed circumstances force firms to rely more on models and less on
markets for pricing and hedging purposes.


                                               .         _        .114 Trad~~s often
combine long and short positions together, using the short positions to hedge out
some of the risks associated with long positions.. For example, a trader might
shon a government bond to hedge the interest rate risk associated with a
mortgage-backed security. To construct an appropriate hedge ratio, traders use
information such as the sensitivity of the value of the assets to interest rate
changes or interest rate spreads.      -      .

                                              - .. -_
                              -                         .
                                                                       -
                 A VaR model is intrinsically based on more information than a
sensitivity of value to interest rate spread. A VaR model also incorporates an
assumption about the ratio of spread changes in one' asset to spread changes in
another. A VaR model can therefore tell the trader an appropriate hedge ratio to
use to reduce risks ass~ciated With fluctuations in spreads. i




                    "'.In_.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program       September 25, 2008
Report No. 446-A
                                                21
                              .     .115 Since VaR measures of risk reported to
TM are based on the risk -managers' models and not the traders' models, the
reported VaR numbers suggested a risk that was different than the risks the
traders thought they were bearing.. .                 .
     .      .     _~ raises the question of whether VaR risk measures were
taken seriously enough by Bear Steams' traders.

The DIG expert believes that interest rate and spread sensitivities were actively .
used as part of the discussion between risk managers and traders at Bear
Steams, but the OIG expert did not see evidence                       that the
additional modeling assumptions incorporated into VaR models added much tq
these discussions.


                                                       Model validation personnel,
                                                           '16
                                                         117
modelers, and traders all sat together at the same desk.     Acc..ording to the DIG
expert, sitting together at the same desk has the potential advantage of
facilitating communication among risk managers and traders but has the
potential disadvantage of reducing the independence of the risk management
function from the trader function, in both fact and appearance.

In 2006, the expertise of Bear Steams' risk managers was focused on pricing
exotic derivatives and validating derivatives models. At the same time, Bear
Steams' business was becoming increasingly concentrated in mortgage
securities, an. area in which its model review still needed much work. The DIG .
expert concluded that, at this time, the risk managers at Bear Steams did not
have the skill sets that best matched Bear Steams' business model.

For instance, TM's discussions with risk managers in 2005 and 2006 indicated
that.

                                      _            .                   , it would
have been difficult for risk managers at Bear Steams to advocate a bigger focus
on default risk in its mortgage models.

There was also turnover of Bear Steams' risk management personnel at critical
times. -                                       .

                              119 . At
                               exactly this' point -in time, Bear Steams had a
tremendous'need to rethink its mortgage models and lacked key senior risk




SEC's Oversight of Bear Steams and Related Entities: The CSE Program   September 25, 2008
Report No. 446·A                         .
                                                22 .
                                    ....   _-_._--_.. _... -------,
t              _                _                             _       ..   .        -
                                                                                    In  .r. l :.!l
the opinion of the GIG expert, difficulties in communication are a potential red
flag indicating that a risk manager could be telling the traders to take on less risk
than they would otherwise choose to do (i.e., information that the traders would
presumably not want to hear).               .
           .       ..           .




                                                                   As a result, the
GIG expert concluded that the reviews of mortgage models that should have
taken place before the subprime crisis erupted in February 2007 appears to have
never occurred, in the sense that it was still a work in progress when Bear
Steams collapsed in March 2008.

To summarize, TM was aware that risk management of mortgages at Bear
Steams had numerous shortcomings, including lack of expertise by risk
managers in mortgage-backed securities at various times; lack of timely formal
review of mortgage models; persistent understaffing; a proximity of risk
managers to traders suggesting lack of independence; turnover of key personnel
during times of crisis; and an inability or unWillingness to update models qUickly
enough to keep up with changing circumstances. In 2006, TM missed an
opportunity to push Bear Steams aggressively to add expertise in mortgage
modeling· to the risk management staff, to review mortgage models in a timely
manner, to add incorporate default rates into mortgage modeling, and to make
sure that mortgage risk management could function efficiently in a stressed
environment.




SEC's Oversight of Bear Steams and Related Entities: The CSE Program           September 25, 2008
Report No. 446-A
                                                     23
Recommendation 5:
The Division of Trading and Markets (TM) should ensure that: (1) the
Consolidated Supervised Entity (CSE) firms have specific criteria for reviewing
and approving models used for pricing and risk management, (2) the review and
approval process conducted by the CSE firms is performed in an independent
manner by the CSEs' risk management staff, (3) each CSE firms' model review
and approval process takes place in a thorough and timely manner, and (4)
impose limits on risk taking by firms in areas where TM determines that risk
management is not adequate.

Risk Scenarios
When Bear Steams applied to be a CSE, TM reviewed the independent risk
                                              126
management function at Bear Steams in 2005.       In addition to VaR, Bear
Steams used stress scenarios to capture risks associated with history-based and
hypothetical scenarios. TM reviewed a sample of a U



                                                                •••     ----   -   .---   --   --   .---   A •• _-   -   --_ •••   -   *;JvU




                             Most of these proposed scenarios related to the
market for residential mortgages. For example, the proposed scenarios
contemplated shocking the credit spreads for both high grade and high yield
mortgage-backed securities separately.

Bear Steams' VaR models did not capture risks associated with credit spread
widening of non-agency mortgages that are prime or near-prime (Alt-A).l28. Thus,
the residential mortgage stress tests were potentially beneficial in that they
quantified potential risks not otherwise captured. The OIG expert did not find
documentary evidence indicating that these scenarios were actually
implemented or SUbsequently discussed with TM until 2007. Furthermore, the
OIG expert believes that meaningful implementation of high grade and high yield
mortgage credit spread scenarios requires both a measure of sensitivity of
mortgage values to yield spreads as well as a model of how fundamental
mortgage credit risk factors make yield spreads fluctuate. These fundamental
factors include housing price appreciation, consumer credit scores, patterns of
delinquency rates, and potentially other data. These fundamental factors do not
seem to have been incorporated into Bear Steams' models at the time Bear
Steams became a CSE.




                                                 (    -   ...... _. t   •   ~-r-·"'·



SEC's OverSight of Bear Steams and Related Entities: The CSE Program                                        September 25, 2008
Report No. 446-A
                                                24
The presence of the proposed mortgage scenarios in the materials TM reviewed
in 2005 indicates that both TM and Bear Stearns knew that incorporating these
features into Bear Steams' risk management was important for effective risk
management. The absence of their implementation suggests that Bear Steams
did not have in place in 2005 the risk management technology needed to
implement the scenarios in a meaningful manner.




                                                                .
                                          __             The DIG expert
concluded '                                             _that Bear Steams' risk
managers analyzed these risks carefully. Additionally, TM collected a great deal
of information on other aspects of risk management, including the organizational
structure of the risk management process, model verification, and price
verification.                                                  -

The DIG expert however, also concluded that the internal TM memoranda
provide no discussion of the most serious forward-looking risk scenario that Bear
Steams might face, which was a complete meltdown of mortgage market liquidity
accompanied by fundamental deterioration in the mortgages themselves,
resulting from falling housing prices.

In April 2006 through June 2006•


                • -_   • •& .




                                                                                       .:   ....

                                ..... " .. __ '" _ ..                        In  131
TOcusing on Bear Steams' problems with this subsidiary, the OIG expert believes
that in 2006, TM identified precisely the types of risks that evolved into the
subprime crisis in the U.S. less than one year later. Yet, TM did not exert
influence over Bear Steams to use this experience to add a meltdown of the
subprime market to its risk scenarios. Moreover, TM did not use this event to
exert influence on Bear Steams to reduce its exposure to subprime Igans,as
previously discussed on page 17.




                                                                       .J2006.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program      September 25, 2008
Report No. 446-A                  .
                                                        25
In terms of large drops in market prices and large asset write-downs on
mortgager-backed securities, the subprime crisis beganto affect the U.S. around
December 2006. The drop in prices tended to hit residuals from mortgage
securitizations first. When mortgages or other assets are securitized, the
tranches, which have the highest certainty of payment, typically receive "MA"
ratings. The tranches with lowest credit quality are called "residuals," and these
tranches bear credit losses before the higher rated tranches bear credit losses.
In February 2007, Bear Steams told TM th~t it had written ,r,
          ; down by -                            , after writing the residuals down
by ,                 .               i2 Additional write-downs the foliowing month
brought total losses on second lien inventory t - - - - ----. I and total losses on
residential mortgage backed securities and structured products to ,
million. 133 The write-downs during this Quarter were mostly on \. ..
by ~~ __.._ ,,_,    . . __..       ...     '''-   .-_,._._ -----';;r-;;r--' .,.)0 TM
described the residual write-downs as a meltdown that was worse than what
Bear Steams could have predicted over a year before Bear Ste~ms collapsed.
                                                                                     137


Prior to these write-downs,L __ ....                  . __ ' ... _. _. _.....   .__ .J risks
                                   -   -         .




"._--" -


The OIG expert believes that the greater risk was that the mortgage market
would deteriorate further, with losses spreading from sub-prime loans to AIt-A
                                                   140
loans and even to higher rated agency securities.       In fact, this scenario did
unfold. T: .
...~~ .._. __ ._..                           _         _            However, TM did
not appear to have sufficiently encouraged Bear Steams to incorporate into its
risk management forward-looking risk scenarios based on risks identified and
discussed during the regular monthly meetings between TM and Bear Steams.
Such scenarios could have included the consequences of much higher
delinquencies on subprime and Alt-A mortgages, the consequences of rating




                                                                                   4   ••   _"




SEC,s Oversight of Bear Steams and Related Entities: The CSE Program            September 25, 2008
Report No. 446-A
                                                26
downgrades on mortgage-backed securities, contagion and loss of liquidity from
losses on mortgage-backed securities. By July 2007, deterioration of mort~ages
had spread to. highly rated securities such as AAA paper backed by Alt-A
                                                                          142
mortgages, and Bear Steams reported $570 million in losses for the month.

Towards the end of 2007, Bear Stearns incorporated measures to reflect house
price appreciation or depreciation into its mortgage models. It also developed a
housing led recession scenario which it could incorporate into risk management
and use for hedging· purposes. By this time, Bear Steams had large inventories
of mortgage related assets, which had lost both their value and their liquidity.
Since it was difficult for Bear Steams to reduce its inventory by selling assets, .
this scen'ario helped Bear Steams focus its attention on ways to hedge its
mortgage risk by using more liquid instruments.

It is not the purpose of this discussion to claim that Bear Steams' use of scenario
analysis was better or worse than other CSE firms. TM asserts_that Bear .
Steams' use of scenario analysis was consistent with industry practices and the
entire banking sector failed to anticipate the magnitude and scope of the housing
decline that is still ongoing.

Recommendation 6:
The Division of Trading and Markets should be more skeptical of Consolidated
Supervised Entity firms risk models and work with regulated firms to help them
develop additional stress scenarios that mayor may not have not have been
contemplated as part of the prudential regulation process.

Recommendation 7:
 The Division of Trading and Markets (TM) should be involved in formulating
.action plans for a variety of stress or disaster scenarios, even if the plans are
 informal, including plans for every stress scenario that the Consolidated
 Supervised Entity (CSE) firms use in risk management, as well as plans for
 scenarios that TM believes might happen but are not incorporated into CSE
 firms' risk management.

Non-compliance with Basel II
Mark Disputes
The subprime mortgage crisis began to affect the U.S. economy around
December 2006. As the subprime crisis continued into the summer of 2007, TM
                                                           143
learned that mark disputes were becoming more common.          A mark dispute
can occur when two parties to a derivatives transaction, such as a swap,
disagree over the value of the derivative. A mark dispute can also occur in a
repurchase agreement (repo) transaction, when the borrower and the lender
disagree over the value of the collateral. Mark disputes can lead the two parties

  Source: TM's intemal credit meeting memorandumwith Bear Steams dated July 2007.
 142
  Source: TM's intemal credit meeting memorandum with Bear Steams dated July 2007.
 143
SEC's Oversight of Bear Steams and Related Entities: The CSE Program            Septemb.er 25, 2008
Report No. 446-A                                                                      .    .
                                                27
to a swap or financing transaction to each make margin calls on the other.


                                             .     . _. TM says that mark
disputes are an unavoidable issue faced by all dealers (particularly when
markets for underliers become less liquid), arid the total disputed numbers at
Bear Steams are much smaller than at other institutions.




145   L.-.
14


         _.,. ""c
                             ",   ........-.....            ......:   1'-



      ,.:fI'·....,..... --
                                                   _0   -   -.'~n'''';:Ir')rJ·   •••• _   ''''0 __




SEC's Oversight of Bear Steams and Related Entities: The CSE Program                                 _September 25, 2008
Report No. 446-A
                                                                            28
 Recommendation 8:
. The Division of Trading and Markets should take steps to ensure that mark
  disputes do not provide an occasion for Consolidated Supervised Entity firms to
  inflate the combined capital of two firrris by using inconsistent marks.

 Inconsistent VaR Numbers


              .        '~
                      .. ••_.For example: when markdowns on assets occurred,
                                q
 Bear Steams' risk managers had difficulty explaining whether the markdowns
 were a delayed response to market moves resulting in changes in VaRrisk .
 factors or updates based on asset specific information (such as delinquency
 rates on individual assets).

 In some cases, Bear Steams' risk managers had difficulty explaining how
 firmwideVaR numbers were related to desk-specific VaR numbers. The OIG
 expert believes that this occurred because each of Bear Steams' trading desks
 evaluated profits and risks individually, as opposed to relying on one overall firm- .
 wide approach. On some occasions, Bear Steams' several trading desks had
 opposite positions in various instruments (e.g., some desks were long sUb-prime
 while other desks were short sUb-prime), and Bear Steams used VaR numbers
 more for regulatory reporting than for internal risk management. This             .
 inconsistency between use of VaRfor internal and regulatory reporting purposes
 does not comport with the spirit of Basel II and makes it harder for TM to
 understand what is going on inside the firm. TM encouraged Bear Steams to do
 a better job of presenting risks in a manner that made it easier to understand the
 relationship between firm-wide desk,..level risks. Bear Steams' risk management
 was working on improved reporting, perhaps influenced by TM's encouragement.

 Recommendation 9:
 The Division of Trading and Markets should encourage the Consolidated
 Supervised Entity (CSE) firms to present VaR and other risk management data
 in a useful manner, which is consistent with how the CSE firms use the
 information internally and which allows risk factors to be applied consistently to
 individual desks.

 Bear Stearns' Capital Requirements for Illiquid Assets and Stressed Repos
 Require Careful Oversight.
 As the subprime crisis worsened in June 2007, the market began to freeze up
 and formerly liquid assets lost much of their liquidity.        .

   _                   _                       _.              TM stated that, in
 some instances, TM required a full deduction for certain illiqUid assets, such as
 mortgage residuals. Since the decline in liquidity of many mortgage-related



 SEC's Oversight of Bear Steams and Related Entities: The CSE Program·   September 25, 2008
 Report No. 446-A
                                                 29
 assets was so unprecedented, and the decline in liquidity increased the
 difficulties associated with valuing such illiquid assets, it would have been
 prudent for TM to consider expanding the list of assets that require a full
 deductio'n from capital. The DIG expert was unable to find documentary
 evidence that TM considered expanding the list of assets that required a 100%
 capital deduCtion.                                                        -

  When the Basel Standard is operating correctly, firms take markdowns on the
  value of trading book assets as the value of the assets decline. When market
  illiquidity increases and assets become more difficult to value, these markdowns
  should include valuation adjustments which not only take account of declining
. market values but also add an element of conservatism based on widening bid-
  ask spreads and the high costs that would be been incurred by a firm to liquidate
                                       149
  its assets ina stressed environment.     These markdowns result in a decline in
  Tier 1 capital.

 At times of market stress, when banks often need to take large markdowns,
 raising additional Tier 1 capital is often very expensive, due to factors such as a
 bank's falling stock price and negative signaling concerns, which could cause a
 bank's stock price to fall even further. In such circumstances, ban!<s have a
 perverse incentive (associated with what is called "moral hazard") to postpone
 taking markdowns that would require the banks to raise. additional capital. As an
 alternative to taking markdowns while continuing to hold assets whose value is
 questionable, banks have an incentive to consider selling such assets into the
 market. When selling an asset, Tier 1 capital is reduced by the amount of losses
 on the sale, but capital requirements are also reduced by removing the asset
.from the bank's portfolio. A bank looking to improve its Basel capital ratios by
 selling assets therefore has a perverse incentive not to sell assets that have
 modest capital requirements relative to the markdowns the banks should have
 taken but has not yet taken. This perverse incentive tends to amplify the
 tendency for markets to freeze up and become illiqUid by reducing trading
 volume that would otherwise occur as banks sell losing positions into the market.
 On the one hand, these perverse incentives are mitigated to the extent that
 capital reqUirements on such assets are high and valuations are appropriately
 conservative. For assets that face a 100% capital haircut, for example, the bank
 gains no improvement in its ,capital ratios by avoiding' taking a markdown, and
 the bank increases its capita] by the 'proceeds of any asset sales. On the other
 hand, these perverse incentives are worsened to the extent that supervisors.
 allow banks to avoid marking assets down quickly enough, to avoid taking
 appropriate valuation adjustments in a timely manner, or to understate assets'
 risks.

 As the subprime crisis worsened, numerous Bear Stearns' repo counterparties,
 such as hedge funds with positions in mortgage related assets, suffered losses

   Source: Basel Committee on Banking Supervision: International Convergence on Capital Measurement
 149
   and Capital Standards, June 2006, paragraph 700. < http://www.bis.org/publlbcbs128.pdf>.
 SEC's Oversight of Bear Steams and Related Entities: The CSE Program              September 25; 2008
 Report No. 446-A
                                                 30
 and demands for redemptions. Some of these hedge funds became financially
 distressed. r'~!             a.'                                       -            .




                                                     •                  ~    .   -   -   -   . - -   -g-


           .          . ~      Consistency with tile spirit of Basel II requires that the
  capital for a stressed repo counterparty (with no assets other than the collateral it
  has posted) be at least as great as the capital requirement Bear Stearns would
  face if it purchased the collateral for the amount owed on the repo transaction.
  The OIG expert believes that                              suggest that Bear Steams
  may have been taking a smaller capital charge than Basel II requires. In
  addition,                         . do not indicate that TM pressured Bear.
. Steams to take more aggressive capital charges on stressed repos.
                                                ..
 Lastly, BSAM's "High Grade" hedge fund became a very large, stressed repo
 counterparty to Bear Steams during the summer of 2007. 151 As of June 2007,
 Bear Steams loaned .              .0 BSAM's "high grade" fund. The loan was
 collateralized with assets estimated to be worth'                 3y the end of
 June 2007, asset sales had reduced the amount loaned to the fund down to
                                                                               'el


 Although the BSAM investors may have benefited to some extent from increases
 in the value of the collateral, Bear Steams bore all risks associated with the
 downside. Since Bear Steams bore all downside risks, sound risk management
 (consistent with Basel II) requires that the impact on Bear Steams' capital
 associated with these rapos should have been at least as great as the impact
 Bear Steams would incur if it held the assets in its own trading book at the end of
 June 2007.

. According to the OIG expert, a stressed repo is conceptually similar to a portfolio
  with a call option written against it, where the portfolio is the repo collateral and
  the call option is the upside gains to the stressed counterparty. Such a stressed
  repo is worth less than the portfolio itself, since the call option might have some·
  value. In addition, the value of this stressed repo should have reflected the
  posSibility that Bear Steams might not benefit fully from potential upside gains in
  the value of the collateral. Furthermore, to the extent that the .
  collateral was illiquid and would·take time to liquidate, Bear Stearns should have
  valued the collateral conservatively, reflecting appropriate valuation adjustments.




                               -    ._.,   0.                                        - -     - -"',I   ._"".,




 150   SOl



 SEC's Oversight of Bear Steams and Related Entitles: The CSE Program       September 25. 2008
 Report No. 44~A
                                                     31
                                                                                                  " .. --_." .. -
--·r - -                                                                         •....... This arrangement is similar to a
portfolio with a call option written against it.

The DIG expert did not find any evidence suggesting that TM exerted influence
on Bear Steams to take significantly larger capital charges in conjunction with
the BSAM financing than would have been appropriate if the repo were not
stressed. For instance, '    .                     .                                         0       ._._   •




           ....... -.-          -_._._--~   - .. ---   _.. -   ~   --   .


TM staff could have used much tougher language to describe (to senior TM
management) the very risky situation in which Bear Stearns had put itself and
exerted influence over Bear Steams accordingly. For example, TM staff could
have stated that Bear Steams' financing of the High Grade fund appeared to
have allowed Bear Steams to delay taking a huge hit to its capital, as required by
Basel I!.

Bear Steams' financing of the BSAM funds is conceptually similar to implicit
support. According to Basel II, "Implicit support arises wh~n a bank provides
support to a securitization in excess of its predetermined contractual
obligation.,,155 Although the BSAM funds are not themselves, literal
securitizations, the funds invested in securitizations, and Bear Steams' financing
of the BSAM funds is a form of support in excess of Bear Steams' contractual
obligations to the funds. The repo structure created the potential for Bear
Steams to overstate the amount of risk borne by BSAM and understate its own
exposure; as a result, .Bear Steams' capital calculation'would understate its true
     1
risk. !X! Basel II also requires that "When a bank has been found to pr~:)Vide
implicit support to a securitization, it will be required to hold capital against all of
the underlyin~exposures associated with the structure as if they had not been
securitized.,,1 In the opinion of the DIG expert, it would have been approp·riate




             •••   a   _   ••




                                                                                            x r ~ ..... - --- .--.r;.....- .
SEC's Oversight of Bear Steams and Related Entities: .The CSE Program                                           September 25, 2008
Report No. 446-A
                                                                            32
for TM to have treated the BSAM financing in a manner parallel to the way in
which Basel" mandates that implicit support be treated.

In fact, Bear Steams eventually acquired much of the remaining portfolio and
wrote its value down by :                    .,      . ;

Recommendation 10:
The Division of Trading and Markets should ensure that the Consolidated
Supervised Entity take appropriate valuation deductions for illiquid, hard-to-value
assets and appropriate capital deductions for stressed repos, especially stressed
repos where illiquid securities are posted as collateral.

Tolerance for Risk
TM's oversight of the CSE firms did not include assessing the risk tolerance
(e.g., concentration of assets) of the CSEs' Boards of Directors_and other senior .
management (e.g., CEO). In fact, TM staff never contacted these individuals
about any matters relating to risk tolerance at any of the CSE firms, including .
Bear Steams prior to its collapse.                        .

 We conclude based on our research that discussing risk management practices
 and risk tolerance with the CSEs' Boards of Directors is a prudent oversight
 procedure. 159 This type of assessment would as.sist TM staff to evaluate
 governance issues in the CSE firms. For example; in the case of Bear Steams,
 an assessment could have been useful when there was evidence that the staff
 kept increasing the firm's exposure to mortgage securities. TM staff could also
 assess whether firms are inappropriately increasing leverage to help meet a
 revenue level that is tied to compensation that is proVided to the CSEs' senior
           160
·officers.

Recommendation 11:
 The Division of Trading and Markets (TM), in consultation with the Chairman's
.Office, should discuss risk tolerance with the Board of Directors and senior
 management of each Consolidated Supervised Entity (CSE) firm to better
.understand whether the actions of CSE firm staff are consistent with the desires
 of the Board of Directors and senior management. This information would



159   Sources for this information include:
       •   Risk Management and its Implications for Systemic Risk Before the U.S. Senate Subcommittee on"
                                                                                                      th
           Securities, Insurance, and Investment Committee on Banking, Housing, and Urban Affairs, 110
           Congo (June 19,2008) (statement of.Erik Sirri Director ofTM, Commission);
       • The Comptroller of the Currency. Liguiditv and Funds Management Manual, February 2001, page
           27; and
       •   The Counterparty Risk Management Policy Group. Containing Systemic Risk: The Road to
           Reform. August 6, 2008, page 18.


SEC's OverSight of Bear Steams and Related Entities: The CSE Program                 September 25, 2008
Report No. 446-A
                                                     33
enable TM to better assess the effectiveness of the firms' risk management
systems.


Finding 3: TM, Without Explicit Authority, Allowed
The CSE Firms' Internal Auditors To P.erform
Critical Work

         TM, without explicit authority, allowed the firms' intemal auditors to
         perform critical work involving the risk management control
         systems. As a result, there are significant questions as to whether
         the work that TM relied upon in fulfilling its oversight role was as
       . thorough or meaningful as the Commission intended in approving
         the rule amendments.

The CSE firms are required by the rule amendments which created the CSE
program (see 17 CFR §240.15c3-1g(b)(1)(iii)(B» to have their external auditors
report161 on the firms' risk management control systems. This review is critical
because TM designed the CSE program to focus on a firm's risk management
systems (e.g., internal controls, models) and their financial condition (e.g.,
compliance with capital and liquidity reqUirements), which was to be the focus of
the external auditors' work. However, after the Commission approved the rule,
TM decided that the firms' internal auditors could perform this critical work,
instead of the external auditors.

We reviewed the delegations of authority from the Commission to TM and found
no explicit authority for TM to approve this change. In addition to the apparent
lack of TM's legal authority, there are serious questions about the wisdom of this
decision. The rule's requirement that external auditors perform the risk
management work helps to ensure the independence and quality of this critical
audit work. The external auditors' work is more strictly regulated as the Public
                                                                              162
Company Accounting Oversight Board (PCAOB) regulates external auditors.


161 The report is referred to in the rule as the -Accountanfs Report on Internal Risk Management Control
    System.·
162 The Sarbanes-Oxley Act of 2002 (SOX). Public Law No. 107-204, was enacted in July 2002 in response
    to numerous financial statement accounting scandals involving public companies (e.g., Enron and
    WorfdCom) and their auditors (e.g., Arthur Andersen). Among other reforms, SOX established the
    Public Company Accounting Oversight Board (PCAOB) as a nonprofit corporation. The PCAOB's
    statutory mission is "to oversee the audits of public companies that are SUbject to the securities laws,
    and related matters, in order to protect the interests of investors and further the public interest in the
    preparation of informative, accurate, and independent audit reports for companies the securities of which
    are sold to, and held by and for, public investors: (Section 101{a) of SOX, 15 U.S.C §7211{a». SOX
    reqUires that accounting firms be registered with the PCAOB, if they ·prepare or issue, or participate in
    the preparation or issuance of, any audit report with respect to any issuer" as defined in Section 3 of the
    Securities Exchange Act of 1934.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                        September 25, 2008
Report No. 446-A
                                                      34
                                                                       . __ ••• __          10.110.""'"




As a result of TM's decision to allow CSE firm's internal auditors to perform the
work, there are significant questions as to whether this work that TM relied upon
was as thorough or meaningful as the Commission intended in approving the
rule.

 Recommendation 12:
 The Division of Trading and Markets should require compliance with the existing
 rule that requires external auditors to review the Consolidated Supervised Entity
 firms' risk management control systems or seek Commission approval in
                                                      164
.accordance with the Administrative Procedures Act for this deviation from the
 current rule's requirement.


Finding 4: TM Did Not Review·The
Communications Strategy Component Of Bear
Stearns' Contingency Funding Plan After The
.Collapse Of Two Of Its Managed Hedge Funds
        TM did not review the communications strategy component of Bear
        Steams' Contingency Funding Plan (CFP) after two of its managed
        hedge funds collapsed in June 2007. Questions regarding Bear
        Steams' effectiveness in communicating with its investors and the
        pUblic were raised after the collapse of its hedge funds and again
        after the firm collapsed in March 2008.




163 Given the scope of our audit, we have no evidence linking these ·significant deficiencies' with the cause
    of Bear Steams' collapse.                                   .
164 The Administrative Procedu~es Act (5 U.S.C. §500 et. seq.,) sets forth the basic procedural requirements
    for ~g·ency rulemaking. It generally reqUires (1) publication of a notice of proposed rulemaking in the
    Federal Register, (2) opportunity for public participation in rulemaking by submission of written
    comments, and (3) pUblication of a final rule and accompanying statement of basis and purpose.not less
    than 30 days before the rule's effective date.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                       September 25,2008
Report No. 446-A
                                                     35
TM reviewed Bear Stearns' CFP during its application process. The review
included an assessment of its internal and external communications strategies.
According to TM:
            The goal of the contingency funding plan is to manage liquidity risk
            and communicate effectively with creditors, investors, and
                                               165
            customers during a funding crisis.           .


  In June 2007, two of Bear Stearns' managed hedge funds collapsed. After the
. collapse, questions were raised about the lack of involvement by some of Bear
  Stearns senior management in handling th~ crisis. For instance, according to
  media reports, at an August conference call with investors, the conduct of a
  senior Bear Stearns official (i.e., their lack of involvement in the telephone. call)
  did not apparently help to restore confidence in the firm (which.was the purpose
  of the meeting).                                         .

 TM did not reassess the communication strategy component of Bear Stearns'
 CFP after the collapse of its hedge funds. Although there was contact between
 TM and Bear Stearns (about many issues) after the June 2007 collapse of its .
 hedge funds, at no point did TM discuss Bear Stearns' communication strategy.
 This proved particularly problematic as questions were once again raised about
                                      166
 some of Bear Steams' management regarding its handling of the crisis dUring
 the week of March 10, 2008.

 Conversely, some individuals praised Lehman Brothers Holdings Inc. (Lehman
 Brothers) management for its handling of a crisis it previously experienced (e.g.,
 Lehman Brothers provided talking points to its traders to use with its trading
 partners). In fact, some of these individuals credited Lehman Brothers'
 management with helping to save the firm during/around the week of March 10,
                                      167
 2008, when Bear Steams collapsed.

 It is undisputed that a firm's communication strategy can affect confidence levels
 in the firm. Bear Steams' collapse illustrated the importance of confidence for an
 investment bank's survival.

 Recommendation 13:
 The Division of Trading and Markets ~hould ensure that reviews of a firm's·
 Contingency Funding Plan include an assessment of a Consolidated Supervised
 Entity firm's internal and external communication strategies.




 165:-' .
 16€ vve ala nor·asses the performance of Bear Stearns' management during the collapse of the hedge funds
     or Bear Steams.
 167 While Bear Steams collapsed in March 2008, concerns about Lehman Brothers' survival began to
     circulate and on September 15, 2008, Lehman Brothers announced that it would file for bankruptcY.
 SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                September 25, 2008
 Report No. 446-A
                                                   36
Finding 5: TM's Monitoring Staff Do Not
Adequately Track Material Issues -
        TM's monitoring staff identify numerous issues involving internal
        risk management systems (e.g., the ad~quacy of CSE staffing
        levels in various departments, the functioning of the internal audit
        office, ano the adequacy of documented policies and procedures)
        which require action by the CSEs and a resolution. However, TM
        does not adequately track the issues.                      .

Develop a Formal Automated Tracking Process
TM's monitoring staff does not have a formal proce-ss (e.g., automated) to track
material issues to ensure that they are adequately resolved. The monitoring staff
mainly identify issues through meetings with CSE firm staff. Currently, TM staff
document some issues (e.g., the adequacy of the CSE staff levels in various
departments, the functioning of the internal audit office and the adequacy of
documented policies and procedures) in e-mails and organizes them by firm
while other issues are documented in monthly memoranda to senior
management (e.g~, the Division Director).168

However, these current methods are not reliable and do not provide an audit
trail. Our review of TM's documentation supports this assertion because we
assessed twenty issues169 that TM and OCIE identified with the CSE firms and
we asked TM to explain how the issues were resolved. In some instances, the
staff needed to perform detailed research in order to determine how the issues
were eventually resolved. For example, OCIE staff found that Bear Steams'
Legal & Compliance group did not have any formal documentation that identified
and assessed all of the applicable rules, laws, regulations, requirements and
risks. pertaining to the entire organization. TM could not readily tell us how and
whether this issue was resolved. The follow-up of issues that OCIE identified is
further discussed on page 38.

In a somewhat similar recent situation, the Government Accountability Office
(GAO) criticized OCIE for its .informal method- of tracking recommendations
regarding its Self Regulatory Organization (SRO) inspections. GAO stated:

        OCIE's informal methods for tracking inspection recommendations
        contrast.with the expectations set by federal internal control --
        standards for ensuring that management has relevant, reliable, and




169 As discussed in the Scope and Methodology Section (see Appendix III).

SEC's Oversight of Bear Steams and Related Entities: The CSE Program        September 25, 2008
Report No. 446-A
                                                   37
        timely information regarding key agency activities. These standards
        state that key information on agency operations should be recorded
        and communicated to management and others within the entity and
        within a time frame that enables management to carry out its
        internal control and other responsibilities. 170

Given all the facts discussed above, TM cannot provide reasonable assurance
(consistent with internal control standards) that issues are adequately resolved.
Furthermore, we believe that the risk of an issue being overlooked (i.e., not
adequately resolved by a firm) increases if, the CSE program receives additional
staff (as requested by Chairman Cox) because presumably more issues will be
identified and require resolution.

Recommendation 14:
The Division of Trading and Markets should develop a formal automated process
to track material issues identified by the monitoring staff to ensure that they are
adequately resolved. At a minimum, the tracking system shoutd provide the
following information:
             •   The source of the issue;
             •   When the issue was identified;
             •   Who identified the issue;
             •   The current status of the issue (e.g., new developments);
             •   When the issue was resolved; and
             •   How the issue was resolved.

Follow-Up on Prior OCIE Findings
In March 2007, Chairman Cox decided to transfer inspection responsibility from
OCIE to TM (responsibility was transferred to TM in March 2007 for four of the
five firms, and for the last firm (Morgan Stanley) following the completion of the
ongoing OCIE exam of that firm in September 2007). Thus consolidating the
                                                                  171
oversight of the CSEs at the holding company level within TM.         OCIE
continues to perform inspections of the CSEs' broker-dealers.




170 Source: GAO. Securities and Exchange Commission: Opportunities Exist to Improve Oversight of
    Self-Regulatorv Organizations, Report 08-33, November 15, 2007.
171 The transfer was in response to a GAO audit report (Financial Market Regulation: Agencies Engaged in
    Consolidated Supervision Can Strengthen Performance Measurement and Collaboration. Report 07-
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                 September 25, 2008
Report No. 446-A
                                                  38
                                                       -         .
                        .             TM stated that after Chairman Cox
transferred the inspection authority from OCIE to TM,              not to follow-up
on issues that OCIE identified because they did not view the OCIE issues as
material and they assumed that these issues were OCIE's responsibility. OCIE
stated that they did not follow-up (i.e., conduct a new inspection) on the issues
because it was no longer their responsibility once Chairman Cox transferred the
inspections autho~ity to TM. Although TM stated that it had communicated with
                              172

Bear Stearns about resolving this issue,
Bear Stearns' assertions that it had addressed this issue. Further,OCIE




As discussed in the Scope and Methodology section in Appendix IV, we
performed testing on TM's tracking of material issues. Our testing found
instances where TM's monitoring staff failed to ensure that issues identified by
OCIE were adequately resolved.




    154, March 15,2007) recommendation. In response to the report Chairman Cox told GAO: "To
    implement this recommendation, I have carefully considered the question of which organizational
    structure will best achieve the goal of the CSE program. I have concluded that the success of the CSE
    program will be best ensured if the supervision of the CSE firms is fully integrated with, rather than
    merely coordinated with, the detailed onsite testing that is done of the documented controls at CSE
    firms. As a result, I have decided to transfer responsibility for on-site testing of the CSE holding
    company controls to the Division of Market Regulation [now called TM]. This will better align the testing
    and supervision components of the CSE program, will strengthen its prudential character, and will most
    efficiently utilize the Commission's resources. With the new structure, ongoing supervision activities will
    be more directly informed by the results of focused testing of controls, and field inspections will be more
    precisely targeted using information from ongoing supervisory work. In addition, the Commission's
    expertise related to the prudential supervision of securities firms will be concentrated in the Division of
    Market Regulation, which will foster improved communication and coordination among the staff
    responsible for administering various components of the CSE program." The Chairman made his
    decision after carefully evaluating proposals from TM and OCIE, and after consulting with the four other
    Commissioners, who unanimously supported the decision to consolidate CSE oversight under TM.
172 After the Orders allowing the firms to use the alternative capital method were issued (from December
    2004 to November 2005), OCIE retained the inspection authority until March 2007 for all the firms except
    Morgan Stanley, which OCIE retained until September 2007, allowing OCIE to complete its inspection.
173 These issues were identified in a memorandum from OCIE to TM dated November 4, 2005.

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                        September 25, 2008
Report No. 446-A
                                                      39
....." .... "'."':~"._ . _.. _. ._.       _         The OIG expert found
similar problems with Bear steams' VaR models, which raised serious questions
about TM's oversight of Bear Steams.

As a result, it is possible. that other issues identified by OCIE were significant and
were not adequately followed up on by TM.

Recommendation 15:
The Division of Trading and Markets should: (1) reassess all the prior Office of
Compliance Inspections and Examinations (OCIE) issues. to ensure that no
significant issues are unresolved (givEmthe belief that OCIE followed up); and (2)
follow up on all significant issues.


Finding 6: The Commission's Orders Allowing
Firms (Including Bear Stearns) To Use The
Alternative. Capital Method Were Generally
Approved Before The Inspection Process Was
Completed-

         The Commission approved firms to use the alternative capital
         method before OCIE completed its inspection process.

OCIE's and TM's inspections of firms are a significant part of the application
process, and -are supposed to be completed prior to a firm's approval as a
CSE. 174 The purpose of an inspection is to verify the information provided by the
firm and to "assess the adequacy of the implementation of the firm's internal risk _
management policies and procedures.,,175 However, four of five Commission
Orders approving the firms (those without principal regulators) to use the
alternative capital method were issued by the Commission before the inspection
process was completed, thereby rendering the application process less
             176
meaningful.      TM acknowledged that they were aware that OCIE did not
complete the inspection process prior to the Commission's approval.· Yet, TM-
recommended to the Commission-
                          : without first completely verifying the information it was


174 As a result of the organizational change at the Commission, OCIE would no longer be involved in the
    application inspection.
175 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisions/marketreglhcsupervision.htm>.                          .
176 Other than the inspection performe(j"during Bear Steams' application process, neitherTM nor OCIE
    performed any additional inspections of Bear Steams involving firm-Wide issues (e.g., risk management)
 . prior to its collapse. However, this does not include any inspections (e.g., financial and operational) that
    FINRA performed of Bear Steams' broker-dealers.
SEC's Oversight of Bear Steams and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                      40
supposed to be relying upon and without ensuring that the firms had adequately
implemented internal risk management policies and procedures.

Specifically, we found that:
   •      In,'    instances, the Commission approved the Order before OelE sent
          the firms a formal letter (i.e., the deficiency letter) describing the issues '
        , that were identified during the inspection. Bear Steams was one of these
               firms. In fact, as previously discussed in Finding 5, during Bear
          Steams' iospection, OCIE identified a significant issue involving Bear
          Steams not retaining internal audit'workpapers. In fact, according to an
          internal memorandum, TM and OCIE both agreed that they must reach an
          agreement with Bear Steams on this issue prior to the approval of its CSE
          application. While TM believes that Bear Steams implemented corrective
          action, TM never verified Bear Steams' assertions that it had resolved this
          i$Sue, as TM did not follow up on many of the OCIE issues.
    •    In two instances, the Commission approved the Order before the firms
         responded to the deficiency letter.

TM indicated that they discussed the issues orally with the firms and were
comfortable with their responses and, as a result, recommended that the
                             i. OCIE stated that it was not involved in this
decision process at all.

Recommendation 16:
The Division of Trading and Markets should ensure that they complete all phases
of a firm's inspection process before recommending that the Securities and
Exchange Commission allow any additional Consolidated Supervised Entity firms
the authority to use the alternative capital method. '


Finding 7: Collaboration Between TM And Other
Commission Divisions/Offices Should Be
Significantly Improved
         TM should improve its collaboration with the Division of Corporation
         Finance (CF), OCIE, and the Office of Risk Assessment (ORA) in
         order to achieve efficiencies and the overall effectivene~s of
         Commission operations.

Collaboration with CF
The CF staff who review company filings (e.g., Form 10-K) are assigned to
Industry Groups within CF.' CF assigns firms to a particular group based 'on their


SEC's Oversight of Bear Steams and Related Entities: The CSE Program    September 25, 2008
Report No, 446-A
                                                41
                                                         177
Standardized Industrial Classification code.     Periodically, CF management
reassigns firms to adjust the staff's workload. During the past two years, CF
twice transferred the CSE firms to different Industry Groups.

CF staff stated that they received a briefing from TM regarding how the CSE
program operates. However, according to CF, TM did not provide any specifics
regarding the information that the CSE program obtains from the CSE firms.

We believe that the information that TM obtains could substantially improve CF's
filing review process. For instance, CF could evaluate whether the information in
the filing (e.g., mark to market accounting, VaR models, funding sources) is
consistent with TM's information. Furthermore, as a result of Bear Stearns'
collapse, CSE firms are now required to disclose additional information regarding
capital and liquidity. Also, Basel's Pillar 3 standard (when implemented) will
require additional disclosures regarding capital, risk exposures, and risk
assessment. TM stated that the CSE firms would incorporate all of these new
disclosures mainly into their CF filings. These additional disclesures will,
therefore, increase the need for collaboration between TM and CF..

Our audit found that CF could not opine on the potential usefulness of TM's
information on the filing review process since they are not aware of the
information that TM receives on the CSE firms. The effectiveness of CF's filing
review is potentially diminished because CF is not incorporating TM's information
on the CSEs into its review process.

Recommendation 17:
The Divisions of Corporation Finance (CF) and Trading and Markets (TM) should
take concrete steps to improve their collaboration efforts and should determine
whether TM's information on the Consolidated Supervised Entity (CSE) firms
could be used by CF in its review of the CSE firms.

Collaboration with OCIE
GAO found that TM and OCIE should improve communication (e.g., information
                                178
sharing) between their offices.     Although TM and OCIE informed GAO during
its audit in 2007, that they were working on an agreement to improve
communication, they never finalized the agreement.

In March 2007, Chairman Cox decided to transfer inspection responsibility from
OCIE to TM (responsibility was transferred to TM in March 2007 for-four of the

177 "The Standard Industrial Classification was created by the United States government as a means of
    classifying industries by the use of a 4-digit coding system to collect economic data on businesses."
    (Source:
   http://www.business.com/directory/management/strategic_planning/business_information/industry_resea
   ch/classification_systems/standard_industrial_classification_sic/.
178 Source: GAO. Financial Market Regulation. Agencies Engaged in Consolidated Supervision Can
    Strengthen Performance Measurement and Collaboration, Report No. 07-154. March 15, 2007.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                     September 25, 2008
Report No. 446-A
                                                    42
five firms, and for the last firm (Morgan Stanley) following the completion of the
ongoing OCIE exam of that firm in September 2007). However, despite this
organizational change, TM and OCIE could still improve their collaboration
involving the broker-dealers of the CSE firms. OCIE stated that TM does not
provide it access to information that TM obtains from meetings with CSE staff,
filings submitted by the CSE firms, and other sources of information. OCIE
stated that all of this information could improve their risk-based broker-dealer
inspections. A senior staff official at a CSE firm stated there is no coordination
between TM and OCIE and this creates a challenge. OCIE stated that it believes
that it would still be useful to finalize the agreement to improve collaboration and
TM has not identified any substantive reasons to oppose finalizing the
agreement.

Recommendation 18:
The Division of Trading and Markets (TM) and the Office of Compliance
Inspections and Examinations (OCIE) should develop a collaboration agreement
(e.g., discussing information sharing) that maintains a clear deHneation of
responsibilities between TM and OCIE with respect to the Consolidated
Supervised Entity program. They should inform the Chairman's Office of any
disagreement(s) so that the issue(s) can be resolved.

Collaboration with ORA
The missions of ORA and the CSE programs' have certain similarities. ORA's
mission includes identifying emerging issues and market risks 179 while the CSE's
program mission states that its purpose is to:
        ... allow the Commission to monitor for, and act quickly in response
        to, financial or operational weakness in a CSE holding company or
        its unregulated affiliates that might place regulated entities,
        including US and foreign-registered banks and broker-dealers, or
        the broader financial system at risk. 180 [Emphasis added]

We believe that a formal understanding between ORA and TM would increase
the likelihood that ORA achieves its mission while potentially minimizing
duplicative efforts in identifying and analyzing risks.

Recommendation 19:
The Division of Trading and Markets and the Office of Risk Assessment should
develop an agreement outlining their roles and responsibilities, as well as
methods for information sharing such as communicating project results. These



179 Source: Jonathan Sokobin Named Director of SEC's Office of Risk Assessment. Commission. 28
    February 2008. <http://www.sec.gov/news/press/2008/2008-24.htm>.
180 Source: SEC [Commission] Consolidated Supervision of Broker-Dealer Holding Companies Program
   Overview and Assessment Criteria. Commission. 16 Mar 2007.
   <http://www.sec.gov/divisions/marketreg/cseoverview.htm>.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program             September 25, 2008
Report No. 446-A
                                                43
two offices should inform the Chairman's Office of any disagreement(s) so that
the issue(s) can be resolved.


Finding 8: CF's Filing Review Of Bear Stearns'
2006 10-K Was Not Timely

         CF is responsible for reviewing filings of all public reporting
         companies, such as Bear Stearns. However, CF's review of Bear
         Stearns' 20U6 1O-K was not timely.


Review of Bear Stearns' 10-K Filing
There are significant issues regarding CF's review of Bear Stearns' 2006 10-K
filing dated November 30, 2006. The filing review emphasized Bear Stearns'
                                                                    181
disclosures involving its exposure to subprime mortgage securlties.

Bear Stearns submitted its 2006 1O-K filing to the Commission on February 13,
2007. The CF staff accountant completed the initial review of Bear Stearns'
2006 1O-K filing on· :             approximately
                                             I,      months after Bear Stearns
submitted the filing. Another CF staff accountant completed a second level
review on September 27,2007, nearly        months after the initial review. CF
could not provide a specific reason as to why the second reviewer did not
perform the review in a timely manner.
                                   182
CF sent a comment letter to Bear Stearns on September 27,2007, which,
among other things, requested additional information on Bear Stearns' exposure
to subprime mortgage securities. Thus, it took CF nearly 7% months, after Bear
Stearns' initial filing, to send a letter to Bear Stearns requesting additional
information.

 CF's policy is to send a comment letter to a firm prior to the firm's next fiscal
 year-end. In the case of Bear Stearns, its next fiscal year-end was November
·30, 2007 and the Commission received its 2007 10-K on February 13, 2007.
 According to CF's policy, CF needed to provide Bear Stearns with a comment
                                   183
 letter before November 30,2007.       In this way, the firm would have an
 opportunity to incorporate appropriate changes into its next year's 1Q-K filing.
 However, other than this policy, CF does not have any internal guidelines
                                                                                   184
 regarding timeframes within which to review filings and issue comment letters.

 181 CF staff performed a targeted review that focused on subprime mortgage exposure and revenue
     recognition.
 182 The staff provide firms with a written memorandum (i.e., a "comment letter") describing the staffs filing
     review comments.
 183 In this instance, CF met its policy of issuing a comment letter prior to Bear Steams' fiscal year end.
 184 The Sarbanes Oxley Act of 2002 also requires CF to review each public reporting company at least one
 SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                      September 25, 2008
 Report No. 446-A
                                                      44
We believe that a five-month timeframe to complete a second review coupled
with a total time of 7% months to send a comment letter to Bear Stearns was
simply unacceptable in this particular instance, because this filing review focused
on the material issue of subprime mortgage securities (which was adversely
affecting the securities industry worldwide).

Bear Stearns' response letter (coupled with CF's comment letter) contained
material information that investors could have used to make well-informed
                          185
investment decisions.         For example, Bear Stearns' response letter described
its criteria for classifying loans as sub-prime, information about its risk
management philosophy, how it defines non-performing loans and a
quantification of its investments in securities backed by subprime mortgages.
The OIG eXfert believes that all of these criteria would have been helpful to
            18
investors.

We did not perform audit work to determine CF's timeliness in-reviewing 10-K
filings in general. Despite the lack of information about other filings, based upon
CF's review of Bear Stearns' 1O-K filing, we believe that the filing review process
lacks the appropriate internal controls (i.e., timeframes for conducting second
level reviews) to ensure timely reviews.

Recommendation 20:
The Division of Corporation Finance should: (1) develop internal guidelines for
reviewing filings in a timely manner, and (2) track and monitor compliance with
these internal guidelines.

Bear Stearns' Response to CF's Comment Letter
Pursuant to CF policy, firms are supposed to reply within 10 business days to CF
comment letters. Thus, Bear Stearns' reply was due on October 12,2007. Prior
to this due date, Bear Stearns asked CF (in writing) and received an extension
until early November 2007 to file its response. However, Bear Stearns did not
respond by this new due date. Bear Stearns then orally asked for and received
additional extensions. Bear Stearns finally submitted its comments to CF on
January 31,2008, nearly 3% months after the initial due date. 187


    time every three y e a r s . _
185 This information was especially material given that Bear Stearns' stock price went from a one-year
    closing price high of $158 (April 25, 2007) to a closing price high of $77 the week before March 10,
    2008. The final price was $10, the sale price that JP Morgan paid.
186 CF does not consider its public comment letters and firms' response letters as a means of disseminating
    (i.e., disclosure) information about public companies. Rather, CF believes that changes to a firm's
    filings, as a result of CF's comment letters, should be the primary disclosure method. In fact, CF does
    not post its public comment letters and a firm's response letters to the public site of EDGAR until an
    issue has been fully resolved.
187 Two other CSE firms did not respond in a timely manner to comments on their 2006 10-K filings. These
    filing reviews also emphasized subprime mortgages.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                     45
As a result of Bear Stearns' delays, the CF staff accountant did not complete the
initial review of Bear Stearns' response until March 4,2008 and the second
reviewer did not complete her review until April 2, 2008, by which time Bear
Stearns had already collapsed.

It is our understanding that Bear Stearns' delay in responding to the comment
letter was not a unique situation and CF routinely grants extensions to firms to
address CF's comment letters. Further, CF informed us that it only requests a
firm to contact CF within 10 days of receiving a comment letter and does not
require a substantive response to the issues within the 1O-day timeframe. Thus,
while CF imposes a timeframe for a firm to contact CF, CF does not have a
policy prescribing when firms are expected to respond to the issues raised in
CF's comment letters.

While there are several consequences that may be imposed on a firm for not
responding timely (e.g., the firm may be required to make additional disclosures
in future filings regarding the outstanding staff comments or the staff may refer
the matter to the Commission's Division of Enforcement for investigation), in the
case of Bear Stearns, none of these consequences occurred. Furthermore, by
granting repeated extensions, the filing review was rendered less meaningful
since the staff completed the filing review after Bear Stearns collapsed. As a
result, we believe that investors could have used this material information to
make well-informed investment decisions. In addition, the information (e.g., Bear
Stearns' exposure to subprime mortgage securities) could have potentially been
beneficial to dispel the rumors that led to Bear Stearns' collapse.

Recommendation 21:
The Division of Corporation Finance (CF) should (1) establish a policy outlining
when firms are expected to substantively respond to issues raised in CF's
comment letters, and (2) track and monitor compliance with this policy.

Finding 9: Certain Firms May Pose A Systemic
Risk Because They Are Not Supervised On A
Consolidated Basis

        Certain firms may pose a systemic risk because neither the
        Commission nor any other regulator currently supervises them on a
        consolidated basis.


Several large firms, other than the CSEs, have many customer accounts, hold
large amounts of customer funds, and have unregulated affiliates. The broker-
dealer affiliates of these firms are subject to the Risk Assessment program, but
neither the Commission nor any other regulator supervises these firms on a

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                46
                     188
consolidated basis.      In most cases, these firms would be ineligible to apply for
group-wide supervision under the CSE program. In some cases, these firms
could voluntarily elect to be supervised under the Commission's CSE program or
under the statutory supervision regime created by Gramm-Leach-Bliley Act,189
but these firms are not required to elect this supervision.

Several firms both inside and outside the CSE program collapsed or-otherwise
experienced serious financial difficulties between March and September 2008. 190
As a result, we believe that if one of these other (non-CSE) firms failed or
experienced another significant problem, the broader financial system could be
adversely affected, thus impacting the Commission's mission of maintaining fair,
orderly, and efficient markets. We did not perform an in-depth assessment of
the risks that these firms present or the costs/benefits of supervising these firms
on a consolidated basis because of resource constraints. However, we believe
that in light of the impact of Bear Stearns collapse, it would behoove the
Commission to perform such an analysis.

Recommendation 22:
Chairman Cox should create a Task Force led by the Office of Risk Assessment
(ORA) with staff from the Divisions of Trading and Markets, and Investment
Management, and the Office of Compliance Inspections and Examinations. The
Task Force should perform an analysis of large firms with customer accounts
that hold significant amounts of customer funds and have unregulated entities, to
determine the costs and benefits of supervising these firms on a consolidated
basis. If the Task Force ultimately believes that the Securities and Exchange
Commission (Commission) should supervise these firms on a consolidated
basis, it should make a recommendation to the Commission that involves
seeking the necessary statutory authority to oversee these firms on a
consolidated basis.




188 Some of the firms are also subject to the Investment Advisers Act of 1940 and the Investment Company
    Act of 1940. As a result, OCIE is responsible for inspecting these firms and the Division of Investment
    Management is responsible for the r e g u l a t i o n s . -
189 "The Gramm-Leach-Bliley Act of 1999 ("Act") will significantly impact the financial services industry. By
    repealing provisions of the Glass-Steagall Act, the Act facilitates affiliations between banks, securities
    firms, and insurance companies."
    Source: Banking Information: Overview of the Gramm-Leach-Bliley Act. Federal Reserve Bank of San
    Francisco. < http://www.frbsf.org/publications/banking/gramm/grammpg1.html>.
190 Between March and September 2008, Bear Stearns, Lehman Brothers, Merrill Lynch, mortgage
    originators Fannie Mae and Freddie Mac and the American International Group, Inc., all experienced
    major financial difficulties and collapsed, filed for bankruptcy, or were purchased or taken over by
    another entity.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                     47
Finding 10: TM Should Address Organizational
Issues Involving The Future Of The CSE Program

          We identified several organizational issues involving the future of
          the CSE Program, which could significantly improve the CSE
          program.


Changes to the CSE Program
Due to the collapse of Bear Stearns in March 2008, the bankruptcy filing by
Lehman Brothers, the purchase of Merrill Lynch by Bank of America, the planned
change in status to bank holding companies for Goldman Sachs and Morgan
Stanley, 191 and the changing economic environment, the future of the CSE
program is uncertain.
Since the collapse of Bear Stearns, several aspects of the CSE program's
oversight activities have changed and other changes are being contemplated, as
follows:
      •   The CSE program staff now closely scrutinize the secured funding
          activities of each CSE firm, with a view to lengthening the average term of
          secured and unsecured funding arrangements;
      •   The CSE program staff now obtain more funding and liquidity information
          for all CSEs;
      •   TM is in the process of establishing additional scenarios that entail a
          substantial loss of secured funding. The scenario analyses help TM to
          determine whether firms could survive in a stressed environment;
      •   TM is discussing with CSE senior management their long-term funding
          plans, including plans for raising new capital by accessing the equity and
          long-term debt markets.
      •   The Commission plans to request legislative authority to regulate the
          CSEs at the holding company level as well as the authority to require
          compliance. Currently, participation in the CSE program is voluntary. TM
          claims that the voluntary nature of the program does not capture all
          systemically important broker-dealer holding companies, as companies
          may not opt for such supervision. Additionally, the ability of a holding
          company to opt out of supervision creates tension when the-Commission
          wishes to impose more rigorous requirements or mandate CSEs to
          address specific concerns, according to TM;




  On September 21,2008, the Federal Reserve approved, pending a statutory five-day antitrust waiting
191
  period, applications from Goldman Sachs and Morgan Stanley to become bank holding companies.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program            September 25, 2008
Report No. 446-A
                                                48
    •   Chairman Cox has discussed the CSEs programs' need to have systems
        in place to systematically unwind or liquidate a failing institution at the
        holding company level. Currently, regulators are only permitted to
        intervene in the liquidation of a holding company's subsidiaries, such as
        broker-dealers and banks.
        According to TM, intervention at the holding company level would aliow
        the Commission to operate a failing institution for a limited period of time
        and would protect the institution's customers and counterparties. Such
        holding companies typically have substantial activities outside its U.S.
        bank or broker-dealer. TM believes that the Commission's lack of
        authority to- intervene at the holding company level could lead to massive
        liquidations of collateral by counterparties to unregulated or non-U.S.
        regulated affiliates, which in turn, could cause market dislocations and put
        severe stress on other systemically important financial institutions; and
    •   The Commission has contemplated ways to improve the efficient and
        orderly operation of the tri-party repo market. FinanciaLinstitutions rely on
        the repo market to finance proprietary and customer positions. If a repo
        clearing entity is unable to conduct business in an orderly manner, or if a
        major firm does not have ready access to the repo market, it could have
        systemic effects on a large number of financial institutions. Bear Stearns
        was not able to access the repo market on normal business terms, which,
        according to some accounts, led to its demise.

Changes to the program will require Chairman Cox, Congress, and TM to re-
evaluate the needs and priorities of the CSE program.

Recommendation 23:
The Division of Trading and Markets, in consultation with the Chairman's office,
should determine what additional changes need to be made to the Consolidated
Supervised Entity (CSE) program in light of the collapse of Bear Stearns and
changing economic environment.


Program Staffing
The CSE program consists of a small number of staff, several of whom have
worked in the CSE program since its inception in 2004. The Office of CSE
Inspections currently has only two staff in Washington, DC and five staff in the
New York regional office. It also does not currently have an Assistant Director
(i.e., an office head).

In March 2007, Chairman Cox decided to transfer inspection responsibility from
OCIE to TM (responsibility was transferred to TM in March 2007 for four of the
five firms, and for the last firm (Morgan Stanley) following the completion of the
ongoing OCIE exam of that firm in September 2007). However, as of mid-
September 2008, TM staff had not completed any inspections in the 18 months
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                49
since the Chairman's decision in March 2007. Three inspections are in varying
stages of completion. These inspections act to "assess the adequacy of the
implementation of the firm's internal risk management policies and
procedures".192 No milestones are in place to ensure that inspections are
completed in a timely manner.

Furthermore, staff at the CSE firms informed the DIG that the inspections
information would be useful to them, especially because it would provide the
CSEs with information regarding best practices and where the firms stand in
relation to each other. It is imperative to receive this information timely to ensure
that the information does not become outdated.

Recommendation 24:
The Division of Trading and Markets (TM) should fill critical existing positions,
and consider what any additional staff it believes will be needed to carry out the
CSE program's function going forward. TM should also establish milestones for
completing each phase of an inspection and implement a procedure to ensure
that the milestones are met.

Ethics Manual
In 1997, OCIE developed an ethics manual for its Inspection staff because it
wanted to formalize standards of behavior and ensure that inspeGtions are
conducted in a fair and impartial manner. This manual has been revised and
expanded several times since 1997. We believe that a similar manual would be
beneficial for TM's monitoring and inspection staff given their close working
relationship with the CSE staff.

Recommendation 25:
The Division of Trading and Markets, in consultation with the Office of
Compliance Inspections and Examinations and the Commission's Ethics office,
should develop an ethics manual.

Coordination with Other Regulators
The CSE program staff are increasingly working with the Federal Reserve and
other Federal regulators in its administration of the CSE program. Increased
coordination with the Federal Reserve is particularly important because the
Federal Reserve, unlike the Commission, is in a position to provide emergency
funding to distressed firms. Improved communication and information sharing
among Federal regulators should also reduce overlaps and alleviate the firms'
need to produce duplicative information for each entity. The memorandum of
understanding that the Commission and the Federal Reserve entered into in July
2008 is a positive step.


  Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
192
  2008. <http://www.sec.gov/divisions/marketreg/hcsupervision.htm>.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program        September 25, 2008
Report No. 446-A
                                              50
Additionally, we believe that the CSE program staff will need to further recognize
the interconnectedness between securities firms and banks. A general
perception, as communicated by a staff member at a CSE firm, is that if a
broker-dealer fails, the Commission seems to worry only about customer assets,
and if a bank fails, the Federal Reserve seems to worry only about depositors'
accounts. Neither regulator appears to focus on systemic risk, nor hpw the
interconnectivity among securities firms and banks affects the overall landscape.

Recommendation 26:
The Division of Tfading and Markets should continue to seek out ways to
increase its communication, coordination, and information sharing with the
Federal Reserve and other Federal Regulators




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                 51
                                                                               APPENDIX I


                                      Acronyms

        BORA                                      Broker-Dealer Risk Assessment

        Bear Stearns                              The Bear Stearns      Compani~s,   Inc.

        BSAM                                      Bear Stearns Asset Management

        CF                                        Division of Corporation Finance

        CFP                                       Contingency Funding Plan

        Commission                                Securities and Exchange Commission

        CSE                                       Consolidated     Superv~ed   Entity

        EU                                        European Union

        FINRA                                     Financial Industry Regulatory Authority

        Federal Reserve                           Board of Governors of the Federal
                                                  Reserve System

        FRBNY                                     Federal Reserve Bank of New York

        GAO                                       Government Accountability Office

        JP Morgan                                 JP Morgan Chase & Co

        Lehman Brothers                           Lehman Brothers Holdings Inc.

        LTCM                                      Long-Term Capital Management

        Merrill Lynch                             Merrill Lynch & Co

        MOU                                       Memorandum of Understanding

        OCIE                                      Office of Compliance Inspections and
                                                  Examinations

        OIG                                       Office of Inspector General

        ORA                                       Office of Risk Assessment

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program        September 25, 2008
Report No. 446-A


                                                 52
                                                             APPENDIX I CONTINUED ..


        OTS                                       Office of Thrift Supervision

        PCAOB                                     Public Company Accounting Oversight
                                                  Board

        PWG                                       President's Working Group

        Repo                                      Repurchase Agreements

        SOX                                       Sarbanes-Oxley Act of 2002

        SRO                                       Self Regulatory Organizations

        TM                                        Division of Trading and Markets

        u.S.                                      United States

        VaR                                       Value at Risk




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program       September 25, 2008
Report No. 446-A
                                                53
                                                                                             APPENDIX II




                     Congressional Audit Request


                                      t\Sltt4 ~_ S-
                                              . ~~o-.lfN.AHeE
                                          ·.·~l:>C_~e·

                                                 April 2, 2008

         Via Electronic Tnnsmission

         The BOllorablet>avid I<otz
         mspect6r General            '.'
         US SecUrities and Exchange Commission
         lQOF Stree~:NE
         Was,hmgton,:bC 20549~2736

         Dear Inspector General Kotz:

                According.to regUlatory filUigs and~ December 2007 Wa11'$~~t.r(J.urnal article;
         the SEC EnforcementDivision declined to bring a elise llgainstaeat Stearns fQr
         JmpropeI:ly vll1ufug:mortgage.-telated mvestmenis~ Given the Ia"tercolillpseand federaIly
         hacked bail-out of~ear Stear,ns,Congress needs;'tol1nderstand more about this case and
         why the SECuItimlltely 'sought noenfofcement a:c~iOh.

                 Moreover, I ~particularlyiilterested in this case in light ofthe SEC's failed .
         investigation ofP.equot CapitalManagement .As you know, iIi the final rePQrtof the'
         Senate'sinqllity .into that matter, we found that .scUipt SECofficials showed
         extraordinary def'~ce to apamcuIar witness because ofbis"prOnUnence" as the. head.
         ofMorgan StaDiey.                                                              .

         Request 'for hvesti~;ltion

                 In light ofmyearliednvestigati<m I ·l1eedtokilow whetherlhesame problems
         identified in the P«J.uot lnvestigationwere r¢peated ,inlheaear Steams ~e. .
         Accordingly. I request that you conduct a thorough ·inV~$tigatiOIl into the fads and
         circtimStanees surrounding the decision to not ptirsueanenfo~entaction against Bear
         ~ Please provide a finl1lreport on whetberthete was anyhnproper action or
         D1isoonductreIating to SEC investigation QfBearStearosMdits decisiontoclQse the
         investi~Qn. Th~te.poit shQuldaJsodesciibeand~esll:

                    r.the~, ~aJld prQpri~ty ofCOininunicatiClllS h.etween Beat Stearns
                        executives or ·theirorepresentatives·and seniotSEC officials;

                    2.th-e.decision-maldng process which ie<ito. the SEC'sfai!ure to bring an
                        enfotcementaetionfollowingth~ drafting ofa Wdls,'nonce;'

                    3. tIi:e: teasQrts for declining to l'roceed with an enforcement action; and




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A


                                                      54
                                                               APPENDIX II CONTINUED ..




                  4. thedegr~to whicbmore aggressive, action by the Enforcemellt Divl$i(m
                     may have led to an e~uiier and more: com}J,lete underst~ding oftheis1!ues
                     that contributed to' the c~llapse oiBear Steams.

      Request.fol' Audit

               InadditiontQ this i,nvestigative,re.ques1, I Would also like your office tofoUow-up
       on prevlousalldh work relevant to issues surrounding 13'earSteams. The Division of
       trading and Markets (Division) is responsible for regulating the largest broket-dealets
       and the associated holdmg companies. Offices within the Division are staffed. with
       accountants. and economists who are respomible for reviewing the market and Ptedit..risk '
       exposures ofthe proker d~lers ...1'heineviewincludesll$$ess1ng.broker-dealers'
      'quarterly financial fllin.~, ensuriIlg broker,;.de.alersar¢ineeting ilet-capitil requirements
       and that other financial ratios, 'Such. as liqu'j.clit;yrl!-tios~ ar:eadequate. Theteis,/Jspecial,
       emphasis in teviewing the five very largebroker-dea1ers~in.ciudlng .~. S~al11s, kn()\'(Il.
       as the Gonsolidll.~ 8uperv·ised E~tity (CSElProgtatn. the. DiviSion staffexercise$
       additionaloverslghtofth~se fUms ande~ines tbeinisk models.

               I und~fstanathat: tAeOIQC\onduct¢d :a'pnor audit ofthese,responsibilities in:
      2002. PJease'provide;an update ofthepreviQq$, (IDdings, determine whether earlier
      recommendations were'iinplemented, and analyze the'currentftmctiQn ofth*Qffices.
      'l:'bereview shoUld include a description and asse.sSInent oftheir,missions; hO'!the
      programs are run" their policies and procedwes, the adequacy of any reviews conducted
      regatdingBear Steams; and recommendations f~r improvements in the process..

              Ifyou have an.y questionsa"'Qut theser~llests~, pleasecorttact Jason 'Foster or
       Emilia DiSanto8t(202)225-4515.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                   September 25, 2008
Report No. 446-A
                                                    55
                                                                                                      APPENDIX III




            Curriculum Vitae (Albert "Pete" Kyle)



                                                         CURRIcULUM VITAE
                                                         Albert S. "Pete' Kyle
            ~:   FebrUary 2;'i,2QQ7
            Cwu:ut Position: Charles K Smith Professor ofFinance, Robert H.Smith SchOol of Busille~
            Bu$iness Adl,kess: University ofMaIyland, 441ta Van Munching Hall, College Park, MD 20742
            Business Phone; 301-405·9684 <UMD'voice); <JOh'314-,5828 (ll'MP fai()
            F;Mail: ilkylerillth$mith.wnd.edu




            EDUOATION

            • Ul1ive,~tyOfChicago"1971-1979, 198Q,.198I.PhD., Economics, 1981.
              Dissertation:, 'An'Equilibrium Model ofSpeculation and HedgUJg:
              Advisors: ]oseSCheinkD1;l.il(chair)" RobettE.Lpqag,kstet Telser. '
            • NUffield College, Oxford Uliiversity, 197&1977. Field:Eco~lomiCS;Adv,iSor. James Min-lees.
              Met all requirements for B.Phil,degr~(Jiow t:;il!ed M.1'hiI.}e~cepJ: tw~ye!.lf residency requirement
            • Merton College, Oxfoz:d.Uujversity, 1914-1976.. ~-A.. M;uh,aiid PhilosQphy, ~ class hOllOrs, 1976.
            • Davidson College, 197·0,.1974. B.S.. Mathematics,sumrna cum laude;



            • Charles E. Smith Ptofessorof Flllance (with tel1ure~, Robert H. Smith School ofBusilless, University of
                MaIylaI1d, f\.ugust ~006 to PteseJlt                                                       .
            • Professor ofF1Ill!Jlre and Economics (with tenure), I>Ulre Uuivmity, :Fuqua School of BilMess ;nid
                Depanmento(Economlcs,]anUaIy29Q2 - 2006 {app6in.tr:nwtpredominandy lllFuqua SChoolof.BusiJ~) .
            • American Stiiidard VlSifuJg PtQfessor, Said Busilless School, <)XfQrdUmversity (8t Edmwld J-Iall),]une
                2Q04,]WIC 2005~l\1ile 2006.
            • VISitingScbolat,. Princeton Ulli,versity,Department ofEconomics, Fall 2004 (while Oil sabbatical leave from
                Duke UniverSity).
            • Cousultailt,. Morgan.st~nlc:y andCQmpally, December 1996 - December 1998, full tim!: while onilllJiaid
                leave from Duke University, Proprietary trading researth,
            .. &soci;J,te Professor of F"mance (With. ienure). Duke UniversitY, FUqUa Schoo) 6fBw;i.ness,]u!y 1992~U/y
                2002 (ollwlpaid leave for cideudai::\'earS 199'7,1998).                                  . . .
            • ~. Professor ofFmance (with. t'enute)"University of Califonria, at Berkeley, Haas·SchoolofBusiness,
                July l~JUne 1992.                                                                                        .
            .. VISiting &bolar.DUke Uilhrersity; Fuqua &hoQl Pf Business,September 1991-;June 1992 (on sabbatical
                leavefrom UC Berkeley FlII119911,                                  . . "
            • AssistailtP)7(jf.ofFutallt;e, Uluv;ofCallfomiaatBerkeley, Haas Sch90l of Busine~s,]uly·1987::J\ll)(l 1990.
            • AssistailtProf. ofEc<)Jlomics and PliblicAffairs,WQodrow WtlsonSchooi, Princetonl,lniversity; 1981-87..
            • .vISiting. Fellow, Yale School of Organization and Managemetlt, SjJrlllg 1984 (011 sabbatical leave frOm
               P1:41cetdll Uiuvetsity),                                                              .
            • VtsitingResean:h. Fellow, Centre ofPolicy Studies, Monash University, A\lstralia, Fal11983-{on sabbatical
               leave from Princeton lJluversityy.
            j  Pit Tradlllg and Risk Mimagement, GoodIilalI-Manastet <ludComp;m}>, ChicagQ, 1979-1980.
            .. Staff Economist, Chicago BOO!rlofTradl:,part-tiri'ie, 197~1979,

                                                                 1




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                   September 25, 2008
Report No. 446-A


                                                            56
                                                                           APPENDIX III CONTINUED ..




         PUBLJCATIONS INREFERREP JOURNALS
         (In co-authoredartides,all authors have equal seniority !Illd approximately equal contribution,)

         • AVlnash K.Dixit and Albert S, Kyle, "The Use of Protection!llld SubsIdies for Entry Promotion and
           Deterrence,' American EconOlnic Review, VoL 75, No, 1, 1985, pp, 139-152,
         • Albert S, Kyle, 'Continuous Auctions and Insider Trading,' Econometrica 53, 1985, 1335-1355,
         • Albert S, Kyle, 'Improving the. PerforIDmce of the Stock Market,' CalifomiaManagementReview, 30:4,
           Summer 1988, 90-114,
         • Peter R. Hartley and Albert S, Kyle, "Eq1.1ilibrium Illvestmentinan Industry with Moderate Investment
           EconoInics of Scale: The EcdnoInic Joumal. 99:396, ]wle 1989, 392-407,
         • Peter R.Hartley md Albert S, Kyle, 'Real Rates and Home Goods: A Two. Period Model," The EcOlloIniC
           Record. 1)4:186, September 1988,16IM77,
         • Albert S, Kyle, "Iluonned SpeailationWith Imperfect Competition,' Review ofEconomic Studies 56:3.1'110.
           187,July 1989, 317.a.56.                                                          .
         • Alb¢It S. Kyleandj¢aIl Luc Vila, 'Noise Trad4lgand T:lkeOvers: llil1ldJollfnalofEconomics. V9L22,No.
           1, Spring lQ91, pp. 54-71.
         • JohnY. Campbellll1)d Albert S. Kyle, "SmartMoney, Nois¢ Trading, andStQCk Price Behavior,'Review or
           EcononlicStudies 1993, 60 pp.. I-34.
         • Albeit S. KyleanelA!bert Wang, "Speculation DUOJlOlyWithAgreementto Disil.gree: Can Oven;ollndence
           Smvive the Market Test?" Joumal of Finlince, volume LII, number 5. Decemberi997,pp. 2073-2090.
         • Albert S.Kyle!llldWeiXiong, "Contagion as a Wealth Effect," IoumalofFinlince. volume LVl, No.4,
           August2001, pp, 1401-1440.
         • Albert S. Kyle, Hui On-yang, and Wei Xlong, "ITospect Theory md JiqtridanonDecisions,' JOllfnalof
           EcOIlOIniC Theory, Elsevier, vol. 127 (1),July 2006, pp. 273-288.



         • Albert S. K)'le, 'IrrtperfectComp¢uuQll. M<irketDyn;units, and Regulatory Issues,'inFillallcial MarketS and
           hlcompleteInformation: Frontiers ofModemYlllancialTheory: V91. 2, editedby SudiptoBhattacharya and
           GeorgeM. Constantinides, Rowman and Jittlefield, 1989, 153-161.
         • Albert & Kyle, "A Theory of Futures Market Manipwations,'The Iildustrial Organization ·of Futmes
           MaIkets. edited by Ronald W. Anderson. Lexington, Mass.,. Lexillgton Books, 1984, pp. 141-173, also .
           reprinted ill Paul Weller (editor),The Theory of Futmes MarketS, Blackwell, 1992 pp. 272.303.

         PUBLJCATIONS IN lJNREFE:RElID CONFERENCE VOLUMES

        .• Albert S. Kyle, 'Tradlllg lIaltS !Illd Price JiInits,' The Review of Futures· MarketS, 7:3, 1988, 426434.
         • Albert S. Kyle, "Market SlIUctme, Mormation, Futures Markets, and Price Forrnation,' in Intematlonal
           AgriculturalTrade: Advanced Readings ill Price Forrnation. MarketStructure, and Price Instability, edited
           byGaryG. Storey, Andrew SCbIIlitz, and AlelCa11detH. Sarris, Bouldet, Westview, 1984, pp. 4.5>64,.
         • Albert S. Kyle, "Discussion of 'The Pritll:tg ofOil !Illd Gas: Somc:Fm-ther Results',' (by Merton Miller and
           Charles Upton), The IoumalofFinance, Papers and Proceedlllgs,VoL 40, No. S,July 198.5,1018-102Q.
         • Pe~rR.. Hartley and AlJ>ert S. Kyle, "The EconoInics of Medical hlS\IDllICe,' illMedicaICare and Medical
           Ethics. edited byC.L BuChanan andKW, Prior. WlnChester, Mass.,Allell& Unwiil hlC., 1985, pp. 77·104.




                                                              2




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                       September 25, 2008
Report No. 446-A
                                                              57
                                                                         APPENDIX III CONTINUED ..




               MISCELLANEOUS PUBlISHED ARTICLFS

               • AlbertS.;KYleandTeny A. Marsh, 'Computers and the Crash: Is Technology the·Problem·or the Solution?'
                 hlstitutionaIhlVestorFmancialTechnology FoIUIil 2, June 1988,·pp.6-7.

               ·UNPUBliSHED PAPERS

               • AIbe~ S, .Kyle, 'A Rational. Expectalions Modcl of EqUiliblium in SpeculatiYe Markets with lmperfect
                   liquidity and Costly hJforInation,' Thesis'seminarandjob-rnarket paper, 1989..
               • AlbertS. Kyle; "The EfficientM:arkets lIypothesis and the Supply ofSpecuIa:tive Services;' manuscript, 1982..
               .Alb¢rt S. Kyle,. 'A!I Equilibrium Model of Speculation and Hedging;' UniversitydfChicago Ph.D.
                   Dissertatiou(Economics), 1981.
               • Peterl{. Hartley and Albert S. Kyle, 'Equilibrium in.a Model with Lumpy lll.vc;Stm¢l)t,' :m~luscript (now
                   subsumed In ~uilibriummve5tment in an Industry with Moderate InvestffieutECoil.Q!:Iiics," 1983;
               • Avjnash KDixitaud Albert S. Kyle, 'On the Use of Trade Restrictions forEnllY .Promotion and
                   Det:errCll.ce:Ecoll.OmicsDiscussiQi~PaperNo. 56, Woodrow WilSon Schoi>l,Priucetol) UJuversity, 1983.
               • AibertS. Kyle; 'Equilibrium in aSpeqIlative M;rrketwith Strategic Informed Trading, W ~vised ~'I:ilformed
                . Speculation with Im.perfect CompetitiOlI ). 1983.
               • AlberlS;Kyle. "InfoIlll4tiolUilEffjcieilC}' and, Liquidity in aCon~uousAucti~1Fu,turesMarket,'Cen~ for
                   theStuqy ofFUtures Marltets, ColWiibia Business School. Wo.rkiJl$ Paper S¢ries #CSF.M-75j 1984.
               • .Albert S.Kyle, 'An~cit.:Modelof Smart'MoneyiUid:NoiS(:Tradiug,' mauuscr1pt(nQwsubsumed in
                   'Smart¥ondy, Noise Tnteling, and Stock Price ~vior), 1985.'                                .
               • Albert S. Kyle, •AnhlJ.lJ.itivemtJ:oductil:in tQAgenC}' Theory with Applicatiousto Money MauagemeJJt,' Q-
                   GrollpT;illt, fuanusgipt, Aprii 1989.           .
               • Albert·S. Kyle aiJd Ailsa Roell, ComilieJ'lis ,OJ~ Recent Developments and Proposals Conceming DealiJ)g
                   Practices in the1JK EqUityMarlret," manuscrlpt, 19B9.
               • ftlbert S. Kyle and Terry A. Marsh" 'On the Economics -of Securities of Clearing alJd&ttlement,'
                   IJI.il))usaipt, 199.3.
               • Mb¢nS; Kyle; 'Ouhleeniives to AcquirePIlvate hlforrnationwiih Continuous TradiJ)g,.' :manuscript, 1935;
               • ~It·S,Ry1e, "Dealer Coropetition Against an Organized Exchange: manuscript;Jwle 1987.
               • ,!\.lbe!tS. Kyle, "Madtet;Fai)wes ;uid the Regui;uion ofFlllanciaiMarkets,'.manuscOpt,.1992.
               • Gc;~ Gennotte iUl.d,Albert S, Kyle, 'huertempoial lnsidel' Tncliug with a Smooth 'Order Flow:
                   ~l\1SCtipt, 1993.
               .AlbertS~ KyleaiJdTao Lin, 'Continllous Speculationwith Overconfident Competitors: ma1Juscript,2002.
               .Al~ert S~ Kylea!idTaoLin, 'An AnalYsis ofExcessive Trading Volume with DifferentBeiiefs,'manuscript,
                  '2002.         .                       .
               • Alben S. Kyle 3Jl.d Rujing Meng, "Strategic Acquisitions and hlvestmentln a Duopoly Patent Race under
                 Uncertainty/, manuscript, 2003.
               • MingGuo and AlbertS. Kyle,"An IntemporalAsset Pricing Model with Strategic IIJfo~ed Trading ~xd
                 Risk-Averse MarketMakers,' m~1I1script,2004.
               • Albert S. Kyle,"ATwO'Factor Model ofValueatld Growth witlJ AdjustmeJil<.Costs,' IIJaliuscript, 2004.
               • Alex Bouiatov and Albert S. Kyle, "Uniquen<:!i$ of Equilibrium ittt!teSiilg!e-:p¢riod I(yJe.'!l5Model,"
                 matJUsaipt, 2005.'               .                                                                 .




                                                                     3




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                 September 25, 2008
Report No. 446-A


                                                           58
                                                                               APPENDIX III CONTINUED ..




               RES:EARCit CONTRACTS AND GRANTS

               • Researth Consultant, Bell Laboratories, 1982.
               • ResearCh Associate, Center for !he Study of Futures Mar.kets, Columbia Busuiess Scbool, two mOll:thsof
                 summer support, ~983.
               • Prillcipal Investigator, NSF Grant (lnfoi:malion Science):'Organi7.ed Exchanges, Dealer :Markets, and.
                 AiiOliymou.s'J:X'i!diitg,'I'riIiceton (.hIiversity,Two .summers ofsummer support, 1985,1986.
               ~ Academic Y~itor, Fedet3l Resenre.Bank, Waslllngton, I),C.,June 6-10, 1992.
               • Aca4emic V.\Sitor, Fedei<II Reserve Bailk, AtlaiIta; GA. 5 days, 2003.       .

               FEILOWSHIPS,PR!ZFS, AND ACADEMIC AWARDS

               • Phi Beta Kappa, Davidson College, 1974,
               • HOlloraryPOStmastership,'Merton College, 1976-1977.
               • Geo~Webb Medley PriZe in Economics,MertoltCollege,Oxford University, 1976.
               .Rh.9d~ Scholarship (l'exas), Davidson Coilege, 1974-1977.
               • Sch.w;iIxtcher Fellowship, Haas School of Busmess,1988-1989.
               • Batl:erymar¢!IFdloW5.hip, 199(),:1991.
               • NSF Gradqate Fdlowsbip, univemIY .of Chi~9, 1977i-l979, 1980.1981.
               • KcynoteSpeaker, Wes.tem Flll3.lIt:e 4.ssQt:iation, P;rrlt Gity,Utal!,JU11e.~,20.02; "M:arketMicrostrocture."
               • Keynote Speaker, Twelfth Alw.ua1 Col)feten.c:;eO!,1 The lheoriesaud l?I:actices of SecuritiesMaritets.
                 National SUll Yat~ University, Kaohsiung. TaiWaJi,. "Insider Trading and Corporate Govemance,"
i                December 17;2004.
               • A;ssurantLectim:. A,ss~t/Georgia Tech futematiOllalF"wance Conference, "MarketMicrostructure and
                 lWioua1 ExpectatioIls; APriwert AprIl8,20ns.
               • Fellow, EcOlioIn¢tn¢ SOciety. 2002.presenL
               • Clarendolll.ecl.).ltesin Fmallce, O,aord U'~:iiversity.JU1le2006.

              PH:D.DISSERTA'l'ION ADVISING
               (Initial aCademic placements are tellure track 'assistantprofessors or equivalent, uil\ess otherwiseilidicate<l)

               I'riil<:eton JJtIiVersitv:

                  Steve Kea1hofer (Chair, 19lt3), Columbia UiIiversity Buslliess School; KMV.
                  George Mailath (SecOlld Reader, 1984), 'Un~ve.r$ity ofPel1lisylvaiJia; Department of Econorriics.
                  Loretta Mester (1985), FederatReserve :Board. Philadelphia.
                  Meuaehem Stemberg(Second Reader, 1983>, Commodities Corporation.
                  Mark Dudey (Secol{d . Reader,1984),. Rice U)liversity.
                  LelUly Nakamura. (SecCitl<l Reader.J985>,f¢deral Resi:t'YeBWrd,. Philadelphia.
                  IiIIl Gale (CIJair,1985); Uiuversity of Wi~consin, Federal Reserve Board, Cleveland.
                  Julie Nels,Ciu (Second Reader.l~ll6), New York University Business School.
                  Malt Spiegel(SecolliLReader,1987), COlumbia University,UC Berlteley, Ya1e University.
                  Jean Luc Vua (Secop,d ~der, 1987). New YorkUuive~ty, MIT.                               .
                  Blaise Allaz(Secolrd Reader, 1987). 'lJniver~ity ofLausalUle.

              University of Califonria. Berkeley:

                  TheC>doreStem~erg (Chair,l989), Vanderbilt Utriversity.
                  Helena MulliilS (C~t,1990), Ullivetsity of Oregtl1l.
                  RichJiIldsey (Ch;lir, 1991), Yale U'trivers'ity; Bear Stearns Securities.
                  Peter Algert (CIJair,1991), University of CalifonUa,. Davis; BarciaysGlobal lnve$lpr Services.
                                                                      4




    SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                      September 25, 2008
    Report No. 446-A
                                                                  59
                                                                           APPENDIX III CONTINUED ..




             Jim Allgcl (Chair,1991), Georgetown Uiliversity.
             leWis Lu(Chair,1992), University of Hong Kong.
              TakeshiYama:da; (Ch<!ir.1993). Hong Kong Univ.ofSciellceaildTeclulo!ogy; Nali6ilal DIliv. ofSiIlgapore.

           Duke DlUversitv:

             JOIuI Graham (Chair, FJ1~ce, 1994), University of Ul3h; D~ University~
              SusallMouaeo (Chair, Fiilailce, 1995), Universityofhldi311a.
              Lu Fellg (Chajr, FUl31ice,1995); Salomon Brothers; Stark lnveslmellts.
             Jainlin Zhai (Chair, Economics, 19%),. Fedeial Horne Loan Bank, Iowa.
             JemUfetBabcock (AccoWltlIl8, '997), sro311~hoolof Blls4I~s,MlT.
              Mary.Beih FISher (Maihematies, 1998),BBT Bank.
              Briail BaJy~t, (Chair, Fillailce, 1998), Texas MM.
              WeiXiollg (Chairi FUI31lCe, 2001), Benclheiin FW3llce Center,Princeton University.
             Jon Wongswan(Fang) (EcoIlomics,2002), Federal Reserve Board, Chicago.
              Bell ZhaIlg'(Economics, 2002), Moodies,KMV; Fitcl).
               Lin:PeJ)g(~, Flll3nce. 2002), City UmvqsityofNY. BaruCh CQlle~.
              Fmnia R;Wcl(Chair,Fwance, 20(3), Duke University ·<l..eGturerl       .
              GeZhang (F1ll3l1Ce, 2003), University of New Orleans.            '.
             JulkLltvinova(Economics; 20_03), The Bratilc: GIl>Up.
              IIi;j. Tsetliil (Decision Sciellces, 20(3). !NSEAD SingallQre.
              'I:aQ Lin (Chair, Fmance,20(3), UniyemtrofHong Kong.
              Krislula Narisimb311<FJnancei2(04); Wharton Business Schooi(Visitor).
             'R4iiilg Meng(Chair, Fin311ce,2004), University ofHong Kong.
              MOhall GOpal311 (Fii!a11ce, 20(4); Barclays GlobalJuvc:slors, Loudon.
              l.;Ikshman Easwata!1(Fiilailce, 2004), Lehmail!l Br6ihei:$.
              Hapfei Cheu(Ecolio~Csi exPected 2()()$),GoldmaIl Sachs, HOllgKong.
               S~<ha Ilzarazo (Econoniics, 2()()5), lTAM, Mexico City.
               bksanaLoginova(Ecolloniicsi 2005), University 'of Missouri, Golwribia.
              Will Xu (Chait-, Economics, 2005), Hong KOllgUiliveriity.
             Ming Gl,1o(Chai.. Ecol,1omics.2005),Gi.~elhlVe!\lIIlellt     GroUp.
              F/'orui ;oorobilolitl1 (EC~lliomics. expected 2006).
              BilJ Wei (Co-chair,Fii13l1Ce, expected 2(07).
              Fei Ding (Chair, FlU3llte, expected 2007),. '
              Bruce Carun(Co-c.h<!ir, J"iilanl;!:; .expected2007).

          NorihCaroliilaState Uiuversitv:

              Lu Na (Decision ScienCeS, 2004), Medital :College ofWist()nsill; BioStatistics Consulting Center staff'.

           Dniversitt ofNorih Carolula. Chapelllill:

             Albert Wang (Chair, FUl)nICe, 1994), Colwribia University. Rice University.

           TEACHINGlEslimated,Enrollments)

          .UlliVersj~ofMarvIiUld:

           BDFN 758": Special Topiq iiI FUl311ce: Veuture Capii-,alandPrivateEqnity
             FiilI2OQ9: 3'5slUdents.
           BMGT 80ar: Doctoral 'Seminar: MarltetMicrostructuJ:e an'dlIi4u&tryEquilbirium
             Fall 2006: 10 students (iilcludiilgauditors)
                                                                 5




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                    September 25, 2008
Report No. 446-A
                                                             60
                                                                         APPENDIX III CONTINUED ..




           Duke Ulliversitv: (Onedaytitne MBA course,meets for 2 hours 15tninutes twiceaweeldor sixweeks,plus
           eXlWl..Ph.D.courses are olle a semester system.)

           FInance.!" FlI'St~year FOlance Theory course for Ph.D. students
              Fall 2002: 30 students~
              Fall :200 1:· 20 students.
             Fall2QOQ: 20 students.
              Fall 1999: 20 students.
              Fall 1996:. 15 studeJlts~
              Fall 1995} 15 students.
              Fall 1994: 15 students.
             Fall 1998: 10 studelits.
              Fall. 1992: 10 students.

           Fnl;lll~,m - Second-year Finance Eective for PhD, studeilts. (Market Microstructure and Derivatives)
              Spring 1998:15 students.

           Venfure Capital and··Private: f4.uity;
             SiiIiui:i¢t ~4: Week,-efu,l MB.i\, one. S¢clioi;J;.so s~dellts. .
             F'Ill2oo3: Global Exetutive·MBAOne-Day Mini-course; 55 students,
             FaU2003: Day~t:ime MBA, two sections. with RebeccaZarutskie. 100 students.
             Fan :2003: Cross-Col1bueut Exerotive MBA.·50 -students, taught as Advanced CC:lIporate: FUl3lrce.,
             Summer 2004~ Week~~ohe section,5(}studenLs.
             Fall '2002: GltiJl;il ~etutiveMBAOll:e~Day Milli-eojIiSe; 50 stu<!eIiLs.       .
             Fall 2002: Day-tinteMaA, twosections,wi.ih Stephen Wallenstein, 110 students,
             Fall.~003: Cross-Continent Executive MBA, SO students, taught as "Advanced Corpomte Finance."
             Fall 2001: Global Executive,MBAOne"Day Mini-course,50.Sl1ldents.
             Fall 2001: Day-fune MBA.. twosecti()ns,wj~ Steph~lWallenS~l, 11 Q stud¢iits.
             Fau200I;Cr~Coufulent EiCetutive MBA, 2S ~tu<l¢llts, ta,ughtas "Advanced Corporate F.iliance."
             Fall 2000:D<!.y-:time l\-m:t\, two sections, with StepheIl WalleIlSteln, IIOswd¢]its.

           Advanced Corporate Finance:
              F;!lI~QOO:Day.funeMBA, two,S;ectiQns, 70stud.ellts.
              Fall199S: m~ MBA,-two sectiOllS,90 students.
              FalU994: Daytime: MBA, two sections: 90 students.
              Fall 1991l:'Daytime MBA, two sections, 90"swdents~

           Corpot;lte Fillallce:
              SUmmer 2005: Week-end MBA,one seCtlOll, 55 stud.ents.
              Fall 2005: Daytime MBA, four sectiolls,210 swdents.
              Fall 1996: Daytimd4BA, two sectiOilS; 1()() students.
              Fall 1995: Daytime MBA, twosectlons, 10Qstudeilts. _
              Fall 1994:J;)aytlmeMBA,JwosectiOl\S, 106 stud.ents..
              Fall199B: Da.ytime MBA, oil~ sectiou, 60s~deil.ts.
              Fall 1992: Daytime 'MBA, ollesection:, 60 students.

           University ofOrlifomia:, Berkeley (MBA audPh.D. courses on semester system)

           FUlance I - First:yea;r J'Olance Theory comsefor Ph.D. students
             Fall 1989: 15 students.
             Fall ~9~~: ]5 stildel\ts.
             Fall 1987:15 students.
                                                               6




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                September 25, 2008
Report No. 446-A
                                                            61
                                                                        APPENDIX III CONTINUED ..




           FinanciiiTheoI)': Gateway IilVesbnentselective for MBAstudents:
              Spring 1988:'Daytime MBA, two sections, 80 swdents.
              Spru.~ 1989: Daytime, MBA, three sectiolls, 130 students.

           Corporate Finance: Elective for MBA students:
             Fall 1990: Dayiime:MBA, lwosections, 80' students.
             f<ill1Q90: Evellilig ¥BA, olle sectioll,40swdol!s.
             Fall 1989: Evening MBA, olle sectiOl.l; 40 stuelits.

           Fuiuresand Options: Advance Undergraduate Elective
             Spru.lg 1989: With Dayid Modest, 20 students,

           Pnnceton University (Com:ses on sernestersystem):

           Finance I ~ FlTSt-yearFmance TheOlycourseforPhD. students
              Fall 198hWith Rayin6ndHill, 20 students.
              Fall 1982: l5sl!Ideuts.
              Fall 1984: 15 students.
              Fall 1985: With Sanford Grossman; 15 students.
              Fall 1986: 15studeuts.

           Financial Markets -FJUallCe E1ective.for WoodroWWllsoil Masters of Public Affairs students.
              Fall 1981: 25 students.
              Fall 1982: 25:students.
               Falll984:2,5stud~1ls·
               Fall 1985:25 studeuts.
               Fall 1986: 25studeI1ls.

           Topics iti Micro,eCOllomiCS - Elective for Woodrow Wilsou'Masters of Public Aff.Urs, students.
             Fa)l1981:25sll.nlents,
           7 Fall 1982: 25 students.
             Fall 1985: 25 students.

           UNIVERSITY SERVICE,
           University of Maryland:

               Business SchoolPh.D. Oversight Committee,2006-2007.
               l"itlaJ,lce Area Ph.D. ColIlmittel:,200Q-,2007.
               l"in,ance Art:a ReeruibnoitCommiUl:e,20()6..2007•
               Finance Area Strategy CowlciI, 2006:2007.
               Business S<!hooll"itunciaiLab Committee, 2006-2007;
               Mentor to Assistlilt Prof~ot'Geol'giQsSkoill~

           Duke University:

               Ml:mbl:r,Dl:an's AdvisoI)' Gommittee, 2002-2003.
               MemboI)'; Duke Global Capital Markets AdvisoI)' Committee, 2000';2004.
               Filillll(;e Nea CO(>rdillatOr, Fall 1995.                              ,
               Flllance Ph.D. Program Administrator, 200Q-2003.Help¢d with Ph.D.~6]lS o.ther ye;u-s,
               Health Sector Management Curricufum Review Committee,2003.
               J'ercJ)ata Genter 'Resear¢h Review Commil,tee. 2Q02·2()()4.
                                                                7




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                               September 25, 2008
Report No. 446-A
                                                           62
                                                                         APPENDIX III CONTINUED ..




              Faculty TeclulOlogy Committee, 2000.
              Organized Dukdl/YSE Conference. on Market Microstructure, 1995.
              ExtenwAd Hoc Cornn:Jiftee Chainnatd996.
              Internal Ad Hoc CommitteeChaitro<!Jl: 1992, 1993. 1995.
              Internal Ad Hoc Committee M.ember:2003,~004.
              Curriculum Committee, 1995-1996.
              Elected Academic Council RePteselltative, 1994-1995.
              Rhodes SchQ1;U-ship AclVisory ColIirtiifu:e, 2001-2004.
              JWllorand Seillor Faculty Recruiting, 1992-2005,iucluding interviewingatASSAmeetillg5 most years.
              Camegie ~ Competition Advisor,1999.2002.                .

           Ulliversityof California. Berkeley:

              Ph.D. ProgrounAdmiIIistrator, 198.8-1991.
              Faculty Recruiting', 1987-1991, including interviewing at ASSA meetings,
              Elected i\cademic Cowlcil Representative, 19ss.1989..
              A<:!ive Particip;jht;ill ~eyprOg@n ul!f111311Cl;, 1987'-1991.
              Active PaI:ticipantin Fmauci3lhlVesbnentTecllllology(&eclitive F.<lUcatlOll) Program, 198~1991.

           Princeton Ulnversii.y:                                                                                        ..".

              Rhooes$(:ho!a:rshipAd)!i$ory' ComrttitU:e, 1984-87,
              Finance F<Icu1ty Recruifulg, 1982~7;il1cludinginterviewillgat ASSA rneetiIIg5 several years.•
              WoodrowWalsonQualliyingExamCommittee, 19.84-87.
              Woodrow WIlsOll p!t,n.Cornrnittee, 1985"87.
              EcOllqrniCS Departniem Ph.D. AdrnissiQl1S,1984-85.

           PROFESSIONAL SERVICE

           • IWERResearch Associate, 1982-1985.
           • institute fQrtlie. Study ofSecurities Markets, Member, Board .C>fDirectors, 1988-1992,
           • E¢oIeNatiolwe des POll!s.et Chaussees,VisitillgUctut~, twp.weekfin<l,ill':e cowse, 1991, 1992,1993,
           • CEPR SUinmer lnstilllte, Getzciuee,SWit?;etlanp, PaI:6¢ipant,J\Ily 11.23, 1991l.
           •. Frankfurt "(j'rliver$ity,Gue5t LeCtuter;Ph.D.l~es blltnat~t;nIitrqstructute; Aug 13-15,19!l9.
           • Rhode,sScholilrShlp SelettitmCornmittee,Dlillois (l9Z9, 1980), Flonda (1998, 1999,2000,2001,2002).
           • A1'm:riC31i-FiI).anc<; A$sociatiQIl; Board tif Dite4bt5, Member, 2Q04.-jJrl:sem.,
           • NASD~Q, EcotIoznicAdvisory Board, Meniber,2005-presenl



           • I typically referee6-10papers peryear.
           • I occasiollallyserve on program committees ftir<coluerences.
           ..Referee Reports,and Extenlal Reviews, 2004: Jounw ofFJ:nancial.EcollomiCS(~)J0W11alof F"Ul3nce (2),
              ·Reviewof FUia11QalStuJ:lies,},.meriC3Jl.EcollonUcReview; E¢ollornetrica, Jourual·()fPolitical EcollOmy,
              JoUriIa1 ofEcollOnUC Theory, EcOllOuIiaJc>UriIal, NSF~ several reviews for ,tellureor jJromotion.
           • Utah WnIter Fl11allceCOlUerellceI'rogratfi Committee. 2004, 2005.2006.                .




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                 September 25, 2008
Report No. 446-A
                                                            63
                                                                      APPENDIX III CONTINUED ..




           SELECfEI) CONSULTING

           •. Goodman-Mallaster and Company, 1981. Futures trading, riskmanagemeilt                   .
           • Pepper, Hamilton, ancl Scheetz, 1984-1986, expert witness. Railroad deregulation. Reports with Robert'
             Willig.
           • Consultants in Industry :Economics, Inc. 1983-1986, 1988, expert witness. Anti-trust
           • New York Stock Exchange, 1987, 1990, consultant Market surveillance, insider trading.
           • Coinmodity Futures Trading Commission, 1986.1989,expertwitness~ HUiit silver ma:r]ret IIianipulaticm.
              Report -
           • Staff Member, Presidential Task Force. on Market Mechanisms (Brady COmmiSS~Oll), 1987-198~.Stock
              marketcrash of 1987, stoekitidex futures,llldex arbitrage, portfolio lllsurance.
           • Options ClearingCoJlX>ration. 19~9. Clearing alld settlement
           • Berkeley FU13l1clalTechnologies, 1989-1991.1..ectures· on futUres and optioQS.
           • Expertwibless for Robert Griffm, 1991. Angeloetalvs.CFTG (I'reasury Bond Fut:ures tick size). Report
              and testimony.
           • Law and.Economics Consulting Group, 1991, mauipulati6n.
           •• BARRA, 1991, measuring market liquidity.
           • 1'he Long 'Term Credit Bank ofJapan, 1991c1996 interest rates alld derivatives priCing.
           • Natioha1EconOmlC Research Associates,1996, expert willless,secnrities. fraud, damages.
           • SalolXlonnrothers <Wachtel1, upton, Rosen and. Katz). 1991~1992iexpert witness. Cocoa futures trading,
              damages. Deposition.
           • hitemal,Revenue service, 1996. Expertwil1less. Treasury Bond Futures traditlg.
           • Justice Depa.rtIileJ.l.t,1996. ExpertwilllesS. NASD market maker competition and tick size.
           • Chase Securilies, 2000, Foreign Exchange Order Flow
           • Expert Wil1l¢Ss, AJle~d POce M;uiipula:tiOllOfNYMEX Elect:ricityFut:ures InvolvlllgCash-Settled OTG
              Periyarlves, 2003-2004. Report                                                   .
           • Ex!Jert'Wil1less, natrick. Cold CorporatiOll, 2004-2005,Prlce manipulation, damages.



           • hldustry Dynamics and. Valuation of Frrms: All Integration of COJlX>ra.teFitlance aIld Industrial
              Orgauizatio1l
           • Cash Settlement, Market Miilupulation, aIld the Mpcligli;uli"Miller Theorem
           • Trading Volume and Overconfidence
           • Applications of Numerical Techniques in Fitl3llce.
           • Settlement Negotiations with Ehdog¢l1Ous Discover}'
           • FUl3l1clalContagion.
           • Moral Hazard in Continuous Time.
           • Trading with'rraI1SactiOll Costs.
           • AlgonthmsJor Priciilg Interestrates and Derivative Assets.
           • Continuous'I'raditlg with Many Informed Traclers and Risk Aversion.
           • Optimal InsiderTraditlg with Smooth Noise Order Flow.
           • Applications ofcomplexaIlalysis to fInance.




                                                               9




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                             September 25, 2008
Report No. 446-A
                                                          64
                                                                             APPENDIX III CONTINUED ..




           CONFERENCE PRESENTATIONS

           • USDA Universities Iiiteruational Trade Consortium Meeting, December 1981. "Market Structure,
              Information, Futures Markets, and Price Formation."
           .. Center for the Study of'FuturesMarkets, .1982. "A Theory of Futures Marltet Manipulations_"
           • NBER-KGSM Conference onTune and Information in EConomics, February1982. "'"The EfficientMarkets
              Hypothesis and the Sl.\pply of Speculative Services~"                     .
           • Centre ofPoticy Studies Conference on Distributional Issues in Health ~e, i983. ''The£Conomics of
              Medical Insurance" {with Pe(erHartley).       .
           • Australian.Meetings of the Econometrics Society, AugusI19.83. "Equilibriwnin a Speculative Market with
              Strategichlfortned Tradillg."                    .
           • Mlied Social Science Associatiolls Nationll1 Convention, December1984.BC$$iG;ln Chainn:Ul.. DiSCt\Ssant in
              !Wi>. s¢ssions.
           • Betkeley Program ill Filiall¢ Semiitat, Trading Costs '311d TradiIlg Strategie~, April, 1984. "'TradiIlg ill
              ~ketS Where :ijliyers May}Iave BelterhU6rmati<>n;"
           .. NBER - NYC Collferencc ()>> Appli~on~of Ga¢e Theoljr to )!nialice,.Decem1:let 1985. "hlfonilCd
              Specul;lIiouwith imPerfect Competition:;'                   .
           • AsSA. Convention, December 198.5: "on hlC;eutlves to Acquire Private lufoI:Iil<ltiou with Continuous .
              Tradlllg."         .
           • Confereuce~on MarketMakiug,June 1987, London SChool of£Conomics; "Dealer Markets and Organized
              'Exchangt:s."
           • A5sACOnvention, Discussant(three different sessions).
           • ASSA COnvelltion, ~cember 1987. "Dealer Markets i!lld OrganizedExchanges."
           • Discover Cal, Berkeley, February 12,19S8. Discilss,ioil of stQCk marketGTa$h.
           • Fll1;ulc.iill Investment Te¢,hllology Progtlrti,;1krkeley, Febi1,iaty 1988. LectllJ'eson fut:ll:r¢S markets.
           • lJ.lS,tit;p.tit>llal hlV~to~ Pellsit>ll Roundatable, J.<>sAngele,5, F~~@ry25,1988. faIlcl diOCUssit>nOnthe;S\Ocl:t.
              matl<,et crash.
           • 'l'ij'JER Ct>Afe~llct:;, ..Catnbridge,MA~ 10-11, .1988. P;n.l~tdisCUS,SiQu on thc::stockmarketcrasq.
           • l;kIteJeyPrOgrarh iIi Fll$l(:e S~ Stock: and Fulut~ Markets: l.essollsandPI:os~cts, March 28-30,
              19a9, SantaJlatbara.'CA. "Whatl;Iappe'iled -During the. Week of the Crash'" (with Tell:}'MiltSh).
           • WellS; l."argo:hl\fc:stmeut Adv.isor~ 8elIiiti;jr, $311 Fr3l1cisco, Aprilll, W88. DiscUssiQil ofthe stqck li)arket
              crash.
           • CRSP SeIIlluar, Drake Hotel, Chicago. May 1981\.PaneldiScussi!}l!.       causes   3l1d COuseqlienceS otthe Stock
              Market Crash.
           • blStltliteforliJdudaryEducation, C~e1 "Valley. RanCh, CA. May 198RPand discusSion on the 1987 stock
              markelcrash.
           • Westen! Economic Assoc., Meetings,JUly I, 1988.
           • Berkeley Programul Flllance Semlllat. On Tradlllg and.Fund Management The Role of TeChnology.
              Septemher23-27.1988, Silverado, CA. Co,.Qrganizer (With Terry.Marsh).
           • Cal Business AlUmlll,MeriifuulHotel, San Francisco, Odober20, 1988, discussion on "The Stock Market
              C~h,A Y~allcla.;Day ~."
           .. AdV3liced Flii<l1ici4TeclmologySc::miiiat i;>f Filbltes Market,$, December 6-10; 1989, Toityo,JectU!'es with
               I)a~M Modest.                                       .                                  -
           • Chicago Board ofTrade Conference on.Futures MarketRegUlari.oll,November 19,1988, Mayflower Hote!,
               Washington,D.C, "TradiligHalts and Price Limits."            .      .
           • A-SSA Convention, December 1988. Discussant
           • ASSA Convention, December 1988,"EStimatlllglIltraday Plice Volatility durillg the Crash, presented pal1 of
              ."Improvillll" the PerfOrtn3llce .ofthe Stock Market."
           • ll1stitlite ft>r QmultilativeResearchinFii\aIlce (Q-Grt>up),SpmlgSemiilar, Odando, Floridil. April 1B, 1989,

                                                                    10




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                        September 25, 2008
Report No. 446-A
                                                               65
                                                                          APPENDIX III CONTINUED ..




             "An IUliJitive, Iillroductioil to Agency Theory with Applic;i\tion~ to M<>lley Management."
          • NewY6tK Stock Exchange Academic SeJIJin~,. M<l-Y 5, 1989. Roundtable cUsCUSSi<>ll'
          .STEP~CEPR ,sei:nillaf"Bocconi l]niversity",Miliiu Italy, May 26, 1989."SIPart MoneY,.Noi~~T:I;lding, .<Uld
             Stock.Price Behavior;"                                        .
          • University ofBonll Summer WorkShop, Bonn W. Germany, June 28·}uiy 8, 1989; lIwited guest.
          • French Flllmce Association Conference (AFFI),Jwle 28, 19&9; "Smart Money, Noise Trading <uld Stock
             Price Behavior;"
          • New YorltStockExch<ulge/I.ondon School ofEconornics COluerence·on MarketMicroslruclllrc, London,
             England, November 15, 1989. DiscuSS<Ult.
          • WashingtonlJnlversity,. Regional 'FnmlceCOJucrcncc, November 1990,Jectureon tradingwith asymmetric
             uUo11natlon.
          • UniversityofIowa, Market Microstructure COJuerence, November 1990. "DealetMilrkets 3l1.d Organized
             ExchangeS."
          • Chicago Board ofTrade Conference, V<uld.er}jiltUluverSity, December 3, 199(). Dj~i::Us~ant.
          • ASSA Convention, WasliliJgton, D.C., Dcce:mber 30, 1990. Session chair.
          • Berkeley Progr.un in Fnmlce, April 5-7, 1992. Discnssmt
          • AtI<Ulta,Federnl ReserveB<uik, February 20, 1992...Discuss3nt.
          • New York Stock&cbange Conference, Los Augeles. CalifonJia,March, 1992. DiSCllSS<Ult.
          ..CommoWt¥ Futures TiaditJgCommissiou,' March30:.3i,i992~ .                             -
          .. Kons.t;tnz, GeIim\1iy, April 34,.1992, "1ntertempornl hlsiderTrading......
          • J~em, March 11, 1992. "!lltertemPoru )1iSiderTradiug.,." .
          • Wesiem FUlance·Association,j1,llJt22-24, 1992. DiscUSSiiUt.
          • Stocldrolm, Swedell,.!\.ugust21'22, 1992. "Markf;tFaihtr~ <uId the Regulatioll ofFllliillqial Markets."
          • Allied Social$ciences Association,Jau:uary 5-7,1993. Discuss<Ult.
          • Berkeley Pr~gram inl'umlce, Lake Tahoe,. California, March 14-16, 1993. Coluerence SWIimarizer.
          • Allied Social SCiences Association, Bo&toll,JmuaryfhS, 1994, Discnss<ult.
          • Western FnmlCe Association, Santa Fe,Jwle ~26; 1994. Discussant.
          • Natiohal BJireau '<>f'Ecooornic 'ResearchCOluerence, Key Largo, "Florida, July 11-12. 1994. Discussant.
          • Federal Resetve B;UJk of AtlantaConferellce,MiamJ, March 3-4, 1995~ Discussmt.
          • Q.GroupColuerence, Nov~f 22~29,1995.' ",ACtive Mi,smanagemeilt. ~
          • Allied Social.Sciences.AssociatioJi,.sanFI;l1icisto, 1996. seSSiOllChait~
          • Berkeley Program in FUliUlce, Santa'Barbara,.septembet29-Oetober 1, 1996. Essay in HonotofFisciler
             Bl<l-cl<"
          • We~temFul1Ulce AssQciatiol,l. Meetiilgs,Los Ang!:les,Juiie 19, 1999, di~CUSS<Ult.
          • Dp.ke l]luversi/:YGlo4al CapitalMa!'ketsCeli~r; Coi!f~Jice ollBolidMarlretMiq~t:nJcture, Washington
             DC, October 19, 1999,presenteT.
          • SI1\ CA Mini-Conference on.Insider'I'rading, Sychley, Australia, NovemberS, 1999, keynote speaker,
             "hlSiderTradlng;,'                                                                               .
          • Duke Unveristy'GlobaiCapital Markets Center, Coluerenceon Hedge FWlds, Dwham, NC, November 19,
             1999, medemor.
          • NBER Asset PricingConference,}3oston, May 5,'2000, discussant.
          .Westem Flllance AssociatiOli, SUll ValleY, Jdaho,jwle21-24,2000, disCUSS<Ult.
          .·Reviewor EcOlJomic Slildies .C(llUerence, Fraukfu)t, Germany, juile30, 2QQO, "ContagiQlias a Wealth
               Effect."
           •   Federal Reserve ij;uIk ofAtianta,.Co.lit"etence, AtIa11ta; september 15,2000; "Contagionas aWeal\hEffect..
           •   :Fedetal Reserve BroIk of AtJaijta, Coiiferenceoii e-FiI~ii::e, OCtober 14,2000,d1srnss<ult.
           •   Betke!c:Ji Program:ulFuliulce; Squaw Valley, CA; March 17" 2001, ,pmgram discuss<ult.
           •   N3SA M¢etlllgs, New Ode<ulS, IA,jamiary 6, ·2001, "Contagion asCi Wealth Effect."

                                                                11




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                   September 25, 2008
Report No. 446-A
                                                              66
                                                                                 APPENDIX III CONTINUED ..




               •    Q-Group, Tampa, FL, April 4, 2001, "ConiaglOU;lS ~ Wealth Fifeet."
               •    Westen) FUlance Assn., Tucson,AZ, JWle ~2-23, 2001, seSsion chair (Market Mierostnlctlire),disi;ussaut.
               ..   New YorkBtockExch;ul~ Coufere).lce, InstitUtional 1rading,PahhBea(:h,FL, Dec. 6; 200 1, s¢'~siQnc!:lair.
               •    Utah WUlterFman~ Conference, Saltl..ak.e City, Utah,February26-28, disci.JsSant.
               •    RFS COluerence, Northwestern. Uhiversity, AJiril26-28; ,2"002, disCUSsaJ1L
               •    Fe4era1,Rese~'Barik ofAtlanta,Conferente 011Venture Capital, Sealslailg, GA, May 2-4, 2002~~S5allt
               •    Conference in fIOlltJr bfDavid Whitcomb, Rutgers UniverSity; OctOber 11,2002, discussallt
               •    SEC Roundtable DiseussioilOIl Market TrlUisparency; November 12, 2002, participant
               •    NYSE Roundtable Discussio1lon Market QUality Statistics, December 6, 2002,participalit
               •    ASSAColiveulion. Contagiou.January4" 2003, session chair.
               •    UtabWiuterFinance Conference, February 6, 2003, d1scUSSallt
               •    FRB Atlanta Conference on Business Method 'Patents; Sea lslalld, GA, April 3. 2003, discussant
               •    NBER MatketMicrostructure Meeting, Chicago, April 12, 2003, discussant
               • ASS1\. SanDiego,J~uary5, ~004,discuSSalll
               • Utah Wl1lterF"l1)31lceConfereuce, February 6,2004, dis<;USSal\t:.
               • nuke!NYSECoiueri:1ice on !utemalioual Cross-Listll~, Sarasota,FL, March 11-13, Dukl; GCMe
                   representative.
               • NewYo£k Stock Exchange Conference,Market Mii;rQstrtlctlire, P;ihn Beach, FL,December 12,2oo3,pallel
                   oulllllJ'ket IIUCrOStructure.                                     .                                .
               • FRB Atlanta COluereuce,on MarketTransparency; SeaIsIand, GA, April 15,2004; discussalit
               • 2004 HKUST FUlalll:e SYmposium, HOl)g Kong,. "A TwO-Factor Model of V~lie and Growth with
                   AdjustmeutGosts/' :December. 13, 2004.
               • ' Keynote $peaker;'twelfth Annual Conferenq: ouThe The.orieS and Practices of SeCwltl¢s Markets,
                   National Suit 'Yat-sen IJniversity, Kadhslwlg; TaiW3ll, "Insider Trading audCorporate Govenlallce," .
                   DeeemQer 17;2004.
               • ASSA, Philade1phis, JlI1luary 8, 2005, diSCUSSalit.
               • Utah Wlliter ¥jj)31lce Conference, February 10, 2005, discussant
               • Assllrallt/Georgia Tech hiternaiionalFUlalu:e C<lIuerence,.Assurant Lecture, "Market Micr.ostructure and.
i                  RaiionalExpecialions: A Primer,~ April B, 2005.
               • Oxford FDlance,Swnmer Symposium; "ATwo-FaelDrModef ofValueand Gl'OwthWithAdjustmeut Costs,"
                   June 15, 2005.
               • COiUereiice.on hifortnationlUldBehavioralBiases iuFmancialMarkets,.FuiiClacionRamonAreces,.Madrid,
                   "An tnteiilpPnil Asset PricingM(JIiC::lwithStra,ll:gicltuoO'ned TradiJtg lUll! Risk-Averse Marj(et},Ifakers;"July
                   8,2005.                       .
               • Oxforo Suinn:ier!"inanceSymposimn, "ATwQ-F<lCti:>r MQdel ofValiie and GroWtA,"JlJne 16,2005.
               • Conference 011 hlfonnatioil aild Behaviorallli<iSe5 inF'liial1(;ialMarkets, Madrid, Spalll, •Aillilteniporal
                   Asset PncingModel with Strategic Informed TradulgiUld Risk-Averse Market Makers,'Juiy .7.2005.
               • Alpha Strategies ColJferenceon QmUltitatiVeMoney Managemen~ commentator, APri110-12,2006.
               • Clarend.ollLectureS)l1Fil1ance "Stock PriceDYli;mU,CSlUll!Uldustry Equilibrium>" Juile 12-14, 2006..
               .I.SEComere).ice 011 New Direetions in Asset Priclllg <uld'Risk Manageme1it, "J)ymunicS~gidilformed
                   Tradlltgwith Rlsk-AverseMarket Make~," June 16, 2006.                                              .
               • Western Filiance.Asst>cialion, session:chair, discussant, JWle 2i"22,2()05.
               • European Summer Symposium in FinandaIMarkets, Gerzensee, Switzerland, focus session chan-,July 24-
                   2~;20ti6.                                                .                                                   .




                                                                        12.




    SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                      September 25, 2008
    Report No. 446-A
                                                                   67
                                                                            APPENDIX III CONTINUED ..




                 lNvrTED'UNIVERSITYRFSEARCH SEMINARS

                 •    SChool of Organiz;!,tion and ManageJhen(; Ydle University, March 1982.
                 •    New York UniverSity, April 1983.
                 •    A,uSlJ;lJi;ul NatiotW lhiiversjty" October 1983.
                 •    University pi New England,.A.nm4:11e, NSW, AuslI'ali;l, October 1983.
                 •    AUStiaiiail Gra4tgie School ofMaI~eut, University 6fNewSouthWales, October 1983.
                 ..   Centre ofPolicy Studies, Monash'University, Mdbouro.e, AUgUSt 1983 and November 1983.
                 •    School ofOrganizatioll'and Management,'Yale University, March 1984..
                 •    Columbia University Business School, Apiil1984.
                 •    University ofRochester, April 1984.
                 •    NBER. Trade Group, April 1984.
                 •    NBEltFinand<l1Markets Group, November 1984.
                 .. lIamfd Business School, May 1985.                '
                 • Uni\(etsityof Chi~ BUsil.les$&:hoOl, MaY,Hl8.5.
                 • J{tllpgjfGraduate SchoolofManagement, NOrthwestenl Ullivet$ity, May 1985.
                 .. ' Sloan School, MIT, October1985.
                 • Graduate School of Business, Stuu6!d University, Match 1986.
                 • Graduate Schpol.ofManagemellt, Rutgers University; April 1986.
                 • Columbia Uliiverslty BusinessSchool, Septenilier 1986.
                 .CSIA, Camegle~MetIonUniversity, SeptemheI;, i986.
                 • Uni~sity,ofChkagoBusinessSchool, c>ctobed986:.
! .              • Kellogg Graduate SChool of Management, Northwesterii University, October 1980.
                 • SchoOl of Btjsiliess~ Washingtdl.lUiuversity, St Louis, February,1987.
                 • GradUate Scl160lofManagemetit,;Ru~ets Unj,versilY, Febru:;ny 1987.
                 • Gr.l(lua~ ~Odl Qf:Business,SIall[6rd lJIwersity,JaIl~aty 1987.
                 .. School 6f.;BU$inesg, Ul~Yersity of Califorpi~ BeQteley,Jamwy 1987.
                 .. School ofMaIIagl:ment,Rice University,February 198'7.
                 • Business Sch6ol,University ofMiclugan, February 1987.
                 • Business School and Economics, Uluversity ofWlSconsin, February 1987.
                 • Economics Department, University ofPittsbur8b, February 1987.
                 .WIwton Business School, UniversityofPewlsylvania; Febru;u:y 1987.
                 • :economics DePartment, BrownUluverslty, Febru2ry 1987.
                 • SChool of OrganizatiOll aIld M;uIagl:ment,Yale Uluversity, Apm1981.
                 • EtoMD:!ics Departmejlt, Vll"giniaPol~ticJllStiM~,Jujlt; 1981.
                 • UClA,Uil$Ule$$ S!:hQol, May 20, 1988 'Si:ilaIt M:oij~y,,1'rojg~ Tra.ding, and Stock, Price Behavior:
                 • Ul}iversity of Cali.fomia, SaIlta Cruz, Ecoiiomi¢sDepattmellt, October 25, 1988, "Dealer Markets aIld
                      Organized ExchaI)ges;'
                 • Allderson School of MaIlagement, University of New Mexico, November 18, i98S'1)ealer MarketsaIld
                      OrgaIJized Exchanges:
                 • BocconiUniversity,Milanllaly; "Asymmetric Illfonnation aIld Market Microstructllre,' May ~,19S9.
                •• Commodity'Fuinres Trading. Commission, November i989~
                • 'UniVersity of British Columbia, FUWlce Seminar) t)ecember 1989~ 'NoiseTradiugand Takeovers:
                • VaIlllerbl1tUlliversity, F"nlaIICe Seminal" November 1989, "Noise Ti:a:dii.lgal~d Takeovers.;
                • University of Utah, F'lllaI1CeSerniuar, December 1989. "Interl.emPOldlJnsider Trading... ~
                 • Uiriversity of hl<!iaIla, FUl311Ce Semular, September 1990. "Intertemporal hlsiderTradillg... ~
                 • 'Eco1e' Nationale des Pontset Chaussees, Pari$ Fnl3ll'ce Seminar,]anuary 1991. "Intertemporallnsider
                      Trading..;"
                                                                  13




      SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                              September 25, 2008
      Report No. 446-A
                                                                68
                                                                           APPENDIX III CONTINUED ..




          • Uluversity of NO$Carolina, 'February 18, 1992. ·lnte~temporal hlSiderTradiJIg With Smooth Order
             F1ow. H
          • Northwestem Uluversity, Kellogg GraduateSchool ofManagement,J~le 3-4, 1992. "Intertemporal Insider
             TradiJrg'With Smooth OrderFlow. H
          • NewYorkUluversity, September 22; 1993. ·Speculation Duopoly..:
          • tJCi.A, November 5, .1993. "Speculation Duopoly... ~
          • 'Vanda:biit University, April 14, 1995. "Speculal1on Duopoly:.;"
          • Uluversit)lof Michigan, December 6,1996. "S~ulation DuopOly with Agreement to Disagree."
          • Rice Uiuversity, October 1, 1999, "COnt!8ions as a Wealth Effect ofFinanciallllt.ermediaries."
          ;, SYdney U1uVersity, Sydney, Austnilia; November 2. 1999. "Contagion as a'WeaIth Effect of FlIlancial
              Intermediaries:
          • CamegieMellon Uluversily, GSlA, February 23, 2001, '''CoJitagion as a Wealth.Effect;'
          • Stanford Uiuversily,Graduate SChool of BusJneSs, March 14,2001, "Contagion asaWca!th E'lt"ect"
          • U1uversily Qf CalifopJia, Berkeley, Hfuts$choo) of BusiJless, March 15, 2001, ·Contagion.as a Weaith
              Effect"                                                                                 .
          • Umversily of Indi;Wa,"April Zl,2001, "Contagion as a WeaIthEffect."
          • Londou School of Economics, May 9. 2001, "Coii!agion as. a Wealth Effect"
          • Umversily ofTe~,Austill, Oetober2Q, 2001, ·Continuous SpeculationwithOvercoMdent Traders."
          .. Norwe~ SchOQI Of Manag,ement, Os,1o, JWle 5,- 2002; 'Continuous Ttadingwilh Heterog~neous ,.....
          .. Humboldt University, Berlin, JUi1e 7,2002, "Cqlllinu9us Trading with Heltl:ogelleoUsBdiCifs ,..."
          • OxfordSummerF111ance]uslitute,JW1e 11,2002, "ContiJiuousTl1ldingwith.:IIeterogcneous~ers and No
              Noise Tr;iljing.·                              .
          • Oxford SumiIler. F"l11311ce Institute, june 12; 2003,·CoIP9rate .F"mance audlndustriaI Organiz;a!iol1.;'
          .. New York Univeris!:Y,·Strat.egic Acqu$tiOllS ... ~,No;>v~l;lt~t 5, 2003.                 .
          • UIUve~ty ofVrrginia, "Prospcct'I'heory .:. ~,Febrriaryl4, 2003.
          • IN'SEAD, PariS, ~Strategic Acquisition ... ", April 2, 2004"
          ;, BEC, M, "Strategic AcqUisitious ... ~; April 1, 2004..
          ;, University. of Amsterdam, "Strategic AcquiSitions ... ", March 30,2004.
          .. Umvemly ofTJih\1rg, ·Strategic Acq~itions ,.. ~, March 29,,2004.
          • Pniv~tY Qfl'ompeu Fa1:>ri, Bax:telQ~> "St:rategic AtquisitiOlJS ...., March 24, 2004.
          • P.rincet~>1\ Univ~rSity, "S)rat.egic Aitqlii$itiOl)S .•.: Marclt 3, 2004.
          -UIUversiiy of Mai1'J3l1d, "Strategic Acqlii$itiol1S ..... April 23, 20Q4.
          • Federal Reserte Board, Washington,.pC, "Sltalegie ~cqlii$itiOllS ..," AuglJ.st, l7. 2004.
          • BaruCh College, CUNY, "Strategic AcqUisitions ;u)cl :blVestIne.J!ts i:J.J 'a Duopoly P,atellt Race Under
              Uncel,"t;jjwr" November 17, 2004,                                               .
          • INSEAD Sulg;tpore, "VaJueallil. Growth .•.," Deceml!<:t 7, 2004.
          • NatioJ:la1 UluY!:r5ity of Siug;l»ore, •A Two-FactotModcl ofValue and Growth with Adj\1.st!n¢nt 'Q;>Sts,"
              DecelJ1ber9,2M4,
          • UllivetsityQfM;Il)'lallcl,"ATvvo-FactorModelofYaliieal1d Growth With AdjUStme.Jlt COsts: rvlay9,200S.
          • ImperiaJ College, LongQl1, "A Two-Factor Model ofValue aud Growth ..... MaylI ,2006.                   .
          .. WatwicrtUluversity,·Sll"ategicTradUJ.gwithRiskAverse Market Makers," May 31,2006...




                                                             14




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                     September 25, 2008
Report No. 446-A
                                                              69
                                                                        APPENDIX IV




                         Scope and Methodology

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we pJan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and concJusions based on our audit objectives.

Scope. We performed our audit from April 2008 to August 2008. Our audit
scope included a review of the CSE and Broker-Dealer Risk Assessment
program, as requested. Although our audit scope focused on TM's oversight of
the CSE firms, we also considered the role of other Commission divisions and
offices (for a Commission wide perspective) in the oversight oithe CSE firms.

Our scope emphasized the CSE firms (especially Bear Stearns) that do not have
a principal regulator because the Commission has much greater oversight
responsibility for these firms. Our period of review was from October 2002 until
August 2008. However, it varied depending on the nature of the issue. The
scope of our review considered when:
    •   Bear Stearns collapsed;
    •   The subprime mortgage crisis started to become apparent (based on our
        audit work, we used December 2006);
    •   Two of Bear Stearns' managed hedge funds collapsed; and
    •   The CSE program began and the Commission issued the Order for the
        particular firm.

Lastly, our scope either did not include or was limited in the following areas:
    •   We completed our audit fieldwork prior to September 15, 2008 when
        Lehman Brothers announced it would file for bankruptcy protection and
        Bank of America announced that it agreed to acquire Merrill Lynch & Co.
        As a result, our fieldwork did not emphasize these firms, unlike Bear
        Stearns;
    •   We did not evaluate the effect(s), if any, that mark to marker (i.e., "fair
        value") accounting had on the valuation of mortgage securities and the
        ensuing write-downs which subsequently caused the firms to raise capital;
    •   We did not evaluate the role of rating agencies in the securitization
        process of mortgage loans;


SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A


                                                70
                                                              APPENDIX IV CONTINUED ..


      •   We did not visit the CSE firms and perform an independent assessment
          of the firm's risk management systems (e.g., internal controls, models,
          etc.), or their financial condition (e.g., compliance with capital and liquidity
          requirements). As a resuJt, we may not have identified certain findings
          and recommendations (i.e., improvements);
      •   We did not determine (i.e., recalculate and determine the accwacy) of the
          capital and liquidity data provided by the CSE firms to TM: OGlE and TM
          performed some inspection testing on the financial data during the
          application inspection. Also, the Financial Industry Regulatory Authority
          (FINRA) routinely performs inspection testing on the registered broker-
          dealers capital calculation;
      •   We did not determine the cause of Bear Stearns' collapse. For instance,
          some individuals have speculated that short sellers may have caused
          Bear Stearns' collapse by intentionally spreading false rumors. This issue
          is beyond the scope of this audit;
      •   The CSE program consists of four interrelated activities: an application
          process, inspections, the review of required filings, and periodic meetings
                          193
          with CSE staff.     We performed limited testing on some of these
                                          194
          processes, as discussed below:
             o   TM relies mainly on meetings with the CSE staff to administer the
                 CSE program. As a result, we viewed compliance testing in this
                 area to have limited value; instead we (our expert, primarily)
                 focused on the substance of these meetings. Thus, we excluded
                 the meeting process from our compliance testing; and
             o   In March 2007, in response to a GAO audit report (as discussed in
                 the Prior Audit Coverage of this Appendix); Chairman Cox decided
                 to transfer inspection responsibility from OGlE to TM (responsibility
                 was transferred to TM in March 2007 for four of the five firms, and
                 for the last firm (Morgan Stanley) following the completion of the
                 ongoing OGlE exam of that firm in September 2007). OGlE
                 retained within the Commission, the responsibility for conducting
                 inspections on the CSE's broker-dealers. TM had not completed
                 any of these inspections as of mid-September 2008. As a result,
                 we only performed limited compliance testing on TM's inspection
                 process. Instead, we emphasized the design of the TM inspection
                 program;

      •   The Congressional request also asked the DIG to investigate the closing
          of a Commission enforcement investigation involving Bear Stearns. This


193 Source: SEC [Commission] Holding Company SupelVision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisions/marketreg/hcsupelVision.htm>.
194 The purpose of our testing was to determine whether the CSE program is compliant with its policies and
    procedures and the CSE rule.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program               September 25, 2008
Report No. 446-A
                                                   71
                                                                APPENDIX IV CONTINUED ..


         issue is beyond the scope of this audit, but is the subject of a separate
         investigative report; and
    •    The role of federal regulators (e.g., the U.S. Department of Treasury) in
         the sale of Bear Stearns to JP Morgan is beyond the scope of this audit.

Methodology. Our methodology included reviewing required filings, Jnspection
reports, and documentation surrounding periodic meetings between TM and
CSE staff. We also reviewed other types of supporting documentation such as
TM's policies and procedures, prior GAO audit reports, newspaper articles, etc.
We also conducted interviews with staff from the Commission, CSE firms, GAO,
and the FRBNY.

Lastly, we hired a contractor (i.e., an expert) to provide us with technical
           195
expertise.     The expert reviewed the adequacy of TM's review of models,
scenario analysis, etc; as well as, the associated internal risk management
controls. We have incorporated the expert's opinions, finding~ and
recommendations into this audit report. The expert focused his review on the
Commission's oversight of Bear Stearns.

Internal/Management Controls. We did not review management controls
because they did not pertain to the audit's objectives. However, we identified
several improvements in the CSE program's internal controls (e.g., tracking of
issues).

Use of Computer-Processed Data. We relied on data from the Commission's
Broker-Dealer Risk Assessment (BDRA) computer system. Firms use the BORA
system to electronically transmit filings (and BDRA stores the filing) to TM. The
BDRA system does not process any of the data contained in the filings. As a
result, we considered the relevant risks to be:
    •    TM's failure to re.ceive a filing sent by a firm; and
    •    Whether information in the BDRA system could be compromised
         (information security risks).

We did not identify any instances where TM failed to receive a filing that a CSE
firm transmitted through the system. However, TM told us about situations
where firm filings made under the Broker-Dealer Risk Assessment program did
not completely transmit to TM through the BDRA system. Given how we used
the BORA data in this audit, if a similar situation occurred with the CSE filings,
we would have been aware because the firms transmit the filings at known
intervals (e.g., month end).

We considered the risk surrounding information security. The Commission's
Office of Information Technology recently certified and accredited the BDRA

195 See Appendix III for our expert's (Albert "Pete" Kyle) Curriculum Vitae.

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program          September 25, 2008
Report No. 446-A
                                                     72
                                                              APPENDIX IV CONTINUED ..


system, as required by the Federal Information Security Management Act of
2002. Therefore, we believe that we can rely upon the information in the BORA
system as it pertains to information security.

We identified a few issues with the BORA system, but they do not affect the
reliability of the data. We discuss the issues in our related audit report (No. 446-
B).

Judgmental Sample. We judgmentally selected twenty issues that TM or OCIE
staff identified for our testing on TM's tracking of material issues (see Report
Finding No.5). Our sample included issues from all the CSE firms including
those with principal regulators, although our audit work emphasized Bear
Stearns. We generally selected specific issues such as an internal control
weakness, as opposed to more generic issues (e.g., exposure to subprime). We
selected samples from:
      •   The TM action memo recommending that the Commission issue the
          Order;                                          -
                                              196
      •   OCIE inspection reports; and
      •   The monitoring staff's monthly memoranda (which discuss significant
          issues) to senior TM management.

Although we believe that our sampling methodology is reasonable and
representative, our results should not be projected onto the universe of issues.

Use of Technical Assistance. We received technical assistance from an
expert, as discussed in the Methodology section of this Appendix. His expertise
is described in his Curriculum Vitae in Appendix III.

Prior Audit Coverage. GAO Report Financial Market Regulation: Agencies
Engaged in Consolidated Supervision Can Strengthen Performance
Measurement and Collaboration, GAO Report 07-154, dated March 15, 2007 on
strengthening performance measurement and collaboration for the agencies
(i.e., the Federal Reserve, Commission, and the Office of Thrift Supervision
(OTS» involved in consolidated supervision. They made several
recommendations involving the Commission:

GAO Recommendation:                To better assess the Commission's achievements,
                                   the Chairman of the Commission should direct his
                                   staff to develop program objectives and performance
                                   measures that are specific to the CSE program.


  We did not use TM's inspection reports because they had not completed any inspections (as of when we
196
  performed our testing) since the Chairman transferred (from OCIE to TM) the inspection authority for the
  consolidated entity. Lastly, TM has implemented an automated method to track the inspection issues
  (i.e., findings).
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program               September 25, 2008
Report No. 446-A
                                                    73
                                                              APPENDIX IV CONTINUED ..


The Commission has developed program objectives and performance measures.
These documents are available on the Commission's website. 197 .


GAO Recommendation:                To ensure they are promoting consistency with
                                   primary bank and functional supervisors and are
                                   avoiding duplicating the efforts of these supervisors,
                                   the Chairman of the Federal Reserve, the Director of
                                   the OTS, and the Chairman of the Commission
                                   should also direct their staffs to identify additional
                                   ways to more effectively collaborate with primary bank
                                   and functional supervisors. Some of the ways they
                                   might consider accomplishing this include:
                               •   Ensuring common understanding of how the
                                   respective roles and responsibilities of primary bank
                                   and functional supervisors and of consolidated
                                   supervisors are being applied and defined in
                                   decisions regarding the examinatio-n and supervision
                                   of institutions; and
                               •   Developing appropriate mechanisms to monitor,
                                   evaluate, and report jointly on results.

In response to Bear Stearns' collapse, the Commission and the Federal Reserve
have agreed on a MOU involving coordination and information sharing.

GAO Recommendation:                To take advantage of the opportunities to promote
                                   better accountability and limit the potential for
                                   duplication and regulatory gaps, the Chairman of the
                                   Federal Reserve, the Director of OTS, and the
                                   Chairman of the Commission should foster more
                                   systematic collaboration among theiragencies to
                                   promote supervisory consistency, particularly for firms
                                   that provide similar services. In particular, the
                                   Chairman of the Commission and the Director of the
                                   OTS should jointly clarify accountability for the
                                   supervision of the CSEs that are also thrift holding
                                   companies and work to reduce the potential for
                                   duplication.

The Chairman and the Director of OTS are still discussing the jurisdictional
issues raised by the recommendation. This issue was recently discussed at a
                        198
Congressional hearing.


197 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisions/marketreg/hcsupervision.htm>.
198 Source: Risk Management and its Implications for Systemic Risk Before the U.S. Senate Subcommittee
    on Securities, Insurance, and Investment on Banking, Housing, and Urban Affairs, 11 oth Congo (June 19,
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                 September 25, 2008
Report No. 446-A
                                                    74
                                                                   APPENDIX IV CONTINUED ..



GAO Recommendation:                    The Chairman of the Commission should direct the
                                       staff to develop and publicly release explicit written
                                       guidance for supervision of CSEs. This guidance
                                       should clarify the responsibilities and activities of the
                                       OCIE and TM's res'ponsibilities for administering the
                                       CSE program.

The Chairman transferred the inspection authority of the consolidated entity from
OCIE to TM. 199 However, as discussed in the audit report, TM and OCIE can
still improve collaboration. Lastly, the Commission developed and publicly
released written guidance describing the CSE program (e.g., TM's roles and
responsibilities) .




      2008) (statement of Erik Sirri, Director of TM, Commission).
199   The transfer was in response to a GAO audit report (Financial Market Regulation: Agencies Engaged in
      Consolidated Supervision Can Strengthen Performance Measurement and Collaboration. Report 07-
      154, March 15, 2007) recommendation. In response to the report Chairman Cox told GAO: "To
      implement this recommendation, I have carefully considered the question of which organizational
      structure will best achieve the goal of the CSE program. I have concluded that the success of the CSE
      program will be best ensured if the supervision of the CSE firms is fully integrated with, rather than
      merely coordinated with, the detailed onsite testing that is done of the documented controls at CSE
      firms. As a result, I have decided to transfer responsibility for on-site testing of the CSE holding
      company controls to the Division of Market Regulation [now called TM). This will bet.!er align the testing
      and supervision components of the CSE program, will strengthen its prudential character, and will most
      efficiently utilize the Commission's resources. With the new structure, ongoing supervision activities will
      be more directly informed by the results of focused testing of controls, and field inspections will be more
      precisely targeted using information from ongoing supervisory work. In addition, the Commission's
      expertise related to the prudential supervision of securities firms will be concentrated in the Division of
      Market Regulation, which will foster improved communication and coordination among the staff
      responsible for administering various components of the CSE program." The Chairman made his
      decision after carefully evaluating proposals from TM and OCIE, and after consulting with the four other
      Commissioners, who unanimously supported the decision to consolidate CSE oversight under TM.

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                        75
                                                                        APPENDIX V


                        List of Recommendations

Recommendation 1:
The Division of Trading and Markets, in consultation with the Board of Governors
of the Federal Reserve System and the Basel Committee should: (1} reassess
the guidelines and rules regarding the Consolidated Supervised Entity (CSE)
firms' capital levels; and (2) identify instances (e.g., a firm's credit rating is
downgraded, or its unsecured debt trades at high spreads over Treasuries) when
firms should be required to raise additional capital, even if the firm otherwise
appears to be well capitalized according to CSE program requirements.

Recommendation 2:
The Division of Trading and Markets, in consultation with the Board of Governors
of the Federal Reserve System, should reassess pillar 2 of the Basel II
framework and the Consolidated Supervised Entity (CSE) program guidelines
regarding liquidity and make appropriate changes to the CSE program's liquidity
requirements. Changes should describe assumptions CSE firms should be
required to make about availability of secured lending in times of stress
(including secured lending from the Federal Reserve) and should spell out
circumstances in which CSE firms should be required to increase their liquidity
beyond levels currently contemplated by CSE program liquidity requirements.

Recommendation 3:
The Division of Trading and Markets should ensure that it adequately
incorporates a firm's concentration of securities into the Consolidated Supervised
Entity (CSE) program's assessment of a firm's risk management systems (e.g.,
internal controls, models, etc.) and more aggressively prompts CSE firms to take
appropriate actions to mitigate such risks.

Recommendation 4:
The Division of Trading and Markets, in consultation with the Board of Governors
of the Federal Reserve System, should reassess the Consolidated Supervised
Entity (CSE) program's policy regarding leverage ratio limits and make a
determination as to whether, and under what circumstances, to impose leverage
ratio limits on the CSEs.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A


                                                76
                                                           APPENDIX V CONTINUED ..



Recommendation 5:
The Division of Trading and Markets (TM) should ensure that: (1) the
Consolidated Supervised Entity (CSE) firms have specific criteria for reviewing
and approving models used for pricing and risk management, (2) the review and
approval process conducted by the CSE firms is performed in an independent
manner by the CSEs' risk management staff, (3) each CSE firms' model review
and approval process takes place in a thorough and timely manner, and (4)
impose limits on risk taking by firms in areas where TM determines that risk
management is not adequate.

Recommendation 6:
The Division of Trading and Markets should be more skeptical of Consolidated
Supervised Entity firms risk models and work with regulated firms to help them
develop additional stress scenarios that mayor may not have not have been
contemplated as part of the prudential regulation process.

Recommendation 7:
The Diyision of Trading and Markets (TM) should be involved in formulating
action plans for a variety of stress or disaster scenarios, even if the plans are
informal, including plans for every stress scenario that the Consolidated
Supervised Entity (CSE) firms use in risk management, as well as plans for
scenarios that TM believes might happen but are not incorporated into CSE
firms' risk management.

Recommendation 8:
The Division of Trading and Markets should take steps to ensure that mark
disputes do not provide an occasion for Consolidated Supervised Entity firms to
inflate the combined capital of two firms by using inconsistent marks.

Recommendation 9:
The Division of Trading and Markets should encourage the Consolidated
Supervised Entity (CSE) firms to present VaR and other risk management data
in a useful manner, which is consistent with how the CSE firms use the
information internally and which allows risk factors to be applied consistently to
individual desks.

Recommendation 10:
The Division of Trading and Markets should ensure that the Consolidated
Supervised Entity take appropriate valuation deductions for illiquid, hard-to-value
assets and appropriate capital deductions for stressed repos, especially stressed
repos where illiquid securities are posted as collateral.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                77
                                                               APPENDIX V CONTINUED ..



Recommendation 11:
The Division of Trading and Markets (TM), in consultation with the Chairman's
Office, should discuss risk tolerance with the Board of Directors and senior
management of each Consolidated Supervised Entity (CSE) firm to better
understand whether the actions of CSE firm staff are consistent with the desires
of the Board of Directors and senior management. This information would
enable TM to better assess the effectiveness of the firms' risk management
systems.

Recommendation 12:
The Division of Trading and Markets should require compliance with the existing
rule that requires external auditors to review the Consolidated Supervised Entity
firms' risk management control systems or seek Commission approval in
                                                     oo
accordance with the Administrative Procedures Ace for this deviation from the
current rule's requirement.

Recommendation 13:
The Division of Trading and Markets should ensure that reviews of a firm's
Contingency Funding Plan include an assessment of a Consolidated Supervised
Entity firm's internal and external communication strategies.

Recommendation 14:
The Division of Trading and Markets should develop a formal automated process
to track material issues identified by the monitoring staff to ensure that they are
adequately resolved. At a minimum, the tracking system should provide the
following information:
             •   The source of the issue;
             •   When the issue was identified;
             •   Who identified the issue;
             •   The current status of the issue (e.g., new developments);
             •   When the issue was resolved; and
             •   How the issue was resolved.




200The Administrative Procedures Act (5 U.S.C. §500 et. seq.,) sets forth the basic procedural requirements
   for agency rulemaking. It generally requires (1) publication of a notice of proposed rulemaking in the
  Federal Register, (2) opportunity for public participation in rulemaking by submission of written
  comments, and (3) publication of a final rule and accompanying statement of basis and purpose not less
  than 30 days before the rule's effective date.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                    September 25, 2008
Report No. 446-A
                                                    78
                                                           APPENDIX V CONTINUED ..


Recommendation 15:
The Division of Trading and Markets should: (1) reassess all the prior Office of
Compliance Inspections and Examinations (OCIE) issues to ensure that no
significant issues are unresolved (given the belief that OCIE followed up); and (2)
follow up on all significant issues.

Recommendation 16:
The Division of Trading and Markets should ensure that they complete all phases
of a firm's inspection process before recommending that the Securities and
Exchange Commission allow any additional Consolidated Supervised Entity firms
the authority to use the alternative capital method.

Recommendation 17:
The Divisions of Corporation Finance (CF) and Trading and Markets (TM) should
take concrete steps to improve their collaboration efforts and should determine
whether TM's information on the Consolidated Supervised Entity (CSE) firms
could be used by CF in its review of the CSE firms.

Recommendation 18:
The Division of Trading and Markets (TM) and the Office of Compliance
Inspections and Examinations (OCIE) should develop a collaboration agreement
(e.g., discussing information sharing) that maintains a clear delineation of
responsibilities between TM and OCIE with respect to the Consolidated
Supervised Entity program. They should inform the Chairman's Office of any
disagreement(s) so that the issue(s) can be resolved.

Recommendation 19:
The Division of Trading and Markets and the Office of Risk Assessment should
develop an agreement outlining their roles and responsibilities, as well as
methods for information sharing such as communicating project results. These
two offices should inform the Chairman's Office of any disagreement(s) so that
the issue(s) can be resolved.

Recommendation 20:
The Division of Corporation Finance should: (1) develop internal guidelines for
reviewing filings in a timely manner, and (2) track and monitor compliance with
these internal guidelines.

Recommendation 21:
The Division of Corporation Finance (CF) should (1) establish a policy outlining
when firms are expected to substantively respond to issues raised in CF's
comment letters, and (2) track and monitor compliance with this policy.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                79
                                                           APPENDIX V CONTINUED ..


Recommendation 22:
Chairman Cox should create a Task Force led by the Office of Risk Assessment
(ORA) with staff from the Divisions of Trading and Markets, and Investment
Management, and the Office of Compliance Inspections and Examinations. The
Task Force should perform an analysis of large firms with customer accounts
that hold significant amounts of customer funds and have unregulated entities, to
determine the costs and benefits of supervising these firms on a consolidated
basis. If the Task Force ultimately believes that the Securities and Exchange
Commission (Commission) should supervise these firms on a consolidated
basis, it should make a recommendation to the Commission that involves
seeking the necessary statutory authority to oversee these firms on a
consolidated basis.

Recommendation 23:
The Division of Trading and Markets, in consultation with the Chairman's office,
should determine what additional changes need to be made to the Consolidated
Supervised Entity (CSE) program in light of the collapse of Bear Stearns and
changing economic environment.

Recommendation 24:
The Division of Trading and Markets (TM) should fill critical existing positions,
and consider what any additional staff it believes will be needed to carry out the
CSE program's function going forward. TM should also establish milestones for
completing each phase of an inspection and implement a procedure to ensure
that the milestones are met.

Recommendation 25:
The Division of Trading and Markets, in consultation with the Office of
Compliance Inspections and Examinations and the Commission's Ethics office,
should develop an ethics manual.

Recommendation 26:
The Division of Trading and Markets should continue to seek out ways to
increase its communication, coordination, and information sharing with the
Federal Reserve and other Federal Regulators.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                 80
                                                                        APPENDIX VI



                      Chairman Cox's Comments


                                      September 25, 2008


MEMORANDUM

TO:             H. David Kotz
                Inspector General

FROM:           Christopher Cox
                Chairman

SUBJECT:        Draft Report on SEC's Oversight of Bear Stearns and Related
                Entities: The Consolidated Supervised Entities Program


       Thank you for the opportunity to review the Draft Report on SEC's Oversight
of Bear Stearns and Related Entities: The Consolidated Supervised Entities
Program. I welcome your report and recommendations on the CSE program.

       There is much value that the agency can take from an independent and
arms-length review of its programs, and your report provides an invaluable and
fresh perspective for the agency to carefully review and consider. The staff of the
Division of Trading and Markets and the Division of Corporation Finance, who as
you know have been working around the clock for months in the current market
turmoil, have provided detailed comments on specific aspects of the analysis in the
report. As head of the agency, I would like to address your major findings and
recommendations.

       Your report makes 26 specific recommendations to improve the CSE
program, all of which are well-considered and worthy of support. Some of these
recommendations had already been undertaken and many will have potential
applicability beyond the CSE program.

        Your report also underscores the fundamental flaw with the CSE program
that I have reported to the Congress on several occasions in recent months:
voluntary regulation does not work. When Congress passed the Gramm-Leach-
Bliley Act, it failed to give the SEC or any agency the authority to regulate certain
large investment bank holding companies. Because of the lack of explicit statutory
authority for the Commission to regulate the large investment bank holding
companies, the Commission in 2004 created a voluntary program, the Consolidated
Supervised Entities program, in an effort to fill this regulatory gap.

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25. 2008
Report No. 446-A


                                                81
                                                          APPENDIX VI CONTINUED ..



       The inherent weakness ofthe CSE program from the beginning was that
investment banks could opt in: or out of supervision voluntarily. The program had
no explicit statutory authority to require these investment bank holding companies
to report their capital, maintain liquidity, or submit to leverage requirements. The
fact that investment bank holding companies could withdraw from this voluntary
supervision at their discretion diminished the perceived mandate of the CSE
program, and weakened its effectiveness in a number of ways.

       Lacking a statutory mandate to regulate these investment bank holding
companies, the CSE program was patterned after the regulation of commercial bank
holding companie,s. It used the capital and liquidity measurement approaches from
the commercial banking world - with unfortunate results.

       Thus, as your report confirms, at the time of its near-failure Bear Stearns
had a capital cushion well above what was required to meet supervisory standards
calculated under the internationally-accepted Basel framework and the Federal
Reserve's "well capitalized" standard for bank holding companieS.

       Your report also highlights the consequences of a critical issue that existed
throughout the financial services sector. Prior to the spring of 2008, the bank risk
models in use throughout the U.S., including those relied upon by the CSE firms,
did not include scenarios premised on a total mortgage meltdown on a scale so
devastating that it would cause the failure of Fannie Mae and Freddie Mac.
Throughout this year, national and international banking regulators have worked to
strengthen and improve the capital and liquidity standards that are used
throughout the banking system. The SEC has been a leader in this process through
institutions like the Basel Committee on Banking Supervision, the Senior
Supervisors Group, the Financial Stability Forum, and the International
Organization of Securities Commissions. Those efforts are ongoing and vital.

        I am pleased that the SEC has already undertaken several of the actions
listed in your recommendations, and look forward to working with you to implement
others'. Thank you for your role in helping to ensure that the SEC is faithfully
executing its mission to protect investors, facilitate capital formation, and maintain
fair and orderly markets.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                82
                                                                        APPENDIX VII


                        Management's Comments
 DIVISION OF TRADING AND MARKETS MANAGEMENT COMMENTARY

The Division of Trading and Markets ("Division") appreciates the opportunity to
comment on the Office of Inspector General ("OIG") Report "SEC's Oversight of
Bear Stearns and Related Entities: The Consolidated Supervised Entity Program"
("OIG Report"). This comment process is of critical importance to the Division
because previous modes of feedback to OIG have proven ineffective in correcting
what the Division .believes are factual errors and unsupported conclusions. This
OIG Report therefore becomes the mechanism by which the Division can attempt to
set the record straight.

We believe the OIG Report is fundamentally flawed in its process, premises,
analysis, and key findings. The Division understands the importance of an active
and independent OIG, and supports full and fair investigations of matters by the
OIG. However, with respect to this OIG Report, the Division's calls to correct
mistakes, misunderstandings, and misrepresentations have had limited effect on
the final document. It is our view that the resulting OIG Report starts from
incorrect assumptions and reaches inaccurate, unrealistic, and impracticable
conclusions.

Few would argue that the demise of Bear Stearns was a significant event for the
U.S. financial markets. This demise deserves a careful analysis to assess its causes
and to prescribe future actions. This OIG Report does not provide such an analysis;
rather, it attempts to explain Bear's collapse in nutshell fashion. The Division
believes that the OIG Report is flawed in several respects.

As a threshold matter, the Division believes it was not provided with a fair and
meaningful process to address the issues raised in the OIG Report. In particular:

    •   OIG failed to interview the Division's senior management. Senior managers
        were in a position to address many of the concerns raised in the OIG Report
        and provide information that OIG could not obtain from staffworkpapers.
    •   OIG did not interview Bear Stearns managers regarding critical aspects of
        the OIG Report. Firm management constitutes a primary source of
        information that could serve to meaningfully support or refute a number of
        the OIG Report's statements about the Division's CSE supervision ofthe
        firm. Such a cross-check and verification should be incorporated in such a
        OIG Report.
    •   OIG's expert spent only three hours with Division staff before preparing his
        portions ofthe OIGReport. The issues associated with supervision of a
        complex firm such as Bear Stearns cannot be evaluated without developing a
        context for the information. Without the benefit of conversations with
        Division staff, such context is missing and the OIG's conclusions are destined
        to lack proper foundations.

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A


                                                83
                                                         APPENDIX VII CONTINUED ..


    •   Large portions of OIG's Report - and in particular the portion prepared by
        the OIG expert - rely extensively, if not exclusively, on information
        contained in informal Divison staff memoranda that recorded notes, not final
        conclusions, and do not represent all the facts or work performed by Division
        staff. These notes were not a final work product and were not even
        circulated to the Division's senior management.
    •   The OIG Report cites staff notes out of context, giving the impression that
        the Division, at some point, shared such views but failed to act prudently.
        The OIG Report should have distinguished between its own findings and
        opinions, and those of Division staff.
    •   The OIG Report's assessments contain numerous factual and analytical
        errors, and weakly supported conclusions, perhaps reflective of the process
        used and the tight time, informational, and resource constraints under which
        it was prepared. Each error is, in and of itself, understandable. Untangling
        capital from liquidity, market risk from funding risk, risk weighted assets
        from less liquid assets, is difficult even for many practitioners and regulators
        involved in day-to-day consideration of the issues. Unfortunately, the
        cumulative effect of the errors led to less informed and more assertive
        conclusions than would have been the case had the process had the luxury of
        more time and greater resources.

This process has produced findings that are materially in error, including the
following:

    •   As the Division has expressly informed OIG in informal comments, CSE
        holding companies are not subject to a capital requirement - they are
        required to report a capital ratio calculated under the Basel II Standard.
    •   As the Division has expressly informed OIG in informal
        comments, paragraph 777 of the Basel II Standard, quoted in the OIG
        Report, describes requirements related to credit risk. Yet the text of the OIG
        Report cites this paragraph to make an argument that the Standard was
        applied imprudently with respect to market risk concentrations.
    •   As the Division has expressly informed OIG in informal comments, the OIG
        Report improperly criticizes CSE oversight, noting "that pricing at Bear
        Stearns was based more on looking at trading levels in the market than on
        looking at models." Marking positions based upon recent trading activity is a
        higher valuation standard in the accounting literature and should be used
        above marks produced by models.


This OIG Report considers an isolated set of data about Bear Stearns~ yet it makes
sweeping statements and comes to broad findings about the CSE program in
general. In doing so, it does not consider the events in our markets following the
collapse of Bear Stearns. Since that time, we have seen the failure of IndyMac
bank, the bankruptcy of Lehman Brothers, the purchase of Merrill Lynch by Bank
of America, the Federal government's explicit actions to guarantee Fannie Mae,
Freddie Mac, the injection of Federal money into the insurance company AlG, the
attempt by the U.S. Treasury to create a $700B purchase facility for distressed
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                 84
                                                         APPENDIX VII CONTINUED ..

assets from the financial sector, and the conversion of Morgan Stanley and Goldman
Sachs to bank holding companies.




                                 [REDACTED PARAGRAPH]




This chain of events raises very significant questions about the supervision of all
types of financial institutions, not just investment banks. For our part, the Division
has engaged with domestic and international regulators in a concerted effort to
answer what are very fundamental questions about how large and complex financial
institutions should be supervised, capitalized, and kept liquid. With respect to Bear
Stearns, the staff applied the relevant international standards for holding company
capital adequacy in a conservative manner, and added a holding company liquidity
requirement: and yet they could not withstand a "run-on-the-bank." Where the
globally accepted standards required an eight foot high levee, Division staff raised a
ten foot levee, which was of course little use in the face of a fifteen foot storm surge.
The relevant question now is not whether the levees were high enough, because
they clearly were breached. Rather, the central issue is whether levee systems, no.
matter how high, afford sufficient protection from the financial environment, or are
additional measures needed to complement the levees?

In particular, there is widespread recognition that the international standards for
holding company capital adequacy, relied upon by both commercial and investment
banks, require revision. Also, new standards for liquidity need to be calibrated and
applied to large institutions. There are many venues in which relevant discussions
are progressing and where guidance will soon be issued. The Commission staff has
been active in all of these, including the Senior Supervisors Group, the Basel
Committee, the Financial Stability Forum, and the International Organization of
Securities Commissions. Rather than wait for this collaborative work to be
complete, however, the Division responded quickly to thr collapse of Bear Stearns
by requiring the remaining CSE firms to increase their liquidity pools, which
already were significantly in excess of any applicable international standard.

Given continuing market events, we feel it is not possible to responsibly make the
type of statements that were made in this OIG Report about the demise of Bear
Stearns, and the role of the CSE program. We expect that after these data are
analyzed with proper care and reflection, responsible lessons can be drawn. But the
events subsequent to the failure of Bear Stearns strongly suggest that the
statements made in this OIG report are premature at best. For our part, we believe
that the key conclusions of the OIG Report are inaccurate and without empirical
foundation.                                .
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                 85
                                                                 APPENDIX VII CONTINUED ..



    ()IGR~port446-A:        SEC'sOVemght .,tBear St,e.amsand Related Entities: Th.e
    CO:rlSQUliatedSu.pervls¢tlE:fitltyProgralll

    Please illdicatedyourconcUITence·ornoJl.,oonculTence~ith.eachreoommeudation
    that.applies myour Dhisio'n.ot·Qffite.

    Recommendation 1:
    TlieDlvlSIol1 6f'1)'ading aiid ]\;llai1(etS~ih coilStiltationWith the BaafdofGOvehiorsofthe
    FedetalReserve.Systetrtan,diheBasel CQlll111Ittee$hQuld: (t)re~~ess the@idelinesatld
    t:ul~sregardi't1gth:e€ol~pli4~~E!d'Sqper:v~E!dF:rttity(GS~)f111lw' dapita.11~y~ls; '<111.d(2)
    ide,o'tiffw!>tanqel>'(e,g,. p; rlJ1ll'scre<t#:r<rtil1gi~ downgrw;kd; ()fi~.~~eplJfed"<te1it.tr<ldes
    at high. spreads overTh:as\lrjes)·whenfinnssho~ld~e·'required·wraise additional capitaL.
    eV¢n ifthefulli othetwiseupj>.ears to he well capitaliz«!aCPQtdiIig to0SE ptognUn .
    requiiellleols.                                                                          .



    TIle Divisiob ()ftfudibit ami MarketSpmlcilrsWith this r¢p()rifuleriaatio~eVeJIthougfiwe
    heliev¥itisJiasecl ona,futid:lJ;tl1.¢llt~tYfla"Yedl.Uldets1andingofUteSear Steams priiis,
                                                                                            ttt
    15tPtlE!'th¢t¢s~~'\VerMve,a1reatly ql1dE!~n:¢fforts 'tliatrespop.cltQ tJt¢ J&COlnrrtend tp11,

    Actions: iSfuce&atSteat"riS' f'aiture.\\re have:
       jIt Workedwith·theJ3asel Committee on Banking Sl.lpervisionfu amend-capital
            adeqtuwyslatidatdsf'orit'ltematioriaUy.a:et1vesopliist'icated·iIistltutlonstoel:eal
          ex:pi1cit1¥'YV,1th liq1jiw.ty cis}(.
        •  SJ,JPpod&i theWor1<of eB cfAcc0 ItllplementatiOnGroi)lJ f!11"iIict¢lUejital
                                     tll as             rd
          cle.fa1.J1triskcapitlrl,"wbich aitIl~to sllpplem~ltValve-atRigk~b4~ed capital to
          ~tm:>that ''tail riskexpQswes" in fueJr:AAlillgpoo1ca.rti:. adeq1.lately 9apita,~e4.
        .D¢v¢lop¢d @d erttered4ttoa:formmMemo(;,l»dtltl1.«?fU.ld~t~lldirtgWitb.ib¢
            Federal Reserve to improve sharingofinfonnatioll'andprovideamechmrismfor
            cooperationinsupervision ofCSEs,
        •   Jowly with the FederalReserve, discussed with the seniormanagement at each
            CSEflrtililS16rig..tei1l1 fUilditig plans~ iricludfug,plfuiSf6rrilismgriew capital by
            ~~s$iItgthe equity.8:i:ldlOftg~"t¢ttli   debt tll}irke1$.
        • Requited puhlicdiSclosut¢.6fcapiW adequ.il.'Cymeasurescomp'uted l.lridettfte
            &sel Standmit                                        .
    Flawed Assumptiolls and Fitldings:. TMbelievesthattheOIGR'eport'sfmdil1gsare
    futidamerita11yflawed1tl.the fo116wingways:

        • The oltfReport's exclUstvef'oclls Qli c@itailli rriiSplaced,t\.Sexpla.iried in
            (lomm1s$iQIiP1.1blicstatelllelil$ ilJicl1e$1;im,Q~iY~~afS.1¢am$t$faihJ.t¢,wi$d~e 'to a
            fUll ioi)liqljidity;,uQt papltai, 1.h¢pri1J:la,ry r¢'USgntl1~tJ:.\earfaileclwascoIi~e~ l1Y




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                    September 25, 2008
Report No. 446-A
                                                       86
                                                                      APPENDIX VII CONTINUED ..



           ,securedlenders,llIat itwo\ildsuffergreliter losses inthe.fllture.These,'concerns
            caUSed se,clti'e(.{ lenders 10 sfPpproYldilig,tmaricing1 evonOilafUlly-':aectlred,hasis1
           d~spih.~ili~inttQtSlJ9il1P1ianC,\fwith ~1JPlicabl(( het¢apfuil;r¢quii'~ment$.

       .11i~ mG,:R:~p()i1; (1lis.¢<>~festhe naw(¢'():nh~ aas-~LstaiitUu'd.T1l¢ CS:e'tUles;
            it1991;por:a~eby ~f~,n<~ge'Ul~~el Starrdarq,,'tlI~ ~apilala'l1~quAAlY J::eg4n~
           ·,applicable,to interruitiollally"aclive'TIllancial institrilions~includillg,commercial

           ~=~~~~tl;t~::~'ih~Js~~~~;~j~~ee~ .•~~i=g~~&:~~¢f:::lo.
           'Mil in¢qmQl1li¢~ the' lO%I3.aselcapi1~J'a1:i<>Jhre~A()ld' ~ '¢Pll$ti-hlting ~ '~'eU
            capitlilize(C"instifution'coosiS1eniwnh the' threshold. used by'banking.
            supervisors, Falling belowTO%1riggerscertaio obligatiollsOllthe firm, b\d'
           becau~¢ there:jk nocapitatr¢qtllteIJlenti~::n!:it      i'i¢.C'essatllya i'violatlori'.!'




                                                                                               -
       •   The OlCf.R:eportqpestionswhether Bear~.s "c~pitalrequirement"amountswere
           adequat~;:·;b.urthe ~aHssoo>is'whethertheirttema1tona1m.sehtari<'laid;thatlUI
           .lntemati6n~hankirtgJmstitutiomr¢1~'Qii;~!sUffit:1efit.

       ..~~~:-eport'~s ass)'ihiP1ioiiS:fil~ardi~Jevetag¢ bas¢Q,ort 'the fi¢kata~l(;l¢ ate


           .,:   Jhe.~Wl1!Pl~ut()fMr::I5pka.rli.:~Fl~d.~ ~h'l< OrG,a~po,q., is' mappll,c@l¢ It)':tiWi
                 relevllu't;capiiriLand:liqUiditY:reql.iiremerits;af.,Bear's'holdingccompany" ''TIle
                 ~~~tl:~~~~~::~fron::llt:~~~ompany Basel c~pilal                 n standards ana
           .. Mr. ~iq1@'d,~s      ~W®¢ht     d<>¢stlo( a,r;:(:l)i'~,ely t¢'fl.fi:gfue le1:t¢~llijd~p¢t{ltiQn9f'
                 1h~ ~EC'~ CllJTentllet capitalrule:audJ:.~~D,\Jm~()9saIla1yti()ale.t;rOrs'as~
                 result, :Forillstanee~the CSE'broker~dealerswere notsubJecVtoanexplicif
                  12k,lev.~~g¢'StaridatdbeforetheeSE.. atti'¢lidIJlerits.as:iJflplied'~YMt.
                  Pil::~tcl. 1beill'tidle saystlu.ltb:f;Ok.e:r~d~eiS.Wer~,tO:mierlyslJbJect··tpi:l,
                                                             In
                 IeMe~¢ rJlt~Q limit. ()f12xrt¢to.a~ita.l qQIijpJ.¢irtg lnitUinum ri¢t()apit~l,~an~l
                 14is lipli.t Wa~'I:I:lD1()Yed hyUi~uet;capit;lit~qtllr:em~n:t$"app1ilJaQ~e"tp ~~r­
                 delilerstibsidiaries of:'CSEs;, (Thislimit.,is;m)the "aggregate indebtedness'"
                 metho(fforca:!culaiii:'jgbet capital.), R~wevet~ CSE:bt<>'kef:.;d'ealenfwere'not
                 :~:':~~::;~:::~::~:':J~:~~t:Z:~',::~:r~=~
                 b~tm in lhe rul~ since, 1975;,pnder~r.¢quirem~JJ,~~bl"()ker,;,d~le~
                                                                                                        ':
                                                                                                      that ca,rry
                 clJStomer'3.Ccowds maintain mirtirrrum:llet capital equal to no less: than two
                 percefit:of ·'aggte'gate debititenlS"~ notfh:~,~egat¢: li'idebtedn¢ss;st:aiidard'
                 t¢lerretl1P'lty,',Mr. P:ickarj:l.Ulm 'aitertii).tiv~:l1iethi;~lto,¢(}rtlp'lml'the.nwm\lrtl
                 ifetc~~tal:
                 , ""~ '" (~".,                                 , . CSEbr(jket,.de~e~
                                              '.' 'tledh:u all'lhe
                             .' u1teilletlt1S ~P",.·~               , .'               ailll..
                                                                               " '. .' ,     rt1<5St
                                                                                                ",'




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                  September 25, 2008
Report No. 446-A
                                                           87
                                                                                 APPENDIX VII CONTINUED ..


           othel'Jarge broker-dealers. Underthe,"aggregate debit items" method for
           calclltatmgriet,clijlital~,ajji'Qker..dealet's;abHit), tomcre-ase k\.'erage is Iimlt¢d
           th'-:QllglJ·th~ :awlitalII?~l)fha~1l~J9':pt9prj:~fu;ry P.Q~iti!:>l)$t4ih¢ttnll",~mrp~gh
           theapplic:atiQll ofa levemgestan:4VJ1(roll,1jli¢:ag~g~indebtedness'                  '
           standard.                       '                      , ,




      • IIl®illYZin:gBe~~teltrns'~ eff<>rl$~() hl~~as¢its:rela\iver¢lianceort s~9uJ'l;\d
           nuher t1~an~e(:~dfimding.,th~ OIC3'n.ep~rtst'ate~~at tbis 'shift c:atle:4 i~to
           question '\vhlillleI':BearhadenoughcApitaltosustainitsbusiiless model}'
           Thisstlttem¢nfIoeuses oricapitat .... riot IlqUidity, ;.-a~ theprimaryiSsue
           cau..~ing ..~¢at·$CQnftPs~.am.f'l'M beli~v~s}it i$:,t@<.W:m~ntally·irtcqrr~till
           ¢¢'Ilcllidii1gtltiW $~¢ha¢ti),ritYP9'itlts       l(r:in~d¢<l~~: ~p'ital.       4tB¢m'.

      •'   fw:the.r~ tll~:()l.G' R~P91't:~ta~~thll:t ¢yeI1>tJ)ougb.,aelg.l1a<.ljrtc,:eMed i~
           reliance ()n:~ecured fundmg.itwas "unable to.ribtain?!enougbtosave the finn
           ihMarcli Thlsubfuit;s:thatBear-ilc,'er wOlUd:fui,ve;been.abte toobtaUl enougli
           funding becausethe:firm"",.a$ ~xpC'nend~g.a';hirt~Otrtittl·l):ank'by
           CQtll1t¢:rv~i~'thai ~viae;~q\l(edfQnqiit~                                             ,.
      • it, flinl'sdecisioniis
                   ' .." , "' tolliefom:roffbndih
                               ,,,',........ ", .. """ ",,8 is based"OJitrian
                                                                ",,,,,,,, ..,,,,, ..,, , .. ,, Y.' fuctornsucl.l
                                                                                                   " " ,,, " " a'S.,
           1enn!di"ersificatio~ colIateraI.'stability of lender" maintaitiingrelations~ps
           and cost It-was' widely believed that secured.fundmg·was more:smblerand:
           ieliabie:tb'an'utiSecure(1 fuhditig.A1s,o.th'e C:ost:of'Uri~ecured funding
           increased-sUbst.irrtiidl
                ....... " . , y.$Q,     caU fman-caJ}imfittrtionsduriil'
                                                  ~....,'                  aiidaftei·the.
                                                                         g.....
           Surnm~t:,{)t::20W" I~J'h~$~ Qir~~1@~S:,: iH~ un®~l®iJMle:t1l<l;tm,il.nY:
           fmancialeompanies.ihcludingBear. soughtcheapetjrnore :stable-;sourceso'f
           fmaridtlg;lnroughj.¢curMfufiding.. ,A1so,,:ih)po(furit'Was the collapse dfthe
           semlritizattonhusihess,lhe hig&cPstotfliliding WaS.ari.etfePt oftfte:cQHapse
           (If s¢c.Qotj:z:at:lot\ f~.th¢rthan Its ¢ll.use,

      • 'ljIeQRl ~P9I't,incorre9tly,states.,1>ased~,mtl:~yi¢w9finfo.tlua1S'f<Jffnpt~
           and intermlf.memoranda;;.tltat TM: didnot'belieNe ithadantandatefo,COll1pef
           Bear Steams 'to;:rai$eadditional oapitaUfthe fitmrs BaselIIcapiW,ratio was
           . . ~t '.',ii;., ,.,' l' «0)1
           ~....erwan :979.,.


     '.. AscW explainedittuudiltUi{ c-Otfunents the CSEmles e~slv anci'btoadly'
           siat.e:;tliahb'c (J(),mJl1~~tcm~~i~~~~ ,~!ti~li~i' ~tt~m~~$dll~jAet:1h~ "... ,
           1:J~N1eaJe~ot:'U1,~"~lWt~g c{),wpany)ftl,J..e. Co~~~n :rIP4s.'~ftI(:ce~!?~
           and ~ppropriate inthe'pUhlic interestor"fQrlheprd1ectionofinYeslors, See:
           Exdi~g~,A¢t,:i(ul~ 15pa:,le(~)('7). 1,'h¢r,e ~;~ls:() ~p¢:Cific                  condiuoos:ili;..it.
           Woul(:lfti~g¢t,G9n:iJ;lli$sioti,ii~9Il"          :E~ch~)~¢, A¢iRitle l:5~j;.l~(~lH(!)~




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                              September 25, 2008
Report No. 446-A
                                                                    88
                                                                     APPENDIX VII CONTINUED ..


           •    TM h}lS a1waysbe1ieveda,ndwpres~nted.            frQffi tln,~gipningoftheG$E
                program tbatitbadbroad,authorityrehited,to financial-responsibilityto
                rhfuid;{f¢ thatabtfJkeraealeral1dot its Ultirilil1e.holdillg"eoilipatiyraiSecaphlll
                ot8.,ehieve theslfin¢ ¢nd bytedtlci11gthe balanc¢ she¢tasWeillasdite¢t the
               fmn inthe~al¢Qfl!$s¢ts9t        c~st.()meta.(:co1.lnts   l!$ th,eractsa11dcit:ctuW;f~lCeS
                mayw~.ran:t.




   't'M,beliey¢stha,tJt mus,eftiI for the reader to, undei;$1;and cerlMt:tTU11da;tnen1aIfeahltesot:
   theDSE flUes, The CSErulesmcorpofare>byreference the Basel Standar¢tb.e capitm
   adeqluwy.regime"applicable·to intemationallyaetiveifinancial,instituiioos.oih,cluding
   commercial ~~Qrt a globalbaSls'.Th(:Cor.iit'iliSSiOilhas sOllghttoappl)rtmsstandatd
   itl.'a¢ons.eJ:i(,ldiV¢,fi'i~et, JJIJ)m1i9UlarWitb':regwdtQdhll,rges.,fottll¢p~iti()jjsh¢:ld'With .
   1ta(titlgitl~l11:fWhich, are a sig;ll'it1cant~1w'ei()fthrise;hei14 OYei@rkyse~tlfitie.sti®fl.
   Specifically, firms have been:requitedto augmentva1ue~at~riskc1ulrgeg.{V:aR,)~, computed
   ~sitlginternallY-develofed.statisticalnl6dels,,'with~xed·~etcellta~ehaiicuts. Thes,e
   adaitlomU hair<mtsare, in fact. amUltipI6' oftheV'alue;,,;ai..riskcharges,atul,so. are more
   eons~rv~tiy~             .                                                   .
   Because the Commi~sionrecognizedthatthepritrul.ryrisks to;securities·fi.rms 'are 'those
   assQciatedwithfwlclil1g,the CSWpfc'.grafii imposed a liquidity :requ1tementin;additiol1to
   the Basel Standard. It, is hnpottanttonotethittthis requirement, \"lnch"mandatedfj®s
   holdi)ignifiCaiitp()olS()fliq\J.idusse~. iSllOtpadottheBusl;ll Stand-wd..

   Inlh:ewakeofcrises·atBear Stearns, Northern R.ock;. Countrywide" and amunberof
   other mstltiitioris,tlieBasel Cotfuhittee6riBan:ldng SupeNiSii6tt. which developed arid
   ~r01nulgat¢d,th'¢Easlil St1lhdar~,hasii1itiated         anum15et ofptPjeem'1tltetidedto Inodify the
   :Ba$~t$1!;:l.tldar4toJefl'Sct.th,ele~so11s'()fr'Sc~t~v~11ts,'Dv1's'taff'11~S~C/:~yelyeng~g~dit1,
   -tilisef,fOli· atthe bellesto:fQh~inJ:Iat;l~~ TMf)taffcq.;9b~ir QUe Balsel qoIPWit;t~ ~aJ~g
   withlheseissues;andpadicipate in another. ""moh are working to strengthen ina munber
   of areastllecapi'ful ;Staridai-dS.·appIicabfe'to ,mferiiiltionaIly actiVe 1riStitlJt16nsc. The'Basel
   GObunlttee h$~xp@,dedits>Woik. to incllideic()nsideil'~()n()fgt1ida.tl~.andpe~s'
   ~'Wticitst~ld~nJs1,regardj:ngliqllidity.,ris1c,mat14g~m~ntfQrfl1lMci~ it1$titllnqll.s,..Here
   again;TM',staffhas'ooencaetively in\>~olved.S'O \,~hi1e theCommissiotl·staffbelieved that
   capi'taland.1iq~liditysiandardsapplicahleto.CSJJ:s.wereconserY~v~1"elative'~~
   int¢rt1~onal.noftns.p~()rtothee()llapseof,Bear·St~'l.:theY.Join.,.otl1er5~Iatofflin
   rec,ogniziiig 1hatfi.JJ.'thets:tt~ngth¥nil;iglm.t1~Jq)anIDngtl1ese:stan~d$ ·tQ··iru::ludI;lJiqujc:llty
   i$ ®¢¢$sarYil1tb:e,w~oft~~¢nte¥~s,                 ..         .                                 .


   Reoommtlndati0Ii2:
   Tb¢,J)lyislOJ) QfTl'a4!ng mid 'Markets. in 90ns41.ta110ilwithfue l30atd ()fGo\7etn.o1"Softh~
   :federaf:&~serve :~J'St~sh<)1.l1q.~a$s~~s pillar; 2. Qft1l~ aas~l U qatnPWQl'k, ,at;l9 .!h.l;l
   Consolidated Supervised Entity (CSE)progratnguidelin~sregarding liquidity and make
   appropriatechan.ges1tithe CSEprogiful1:s liqUillit}' reql'ureinents. Changes should




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                        September 25, 2008
Report No. 446-A
                                                      89
                                                                  APPENDIX VII CONTINUED ..


   describe assumptions CSEfinnsshould.berequiredlo ·make about availability ofsecured
   lendrnglo umesofstt'ess (tUCll.lditlg secllted lendingfi'OIri the Feoer.al Reserve) aiid
   shouIdspeIl.o~i.t()irClltilstah¢esirt"v'J:iich. dSEfirtilSshol.udbereqlliredlQ increas¢the.ir
   liquidity»eyondlevelsc'llrr~nt1ycoo,tefi1pl~1~a       pyCSB PJ'Ogr::un 1iquidityrequirefi1~lts.

   'ManagetnentRe,sponse(COl1curorJ'{oll~oncurl;


   w~   'c()licllrwitbthe teQ91f1lh€inda.t10ll. 'alia haveelth:etafrea<.1Ytmdert~ehor already
   c:()tnpletedwork1hatresp\){ldsi9ihi:<te90mmendatioll.



        •    \V6rkedWit1l;the:Bas¢1 eoirimitte¢6n BaiiKirig SupetyisiOnlQlmPlemerlttbe
             dhaitm®'scallfQ!" aD:1¢n.dedca:pt'talade,qu.apysf®d4rds for internat1():t:\a11y actiYe
            .sophisticatedin,stitufi9U$ toCleal.. El~li6it1y with·.·Iiqqidity'.dsk

        •   Join,tly with,t1leFedel"~Reserve~ i:<l:daplislJedl;l(?W,S1rell:;sC:i:<nl!ti9s a$ab~ilvfor
            sizirtgliquiditypoolrequiremellts based onthe respollseto shorterLmoreextreme
            ¢'1intseilmilili~ asiJ8stlttItiattoosofs¢¢twedfitftditlg1mOre SCY¢t¢ I1qttldity
            OQtil0,vsfiQmptinfebtg).<etage activities 311<lliqttidit}'dtain$:<lttetO operatious
            frictJ()~'s1);(:h "l:\~ ill <l~v~iYes$,¢ttlElm~t$ ,®dti.fi1ing ~QlllJ,i<lera1iotj~tel$d'to
            marginpostings.

        •   Jo~t1y ~iththeFe~:r~~ese:ve,~trengtheJ1e~th~ liquidityreq~li~ments for CSE
            fl.tl1J.srelative to their unsecur¢d.fUndirt~ needs,;'andcloselY'scitltirtiiedihe
            StW~ut¢d.furtdihg~¢tiviti¢sofeachQSEfitm~witha vieW1O·J¢1l~ehingJhe.
            avemge:dwatim:Iand b1"9~a~uiJ1~:thediyersity Qf~l1 fi.lU-gi11g ~g¢Ui¢1ltS"
   like I.tecOD.1lIlenwmOUl.I{e99fi1fi1en4a:tiQu 2istl'lllc4unellta(ly f1awed.~ itlJ~e4 011 the
   same analysis. In additioll~aswe informed·the<OIG in.our informal comments. the
   arimysisis'iiiacCtIi"8t¢iftth:e fQU<hving:Ways:
        • 1l1e0IGR.eport's sUlwinetit thattheCSEPttigt:amllquiditygijidtiHnes;Wete
          inadequmelJec~wsf; the tJn)e.horiz9t1foCQ,Ji<jJ.idit.ycrisis JQurtfold. is likely to. be
          less tlilU11lle'oll~~Ye'at; peri()q•. atl4~e9uredlenqi,ttg fac:ilitiesarenot automafi9~ly
            availableirt times ofstress, presupposes thafthe loss, ofall securedfundirtg was
            reason~blyptedlcfubje; 'It als6,ignoIes thedifficu'lty ofprovldilig.adeqiiate
            .11quidlt.yf'orthis ev~t                                                 .

        :. 'f:h,1 h~smted¢t¢4r1y1hat its l1qm,(iitypo()lreqlli:teme,um. Jj1d.~1hOs¢of91ll¢t
             int~ll1ati()lJ.<l1 aWl OQInef3'ti9 regulators·oontemplatittg·si.milar i~s\jles. didh()t
             anticipate a complete uuviillingnessoflende:rsto provide tinancfugon quality
             assetW(suchas Treasuries of agel'iby secUriti&s).Th1sw6uld ltlcIU:oo the
            .av:3illtpilityolcQll'lfi1itted s¢c\lr~dJertdirt~.faci1ities ...




                                                          5




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                        90
                                                                     APPENDIX VII CONTINUED ..


      .:Fr(>nl'th~~tandpQint'ofUIJ.Secur~4(Wlding;applying-a'olleyearJiqJ.li~#y
           'req\llremeri'tto n~place unsecured funding wasjtselfa logicalapproach.,The

           '~~::~t~~~g:g¢:e~:::~:::~il~::~~~~:~:~:~;:::I~~:~~~~~~:S
             ~y Ofi~ t():~~lli.l,~Je:n4ing,tb.efift1l·WQ~d-:haye:,ltJiqllid.ityp()o.~izedl()\lll()wif
           ()fi
           wreplaQ~ tlle Wl,~!<c~d funding ~:~t m~tw:~d:~ver a. olle-ye<,rrPet:iQd,
      •    'Th:e~iO~day
                                                                     focused 6rii\ri ofe
                        cash'flow aruilysiSisa,diff'ereJitmemc thatprovides1he fii:nunofuer
           p,et~pective. misi(short4.erm~as1iflo,,'\analS's1S                  aCilte:e'\(cJit.
      • ,Also., gtYeh 'tbat,:US.{1rid irilematiQiiaj cr¢ditm~k¢tS;1iliy¢:6eeiLttI ,cnstSc{Qr'Qyer a
           'ye'ar~1h¢ o~¢~~~¢'8,t'11liSectitedfu.ndin:~1iq~dity:pQQl,r¢qti,itelnent,.temains:'rele.V~ht.

      .,   'Ibe()iq;l~~VQrl;$sugge$t$ that T:M statfshoj;ddlia;vete¢o~t.U;.::¢dth~t
           tern1itl~fi()n~"qfa~ar~s: cQIl11l)it:te4 ~ec~:eyex:green faoilitie~ 'Wet:e,a,pr~di~()r()f
           a;\'ntn;;;on~ihe-bank~' However~ during.200Tavailability oflonger-termseoured
           ,,'fun-amg'1t1cluoirig;eVe'rgreel1 flfuilfties,Was decIkirtgfof.'riloSf,111vestfuerit'bliriks•.
           ::~~~:~:~:.,~~l~~a;,~~:~:~~o~~~~:~':~;~~as~~~:e,~~;.'a
           UJ:l<f~t9Q~t~"~,e1if~1~byn{stalt:                                ,.

       •   The OlGRepores statement thatOIG: sfaffcouldnot detennine"vhether'TM,staff

           ~~~~;:~~:~o::~,;;b:~~~:;~~ln~::~::~i~~rigI~~r~~::le$t
           A~gttJ;t 2oo1tM.s'Wt pei'iodicany:t¢Cei~ed ilifo@a'fron:'(inthe 'aVailability            or
           ;~tic~it~d ~ver~~ll faciliti~:WFiie;~:lQ'C()m,~1trye.ntoty ~y~~~'repm:~ c,op1pileo
           'by Bear Stearns. Also, TlvtstaffeJl:plainedthatifrrweekly and daily discussions
            WitllcBeat'S flxetUllcome funding deskaillf'wlili"the Tieasursfnianag~d:~ Belir
           mt()nn.~d tM ,staffbif'~fgltifi¢;antlO$$es Qfsu'Cit eyergteettfaCilirles.



   Reconmlenda:tioll'3:
   tltebi~si.Qii   rifTradlffg arid 1\4litket5should ensure' that itadeq:ilatelyincorpora'tes a
   fml):'s¢9i\¢¢lltt:8tlQ'ti l;)tS¢¢ii(ftles'infQthe c.Qi'iS9Hda@$i1peii4s:etlEiitlty (GS~
                                                                                 trtwt@r
   :et()~a{ri.~s~~$~'S$ll):eQt (:)fi~4il'fil,'~ riSK @U1<t$ellJ:e'Q:t~Y$t~J:1\S{e,$;, t()Qft91~,
   ll1odels;ek)and~more'aggressivelypromp1iCSE finnsto take appropriate actions to
   mitigate suclirisks;·



   Weconcufwith,the recommendation, and eiiheralready hadinptace processes, or:have
   slnce:tiiidertakene.ff<>iitSthatte8pOJidto the ieCOriimeJidatibri.
       •,TheCKE: Pt'QgratDmcoifiQrcitesJi.ftassessm¢nfof afri'jii's c9i1centratio-li'o(
          :se®t1tiesi Jnt<> the fitm'.sriSk'iiiaifa;gement ptoc:¢sse-s and S~$t¢m:$.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                            September 25, 2008
Report No, 446-A
                                                          91
                                                                        APPENDIX VII CONTINUED ..


        '.     'ni~ staffhm'~:inth~;:p~tinstruct~!J CSEs 1<Yre<:41ce,Outsize(Jy ~l' cQIlcpmrated
               exposures ,related to lendingt() specific sovereigns~,parliclllar instruments on'isk
               factors.
    lt9w:~vet""th'e,l"e'C()ll1nlen~ti9I)'IllisllPpr~h'ends,··the   rt)(e,~fthe q.oll1n1i.~sio(),   lt1.'oversl:l,liing:
    GSEs~                                       ".

        • ' The OIG;R:eport~:s cOllclusiona:tbaseis'atl;lildictl11ent'll{)t-ofthe;QS}3program:~s
            assessmeritofrisK ritana:g¢t1iehtsystefuS~;bj)t of Bear's:tllJJ:daritehtalb'ilSu'iess
               sffitt~gy.


        'ill   Anh,e tlm¢pfB'ear's C8Eilppt<)"valandth:¢tea1l.et; 'It\\i'a8 ~pa:te:ntt<)the
               Cqmmission and ()$'E)~t~ll$well<l.$ tq:ae~;$,e,qwty ~tl dehti~we~t()rsM4the
               market;thafHear steams business sfrategywasrocused on US~basedfixed
               income generally:andmortgages inparticular.




        ·.th¢ ¢qhiijii$$iQn~$tesponsibi1ityWasn9ttQ djctate~:bU$it1¢ss~$JJ:;~gt~l> tp13¢M
                ~te.arp$, Rattrer; 'it\v~ t():~viewwl1etb:~tbeexp(>,sQI'e~ t~rtoIll:>yJ3earS~~!>
               'were;properly controlled and measured.The'fOcl1s~ofCommission.s:taff:oJlBearrs'

               ';::;:::~~~e~~~;::;=~~at~:~*~~~=~~~~:~:=~otred
        •                                                                                     n:
               rQ~ms~1Itli:g¢lhis.:~~liijD,~i\l16ty; ¢9@hi$~iQ~isWt:m9tlit9t¢,d'~e. Sk'Pt9file'n[
               1h~t1n.nin.th~~gat~an(l <ittlI~; desk lev~111sit1g             avaJiety:o! Dleit'i~, and
               discussedwith thelmn~sfude.pendllnt risk111all:ag~mentinslances 'where linlifS'
               were exceede<l. Th:ese'eJl."POsitreS\'~fete;reported both to Beaf's senior l.ntsli1e~S
               HeadS as well aSlofue ExeCirtiv¢,'Conttnit!¢e re'giiiatly.

    ReCODilii:eDdatlctri.4:
    The JJi'VlsionQ(Trailiqg arid Mad¢e~~:m            cQriSuitatio~:~;lth'tbe ~;rl'doN~9\iemorsiPttlie

    ;=~~¢~~:yS~~=;i~~~::~=::t:d::~i~::',:~~:~~::~~~~~r;i.
    and under wfuit circwnstance~~to impose leverage ,tat,i~ limitson,the'CSEs.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                    September 25, 2008
Report No. 446-A
                                                             92
                                                                          APPENDIX VII CONTINUED ..



       ManagemellfResponse(COllcur orN"oD-<Oncur):

       (3iveitjhe,tlutrerrtPUJ:iliC: (jis®S$iQil5: ri~out1he'~nilityo(le\'er~e: ratiQ::! fOt s'"qUritie~:
       ndt:fS; W§:l cOiic:ur~ithth~ reg()-!11i~~i)"d~tiotl Mld pelieveit:i$iJ:i'lportaiiteto: \iadr:~ss tJ~s;
       issue with fellow regulators;; 'The Recolmnendation, llowever,"rniriimizes the problems
       with:lilip6sirig.iitlii.tstlltoi~gh..leverage ratiOs.

           ,.Fiilmil':ialiriSt1tu:ti6iis, lU'¢.. by1he1f
                                                  .
                                                         vetyhattiiie)highlyleveragedbtisiifesses.
                                                                      - .  .



           .TheCfu'iUft~si(fjlhas h6tsoUghtl6'1fu[ipse eX'PliCitlev¢!,age,iimit8oiiCSE
               holdirtg';ComparuesfOtsevend @lS()tfs.J;'it$t'@~l~ts            cafie.asi1~~ 'aSse.ssJ,¢yerage.
               fr01)lplJplj,(rfmancial itl'tl)rm~i<>n; $ec~md; a ll(jv/;lrage niti~jsa,"Qrude.;~l\Sure.;;
               and implicitly assumes that.every dOllar of balance sheetinvolveslhe same risk,
               wnetherdiie fuatrefuiury bofu1or anernergirig.marJret equity;. Fllrthei, leverag¢
               te.s1Sd91iot;a.~ all c+\ptllt~ the~p:ot¢htia.ie~()sllteS:'ot~detiva.tiYe pr<Xl®ts:tIiat
               :~@!i~;olrp.i4~~~ she~;,:F~l1)~:~I_e,y~ge'limit,:~re~~~ 'a,p;in:c~riti.veJi#~ 19'
               ~JIlOv~ pxpQsures,ofrbal~nce'.S1t~:et, tl]f()ugll i~tru,m~ts:l'lU1ging.fri:lmover·the~
               counterderivatives:lothe SIV'structuresthatproved highly"problematicfor,oilier
               :fmancialIiisrltutions (IiQfliiV¢'st:rfreiit blUi.k<i) In.tJieiastyeat. .

           • WillIe it lWetage iiniitmay be effectlve:for.ari~i1istitmiQniliat               dQ¢s't1dt deal ill,
               'd¢rlvativ-e:'':'odtlC1S. hight'com "lex instiMiohs;oaneasil". :evt¢,e: an levera 'e
               Jkit~p,q~Qfl~ir·WjtlJ:~~~l@~(r~On~~q~len~Pfkc~~ing~:ec:f1f1l1~S
               exposure'to complex;instrmnenfs.

       i,ie¢qnun;enda:tf(i).$:
       'tlieD,iyision '('if :twJi:ng atX4 Ntaike~'(l'M)'*91,@ e:n~llte:tlul,f: (1) th¢ cOl1s\?liMte<l,
       S\lp~med Entity l(,1$fj)fiMs.have $peQifiq prj~er:i<J;f<>l' ~viewihganCJ appro"~J,lgt:llpdel$'
       usedfor:pricing,an&riSk management;I2),thereview and approYlllprocess conducted by

       =~~=:~=:~:t~::\~~;:j::n:==:~;;oo~::~=:~~~:n:~~~h
       M.d ,iji))~ly m:alm~t;;~,(4)~PQSe,~l1its~nx:i$)cW9tlg                  ~y !irmsttt,l@:ilS where TJ'v:f' '.
       detennines-1lllitriskmanagetnent.is notadequate;                   "



       'J.'N[¢l)~cpl'$c·with'fu~ gollls ()fN~Q11jJ,l1¢n4atism,$; @4't11~ ¢$~p.t:t}mm; d()e8:¢~s~ tlta.l
       these stfu1dards'MesaUsned.                                           '   .

           "'However.. ilie OlG'Report doesi,not recogniZeThe'Pfogresscachieved1hrough'the,
              i'eYie:\ov prQi:!¢ss. 'While theaio:R6porl cQrreetly-Ji6testhatthe staffrafsed"
               'conceroswithEearStelttns ~glilitihgits cover~g¢ ~aild,staffiijgijfifS'MQdel
               ~eview:Ft:mcti~n;jhElQIG :RepQif,;~$ n,ptrefl~!<i t),le rell!#tihg !iu,Q!i!;lq~t
                progress. Iilfac't;:the.:finn didrespond'io staff concerns, 'and 'created,and
               implementedaclion plans to address them.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                    September 25, 2008
Report No. 446-A
                                                            93
                                                                  APPENDIX VII CONTINUED ..



         •• .F()r e2(ampll;1.~n SeptemDer 290(5 ,B~<lrWt:~cl twgpi;lcliplrted ffi()delcoIlholf)tWf·
             personsforMBSandcaShprodllcts and Three completed model reviews were
            l,res:ciited at this time. The MBS alld CasliilWelil,Qry models WereieViewed
             betWeepseptem'b¢!.20Q6 and r>ecell'thet 200t.

         .Witli resI5¢qftQ thetisKtllti1ril.:\S th~tth¢nrfl1w~edinmMag,ing             its lIl~r}(ehri:'lk;t()
             m<>t1g~gepr()d~ts.lh~oJGRep<>rt q<>11t~             key ()tnig!;i()11$.;~t1({41®rreC!
             conClusions.

         •   The fmnJnfacf made significantprogress inimprovin,g>itsVaRinftastructure
             subSeqtlenttQ:c~r>tQ\ra1hitespoiise toCbmmissioo'StaffCQhceriis.. Fore*ample~<
             lhelltm toilowedthtojjgh on r¢'coirttn¢lidati<5l1s1<5eMancecoiittoloYer theV~
             system,I1l.pUisto Va:Rm()~¢l$w~ fegW~lyy;pd~teclf61l()wit~g~ppnc@i<>t1
             approval .                                                                       .

         •    Sincethe.beginriing ofthe: SEC o'versightofBearasaOSE. Bear regularly
              ifupl'Oved.ai1d,-eJij)anded its:,diltli's6Uices. Tii some':iriStiili.OOs v\rliei? damsourOOs
              Were H~'t1he in$trl.linents",reretrtllnat~u1atF()i~xatl)#i~.riiort~age·
             .deriv;ltiyes, which~:El@4jstin.cttti;)m QD~ and~$ CPR posf4ot)!;. w~r#,c@
              inlmllterilij I;1xp()sw~with,oIlly (Je:mi Qimi!;imp..9f ()nl3y~'~ prdfit~!llo~:>.

         •   The OIGreport: assutnptionsand conclusionregardillg13eai"s model review

              2006  and                                                 tn
              stail'itlgiareiliaCCUrilfu. Specificall¥.\\'l1ile.certail1 Qdel r¢Viewers .letl Bear.in
                           thehe~d()ttnodelv~idationre$i~ecl in early 2007,           Thi••
                                                                                      ·.SWfdiscllSsed
             .s'tlUfJilgatid:th~m9del vgfrqationpr,ocesswithifutl head of13¢{li's M~,del Rf;'J;1~w
              C<»:nrni~ee; 11lem()qelcOlltrol fUt)ctiOll for m()J,igJtgtlSw~ :>hffte4JotheprodIJcJ
              line riskmanagers while anew ,Head,· of Model'Validation;washiredin Sept,2007~
             .MOdMc6ritrolwocko't11fioit&ages ,vas unaffected duffllg the interim periOd.

     ke~"lQl:enda:timf6:
     The Divisi(.)fi of T1'a~J1g Md Ml»'kcl$sh'Ould llel11~res}(eptic~()fCoJl,solid~ed
     Supervised Entity firms risk models and work withregulatetlfirmsclo help them develop
     additiooa1 stress scefuU'ios that tiia¥.ormay iibthaWnolhavebeencfuit¢)hplmed as:part'
     ofthe Pttidei1tWt¢gul~li()tfpr()¢esS.


     TIV[COiicltts:t1iat s~ptlcis·tiiisWa1Ta1ited,vhen revie\·trng fJiintiSkmQclels.hut Wt)'
     b,¢li¢;vethAtae¢9tl1D:l.eiiqatiQi16is' has¢q'()nitX99iripl¢'f¢ infOrrii~(jfi.

         •   ~arSt¢~$' us¢ ()r$~ellarj()~wysis wt.lS~()llsisj~ll,t withiJ:laM$p:yp~~ti¢e's:
             vi$lallyth¢ ~nijreb~nJ.cipgI)eeto.t: fltiJedto ~tiqipm:~ the l11agt:1i1;ud~      anel. scope of
             the housing decline that is still.ongoing.                                            -

         • TN! staff did in faetcliscussl'epeatedly'\\,ithBeilttiskofttcers the ·firm"sAlt-A
           ~dopti()t1.A.RMS ppsit.OfiS•.• ihil4d1ti<mJo<sQllptime.




SEC's Oversight of Bear Stearns arid Related Entities: The CSE Program                            September 25, 2008
Report No. 446-A
                                                        94
                                                                    APPENDIX VII CONTINUED ..



        •   Therefore"theOIGreport conclusio11S;which are based 011 the OIG ea'Fert's
            review Ofitilemal TMmelnorahdiltliatdid riotriientlon fonvaid4obkiligrisk
            ·scellaii()s,s~h i\Sa,¢(')mplete,:tneltd()wn,of'mQrtgage'matketliqui<lit;y,ate'based
            ()l,1 incPll1plete.iilf()t'ln.a#®;



    Recommeridati0ri:7:
    i'he Diyisipn of''tl''8.ding and Markets {l'Nt)sh:ouldbe inv()IVeillitt'ortrtutatirtgactkni
    PW)$ for ava,rjety<>h~$~Qr      di~~t~$~~1a.rig$,evel1itthepl~.~.huPt'l11al,itlclqdjn~
    plans for everystressscellariolhat1he Consolidated SupervisedEntity{CSE)finns use ill
    riskmanagemen.tj;- as well as plans for scenariosthat'Thil believes might happen bllt are
    b()t.iri~()tP()tatedi.fit() CSEflfuis'riSk management.

    ~nn~~mJlfitR¢spO:ll,!ie(f]OJl,rtir()l'Thf()n.-(:C)n:¢ur):

    We c6riCllr' With the rec6iiimeridatioi\ bUtbelieveiliat It reflects\vliatTM arid Bear.had.
    :a1t¢ad¥'1¢comtiHslied..
        • C@*r.ary toth~ OlGItep()rt.~t.at,emen.t$i6e.ar             4idi;l1I3Ql'por~~jl1toi~$J'i$k
            scenarios'thoserisks.discnsseclin meeting-swi'th TMstaff~snchasahousinW'
            'l¢q l'¢t¢s.£;ion,~efi;:trio.

    RecQmmeudition8:
    Tn¢DiVisioo OfTriid1rrg and NlaJ'l(eti>sli6uldtakesteps toensuretllatriiaJ'l( disputes di:)
    fi9tP~Vide·'~1.oCcas.ioh fot OOfi!ioli4ate<t S,upetYiseq•• Efitliyfi@sf9 ill.f1atefh~:¢oIiI1Jit.1.¢l1
    c~pit~oft,v.q (mus py~singJnconsi~lltmarks.                        ..



    W¢coD.¢).tr Witllfhe t~coilfirt~ficla.t1ofias'Wtitte~6Mf'We 6~lieVe itrtff.lectsa,
    ]lli~~I)CleJ:S1:an4illg ofthe marking prQcess and14~ o'Versig1lfcapabiliti~sqf:wpery~qrs.




        -fM @imo\vledgescertairi, persistent miti'k.di~pl.rtes1iidiCa:te •.iliiq~iid asse(:Karid.
          ya1l~()nissue~ jhatTM sboq}ct inquire ifito.:fIow~'V¢r.ifil;ldiat.itlgifiostoJ:atlof
          an)' in,diyidl,alftrnl's di$a~~l;ln1s o:vermw:ks:~lc(qSS all i~ qomdel'Parti~s i$:nqt
            feasible, A:dditionally~ many of the disputed margin ca11srelated toproducts,guch
            as cus!orilizedstftilitUied ci'edifde~Vativeswhete pilceldthsparencyis an iSsue
            jiild·vatUlti()il.S iij1'ilMksIS concetvl.tt5I¢;

        '.·:i'h¢6IG.~p()ttdQesil()tptOYide::theptop¢ic6titext,vheli            discusslngc~li      $100
            :nlitliQI1]n.a,rk4isp,ui¢~]3ear   hail wittlc()lU1terpar#¢$.a:e~rl1~dnt~tMtl        25,000
            ttades'Yith1PM.an~~givetlthel1ature . ofthe'count~rparty,ahig~ty~rated              financial
            iilstitution;" the capital Impactulider Basel II wouldbedeiiiitlimis,


                                                               10




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                          95
                                                                          APPENDIX VII CONTINUED ..



           •   Therefofe t TIvIhelieves thatthe OIGrepori assumptiOn that-finnsare
               conahorati~glo create c~pltal \vas:ri6t propetlystibStllhtiated.

           -lii-e OlGreppt't'c'onfbjilic!s hiatkilig vetsus::pric¢ ?;ietifi¢atiailpro¢ess¢s;'id
               ih'V~$tmeJjt baliks~   and d9~s,Mt ¢9tisil:1:¢.raJltli¢inf(jiti1afipnPrOvidedtp'OI(Jby
               TNt ~,&~it1$. pti~'verifi:~ti:onWP'c.e§$~s~                             .

      BaCkW<:iifud,,6ii rndustty Practice'; .

      first, w¢: sllotild P.piIlfouttJi~ijjargiri di$p~¢es at¢ iltiav i;)iclabl¢ipat1.1i;)\.daily·\.vheiiiiulrJ.@s
      bepgroe te~sJiqJ;~~ at: illiq~i& 1'hi~J13 :anis,sue'thllf' all q~"le~~' fa9ilrgjoQay aQ:i$ tlle
      to1a1.:disputedmimbers atBearsteams.·were·much smaller than at other·institutions,.

      Wit·lit.¢specttoth¢ OfGr:eportasSem(Yll ab(jirt,:osii~guadets' hilltks:t~tP.torrt\afi(f loss, 'it
      is UrtivefSat.iAdl~'t!Y Pt~cii¢~(@la¢lldofSedb:yvaripu~4¢$¢ripti()ns'ofbe.~t·:Pt@ij.¢¢~'!l\rch
      a.sthe omt!P;():(~Q)f()rtJ:adersto lll!U'lcfipn hlVe~t()J"y for pt1tp()~S ()fboql,ci~qrecor.&>.
      It isthen>that anincJependenlcofitrolgrollp has;:theroleofvalidating;orsubstimtiating'
       '.'hose
      t.
           ."'. ..,  :.!~- .~' .•.' ·
                  marMi               "d'.. ··"···,· :;1'.·,·t.....•.. ' :;;;::t; "".,. ,.
                          VlaJUlln ~en9enpnceveu c~lonvrocess.
                                                                 v,   ,   ,. "                                 ..




      ReCODlDlelldation9::
      Th¢:biYisloh attFadlng and Nfarkets,sill)ul<i eri'Co'ufug¢theCQiis~:>11(Jate4               Superv1~¢d

      ~~Y~.·~;~:~~:t~i&~~~:t~~;1r:;r9.~:th~fJ::::b~i::::;:~:~~er,
      allows riSkTa<itors;to be applied consistentlyto;jndividua1;desKs,                      .

      1\'laiiag~ment.ReSp6ii:seXC6umj;':ot;No:n-toncur):




           •    The ()IG.ex:perLsupportsthis·conclusi011~Y'·notingthatBear·stradingydesKs
               e\.ii.t'itated·pro:flts iirid risks ittdividually and SO;8ssl1l'nes Va;Rw3.s oiiot'iinpie.nerited
               fmnwide.

           ···:~::::4e~::;;·~~~~9C~~~~~~=~~:~~g.~~~V~
               :howe.ver; was .iinplemetited;f'irm~wlde.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                 September 25, 2008
Report No. 446-A
                                                           96
                                                                  APPENDIX VII CONTINUED ..


  ReoommeudatiOJl'10:
  The Div.isioo. 6f'l'ra&.ng and :h4arkemshould ensiltethat the Coo.solldatedSupetvised
  E1It:itYlakeap.Pt()pd~''Ya1J.JatioIl <ieducuoU$ for illiquid, hatd,~w-VaJ.t~e;$l,setwatld
  appt9pria~ .(l.apit~4.~411cti,on!l· •.ror.~~sed.·repQs, .e"sp~cially·~~~se4'r~pps·'·"yh~:re ill~qlli4
  s~curities   are postedas"collateraL               .



  WCOJl9tlJ:s,vfithth'? reconunendatioJl andeijhera~adY            hadjnpl~<;e prQ<;i:l~ses~   OrJ1ave
  since undertaken efforls thatrespondfo the recommendation. However,webelievethe
  fttiditigS l.liidetlyii~ Rec6t'funeridilu6tl 10 ~." uns'4pported;

  TI1e:reppd·,assert$::PM sh9UldhaYe¢QIl$itJe:redel\'paildingthe list QI:asseis 'thai:re<tttlte(il
  full dedllctJ.()Jlfto.Wcapit:at. FJ:Qwever. theR.et>ortdid not.presenle\>jd.e!lce~ rM di4
  notfollowBaselmordid.nof applysufficientlyconservativecapitaL'freatmentinlightof
  the. relative illiqiiidltyofassets. The fu:iMysisfu suppoifthiSi.assettioiilsfucofu,plete of
  withQut basiS.

  As em1ained ininfonnal commentsto.the;()IG. TM:appliedBaselUcoll'ecllyanddid
  employ conservative capital treatmenhvhere appropriate.

      •   Specifloal1)f,withfespecttoilI1quid assets, Basel Udoes notreqlllrefull
          <lEl<lncu9i19:f'ltit>$t illiq(lid a$~#$,th:l11yo±':Whic~attr.a'Cl¢api1~t:¢ht)tgesof$%;
          1:r\1 pjd.t~gujr¢ ~dl@p1,l¢fiprt:f:Qf¢¢rt:ajn iUig'Uid ~s¢'tS,)~~lchJ~:mpl'tgage
          .resio1:m1.s..                                      .

      •   Forassetsheldinthe'tradiilgbook,:Beartooksignificantmark.;do\\'11sin
          rilQrtgage-relatedassets whi6hfesl)1tedin atedl.1ctioft ,of Tier leapital, aSlt
          sholiid.
      • With tespecfW 1h.ertWottisclescnt>tion of'J3¢ar'sloarttQthe j3sAM: HighG1'ade
          hed'ge.fl1Ud,~s   J:M expl~:ne"4i.njnf,o:®al 'P9tm~ents,tliEll()4t:l'W4s
          overcollaternlized,andBasel U did notrequire Bear toreduceitscapitalby the
          fullamounfoftheloan.

      •   Spedflcally,'I'M e}.'Plaiftedtotl1e:OIGthalBearptoVidedtherij>la.ceinent
          SEl¢'llt¢dfUnditlg:t.O,:a$.A~tfilh<ls ~ C'ufi:'etltmadcs, thilt.is netp:t;Wtite-do~ •. ;md
          'Wjth,1@ir~l~fs.~art()()li.;capital ¢hargesf()ftlWteS:ultmg's~¢l1t¢4¢1q'lo$ptes~'
          fare:x~e;;:de4 ~s¢lll teqtJireJ:1i~nl$. a.ndeff~ctiyelYt:re.at~p· the plj:)i:ti()n~~ ifthe~e
          :hadbeenheld on Bear Steams' baIance shee't.

      • ':Whenllie BSA1Vff'Uftds railedt6fuake ~iheallsir.bJl.lly,'theassetsWereirideoo
          taken ontO &atStea'ttl$' h6pkit




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                          September 25, 2008
Report No. 446-A
                                                         97
                                                                      APPENDIX VII CONTINUED ..



      Reoommcildatim:ll1~
      theDMsi91l.()fTr~dillgand Matke1:S(TM), i1iQ()ll.smiauo.riWiththe ChaltfiJ.!;\Il.'s()ffi¢¢.
      ~tiOlll<llli$P!1~StjS~101~rMce wi'ti:ttbeBo.ar<l ot'J>ireet9rs Mel sell.i~.. mNll1.g!'lme,t1t,oI'e~ch:
      ConsolidatedSupeniised EniliY,(CSE)fimlID befterundersfandwhethertheactions of'
      CSKfifui staffaiecOf1SistciilWith the desires Qfthe BOardOIDirect6rs'aridseluof
      Il'l.anagell'l.ell.t, "Th1sirifQrtl)iitIoll.'WQUldehable Thllo'bet:tei'assessth¢eff'e¢t;iveMssQfth¢
      fmlls'risk:tharutgetll(:mt s:y:s'Ulms.

      ManagementResponse(ConcnrorNoncconcur):

      t].i~()Il.¢UtSwfththls~c()Il.iIl.:iell.datiQniUld we have alteadyhadill.pJ~'PrOcesses.:or
      hwesi:li¢¢'Utid9!'biketl¢ff'Qrts.1.hlitt¢spoild'to the tec9IrtIrtendauo.ri.   '        ,

          • tM acla,lQ~v:ledS~i1mtSE.C$eUi 9r offiC'i~ls$h()ut((~lga:getheC$E.,pOard$o.I
              'directors periodically to review riskmanagement"jssues <and,assessr1sktolerance'
              ,oidiscuss paiticmfu> issues.


      :R~~mmen41lt1~J2:
      The Division ofTrading and Mal'k.efirsholildrequirecompliance with thee>.1stingrule
      thatreql.lites eXternal aUditorsfo retileWthe CotlSolidated SuperVised EntitY:11.rmS·riSk:
      maii:agenwnt,coitttolsystems>otseelC¢6iiiJjjisstonal'ptovaIiIf.a,ccptdaiiCeWith the
      AdttlltdsmtlY9 p.t,oc¢dtJt¢s A¢tl IQdhis de"i,tiatiQfi:fffill.:ltheC~.rii tUle~steqQjteln¢nt
      ManagemenfResponse.(Concnr'·orNoncconcur):

      TM,:Wid¢tstlltldsilie.f.¢c()tnmelidatioll.:••,~a'·Willpt$e1ittothE\,,¢o.lrtrtliSSiOfi"Whetllet'lo
      ~ql1it:e POttlpU@:cewiththe e¥iis~m:gmle Ottopt9p!.n:e:ruleatfieU<lt1l'e1'ilsthatWQWd.
      penl1J1tl;le itIten.1a1allditor to #()rmthisreview,

      HQ\lievet.webeHevethaHlie firidlng is lheom¢t. We tmsedthe'fo!foWirig isstn;ls ,vith
      ~sp¢ct tothiSfifidi:hg:'Md.recon.ifil~d;rti6tl:

          -rM has.specifi¢allth9tityio iSStlee~efillm®sfr(jm:the:rt¢t ¢apital t~i1¢or\vbich
              15c3-1gis all!lPPet1~x;S~~ 17 GFR 2(1(),30-3(a)(7)(ii). 1'h:!' :flwetiQns' ofthe
              Director;ofTrading and MaIke!s mcluderesponding iono"action requests from
              CSEs. See lTCFR20Q,19fu

          -'I'M sttQi1g1Ydls~gt¢¢s\Ylthtli¢ statemehtthattheteare·seriousQ.~ti011SabQtit
              the, ),riScJOrtl(j£i(sd¢ci~i(j.ri; ,'IheRule pennitl.!the ex(:emaI ~cliUQbe lla$¢d.®

      1·TheAdtniriislrative,ProceduresAcf(5:tf.S.C.§500eL'M.q,,)sets forththebasieprocedural.requirert'lellts,
       foragetroy<rulemaking. It~enerally',requires(1}publicationofanoficeofprQJ?0sednilemakit1ginthe
      Fede.ratR(.!gist(.!r,C2)9PPommityforP\:lblicl~cipationinnl1<llllakingbYS\11JnlisSionQfwrittm
      cOri1ri.1~,!"lnd(3)P9bnc~i@s.rltf.ihalnl1~!Bi4wOri1panyiligstiiterneiit of1Ja,;ii>:wJ:dpJJJixtSe not,le$:i
      @i:l..:3fJ ~:ysb¢ft>~t@!UWseffectiye(J~.                   ' , ,                            '

                                                                 13




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                 September 25, 2008
Report No. 446-A
                                                            98
                                                                    APPENDIX VII CONTINUED ..



           '~agreedup0tlprooedllfes"behveen'thefinnaIlditse~rna1auditor..
                                                                        i\ftermuch
           negotiation bet\veentlleDivisionofTradfugand Markets,theCSEs andlhe
           ex:t¢lllalauditofS.th¢ ¢;xt.erna1®dittlrsW(jl.lldfiot,agr.e¢to ~rfornLtllon::tban a
           "ch¢cteth:eJx>x"revi¢vv ofth~:risk 1naltag~t11¢fitp011ttolsyStet:fis for lear ()f
           liability, .111us, itwas apparentthatthe "agreeduponprocedures"wotildbe of
           ininitnaLbenefit

       • Iri.coritriis't, TM beIieved that a Substantive re'Viewofproce'diiies byiritetJlal audit,
            which in¢llliled.a.detertnifiati6tlJ)fWhethetthe.pf<>cedUfesused·l)y1h~.·finn        were
            s:utli;cien.tfQrtheJlllrp()Sesjllt~l(fe9,. Woutd'be a fl10~ e:ffeetiv¢Cl1ePk:ol1j:be·
            firms' riskmanagementprocess. As a resUlt, theintemal audits undertaken Qythe
            finn were greater in soope and substance than wouldhavebeen.petfonnedby 'the
           ·¢xtetful1a\lait6ri>undetth~ragr®d upoo PtQ~dure$ ..,fhemtefliaJ. audit·
            d¢I1annietlt'S.fl:;view ()fiQf(.lOlairi&kmana~eJilefit (J()il(r,(ll15 also W01;uiIbe
           COtla1JC,te4tl1tO\!gh(mtth¢)'i:@'l'ath:ettl1tf!.t~.~   .~ oJ)¢~ ~y~@ AUtt#Ptl?q~ss.       Th,e
            independence,.sta.ff'lllglevels, and audit·scopes ofthe"'intemalaudifdepartments
           ·werefeviewedhy DeIE and the DiviSion of 'I'fading.fuid1\ilarketsaspartor the
           ~P1iCatiOjlproCeS$.


       .'t'heteP()l't·~~Stateni¢lltJ1tat·1he~~m.aI           iUlditOf"sworkisrri,ofe strj¢tl~regu1at~d
           a,~ th.ePGA,0:B :(egtllil;1ese~~1'11<ll11lJdit()rs" is mi~1¢ading4~JPthe la.ckof
           substantive auditing standards for reviewing·af'irm's.'risk.manageme,nt;control
           systems. Italso1s. notolear'that 1he PCAOB has in place a process for reviewing
           ·such auditing work.


   Recommemlation13:
   ThE: DIvisIon of'I'iadl.ng and MMlcetSshoitld ellSUretllat reviews 01' aflftn'sConttngetlCY
   :F'\ltidiligPlan;mcludean asse,ssmerlt6t'a COllSolidat¢d Supervised Entltyftrrit's Int¢friaJ. .
   ~d.¢xteIDal·q.ommunicatiQfistrategi¢$.

   ManagemenlResponse(Concur or Non-concnr):

   'fhe. Ph1s1<>11 cjf'fOO&hg and .NtafketS'dQesnotconCtlt with t1risfec()mmendatioll.
      .,Asit:N!'mformed QIGitie$1iet~errt$.iliete                     i&;:i:in r¢q\ilteilie:rttirttlte·CSE
           t'Ql,esilia.tc:.S~MveMii:1~at ote~~¢Q1l1Ol~cati()1l' poli~',                     ,L.ikewise,
           1h.erearel1xFSEC rtilesrequiringnon;,;CSEbroker;,;dealersto main.tatn such
           ¢01nmunictdl()li,pojicies~arid·we.are tmiW$¢ ofanysttchiequiremehtf6rany·
           otherSBC fegidateoerrtities, .A1thou.gbTMnoled. thatBear~;St¢arn.sliaaa
           c:qitillil.lD.ic:ati0t111.str~t¢~Withili,it'.;C9ntm~¢JiPy;F1;mdirtg Pl~. ih«¢ Was h() Thl·.
           "~@S~15lIl~nt" 9fi1lats~~~gy. ~'15t~dby()rQ~'

       •   What OIGhasfailedtoappreciate iStllat the CSEsare parl ofpublic holding
           ·.comPanies•. thatha'~,s~t1uriti~sregistere~ withtlleSEC andlistedall~.frading;on
           ·0:.8'. securities exchanges. As puvliccompames.theCSEs are· sl115jecttQ m)lriad


                                                           14



SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                           September 25, 2008
Report No. 446-A
                                                         99
                                                                          APPENDIX VII CONTINUED ..




                 SECdisclos~'erequirements.including R~gulaiionS~XandRe~afionFD.
                 C9tporiltedisdosutes sJ.lPh;it> those covered in BearSteams'sCFI)
                 conltll.tlniclltionsnateID' llI'~sul>jeQt.to thQS\: dlsQ19sut\: ~qJ.lil$tll.errhl, an4the
                 S~G'sI)ivisi()1lS0n;()rpota:ti()n.Fjn:an.C~MdEWorC>etl1ellti1:cfu'.alyeWOJ;ce:
                 compliance with 'these reqpit'emellfs. Accordingly" itwouldbeinappropriatefor
                 T1VI"toopill..eori, oi"otlienVise,iiiflueiice, thecoIpot'.il.te coril..niilriicatioriS·"0f1lie~e
                 ptib Ii ccotll.patiies.


        Reoommendation14:
        'I11e.Divlsiou ()fTrildirig ana MarRetssholild develop a forfual inuomaredpioceSS!oWck
        tnaj;etia1; issues iClerttffi¢<tby the monitoring lltafl'toetlsurethirt1l):ey ate adequately
        resolved. AtapllIlilllUlrt,the 1t-$kingsyste1ll ,sho1.llq pt'oyi4e ilreJollc)\ving: infonntttlcm:
             The S()urt;e <?ffuetsflJ;(e;                             .
          Wheniheissue was identified;
        • Whoid'entilledtlte.issue;
        -The curreflt stlltt:ls.ofthe i$SUe(litg"new developments);
        • \Vhel1thejsSl1~ w:a:stesQlved; Md "
            Ifo"YtheJssJ.le w:~resolYed.




        Ho\vever,tbe anaJ.)lSis undeilyingtherecommendafiondoes nol show evidence fuatfue
        aSEprQgram failed to adequately tes6IY6tssu¢s,otill.at trtaterl~:tiSsues'Wer¢not
        1ll01Utoted.               "

        •   J{ather,the 9IGreportrell.Ch~s,its cQnclllsioll thllt 'thept;ogramdQefi nQ't~deqt»Itely
            tr'af.J:k i~sl].esfx"o1fl its l;lJ'itiQis1fl()fthe I:ecordkeePing()ft1JQ~e issues;, WliHewe
             recognizefuat an automated audiftrailis desirable; its. absence is nofprooHhat issues
             aJ:etlQt &deq1.1atelY tracked?metely fuattecormtigoffuos¢ iSSJ.leSCol.J!d be itnprowd



         RcoonnnendauOll15:
         1'h¢DJVislonofTradii~g and :k1al'ketssh9UJ.d: (l)l'eassessalltl1eprior Office of
         CQIlipijltflc¢JllspeCUQJigltfldExlUnimdiQfiS(OCIrD issl.Jes t()¢tlSut'e 1hlllh9si'grtificat1t"
         is'fi~S !l.f~~s!)lyedegiy~njll.el>eli~f'tbMQGre followed l1p)}m1a.(2)f()l1ow~p (lp;aU
         significant iSsues.    ""                                  "".




                                                                  15




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                     September 25, 2008
Report No. 446-A
                                                             100
                                                                      APPENDIX VII CONTINUED ..



        'Management Response (Collcur orN'on-eoncur):

        We t1Iiile~tmil1thetecQli'ltnendatiolt,ltut believe thatt1lese issues are eitherniootodQllg;
        sin,ce addt-~ss?d;

            ..Nl~()"er,aswee:({plailJ.ed inoqtinfOtnial C9@1ietlts. the tecQli1Dlend-iltJ.ol!is
                predicated,onall'mcorrect ullderstandingoftbedivision of respollsibilities?pas't
                andprestmt. betW.een the DNisioil of Trading mid MarbtS and QCIE. "The report
                criticizes TM: slattthat '~~stlmed'; Issqes Wet¢ the i¢Spol1sibility QrOCIE,
                Wlre~8sit(faet   fot eightee.n 1l1()l1thsS1JPseq1Je111 to tlreBe~Stearns;flppliq~tion
                eX8miflation;theissneswereifi fact.OCIE!,s responsibilities.                ' ".

            •   IlladditiOll, as we.infoffiled.QIGhl'ourinf'onnaLcommenis;TIif monitored the
                tlta1:eiiallssuest().assure that:tlteyWerej'esolved. TMalldOCIE agreedthat,Qlle
                issue mi,intiol'l.¢djtflh¢ report, the iSsue regat:(.ling workpap¢t tet¢l)ti6iia(Eear
                $teams, WaS1l1a1elUlL The Ill1i1 W3$tetllliI'edthteSP<>11dirtWtitinglCl tNll1e(Ote
                arePQ1l1t1lAA-~tiQnWll$lnade 1lJ.l.ltthe<Jonlnlissi()uaclqpon thi::applicatioll.       atld
                 firm in fact agreedlo retainworkpapers. Subsequent oversight by TIvLpersonnel
                ·telledoil,M¢e'ss toth$e \votkpaperS.lU1dso veri:tiedthatcOtreotl.V¢a6tionbadin
                fal:it Q¢qtitte<l. With teg~t()th¢ SecOl'l.<:l lsa~ riientione.d in th¢ i¢PClt't, as We
                 e~tllil1ed lt191Jr: it1f'o~l~():rnt11ents.:th.<tte is.119pas'is forme state1l1eiltaPP9t'
                 materiality oftheVaRmodeUssue. TheCOIG eA-pertdidnoidireclly reviewthe
                ffiodels,relaieddocuments.andiliedIrm'sbooks and records. Without a
                                             na
                thocougiireViewandteaso ble,basisforthesta1etneJlt its'iliateriaJity'fln&'rigis'
                QOilcllJSQry. Api>~nAi.'{In inc:1icat~Ql¢lll1.y thatrteimyt Ol.GuortheeAl'ert          .
                C()11(fucte<t an in~¢pei1Cleilt.aI~lysis()fl3ear'~r:isl<:@tla.ge:l11eilt
                                                                                      $y~tetn:




        TIl~Di.visiQlIgf Trad111g and. :fy1#l<.¢1$sho1J14l;:n,s~t1.tllttl!eycoroplete'allphas¢l>   ()f~
        ftrm~sinspectionprocess      heforerecommendingthaUhe Securities and Exchange
        ComtriissioilallQ"ianyaddition.aICotlsolidatedSiipend:sed Eiltityfrifusilieal.lth6ntyto
        tise'the a~l'rta:tivecapitalil'l.eth6d.




            • Ast'heJ)iYisioil staffexplalwdiri itlformal¢omments.t1ieCQri:lliUssihriWas
              qlearly itrl'()tJll¢<1ofmeexilrtiin~iQilrJ1i4it;l~:an~th¢irstatuswl1~th~yapproved
                the CSEapplicatl()ns,                             .                                "




                                                             16




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                          September 25, 2008
Report No. 446-A
                                                       101
                                                                             APPENDIX VII CONTINUED ..


     :-   In~9diti@. 1h~ OIQ'report'soharacteriz~l)n o(1qe appliC~IHonproc:e.ssas"'le~s
          meaningful ~''is inaccurate. The Commission waswellwithinitsmrthorityto
          3pprovesuch applications, give:ri:th.ey'were:riotified-()fOCIE's findings, '6fm's'
          ·;r~s~:~t~~:~~~e~:~~:~~~::~~~~;~~$~h~~~~;~=~;=::
          i~s\l~Scand.,~;;o.l\q;ioll'                           .....

     _The OIGreporffi\ilsto 'appreci3:te~thafCSEexamjmitionswerean'
                                                                  ongoing
          process. As piltN5fits ri6rinalbUslhess operatibriS,aCSE COllstaillly re~lewed~its
          tiSk mahageinefit'systemslo tiSsureifimth'd8:¢'sY$t¢tiiSadeq'inrte'ly de~dt \Vith
          IfI~tk¢tPl~¢qhangl;s.(j9ti~¢ql,l¢nt1y,the sfuffcontihwdly: olQIritQredd'i,OO'$:clsk
          tllaJ:lageinenrsys~ero~ toideJltifYoh~ges a CS;ElIlad.~ti.o its risk l11aJ:l~geWeIlt
          systems and to;determine whether 'those :changys'%IPfopriafely addressed,ihe
          perceived issijeS 3:11dtnatthey\veteadeqlialely,,irilpleriieilted.Foritisrahee,if
          niatl¢~lila¢¢ changes,~a,tl~ed        at)   in9l':eas.¢~l)«OS-Ei~baCkt¢sti1igexception$;tlle
          (~SEoould
           .......,   amei1(fifirlIlodelsto
                                    ' , ,.. '¢ap . . tuteoadilltional ·dtlta w,·       '         "
                                                                             ':'lrttSulatleff6rtfu
           ~ec~as~ su,g4: ~~,?eptiQm>; 111..$lJ.¢.hca~e:s1he: ~aff;wqm4r<::vie"YaJ:ld<~Pproye:1P9se­
          "changes tolhe:CSE's:models.


     ···~~~~!::·~fi~j(:~::~:;;:~::::~:'~~:t:l~:,~~~~~~:~~s
          ·coh$oli<tafedbMis:.      '6iv~ii;f.hjs::tiifI¢lm¢ '~d,theJ¢vel:ofmatena)i't)njr1h¢: is.S:\J~s
          .jnvolve<t,,'{'M:4i.d m~t:J>eI,i~ve'it,nel?e~s~ t()i:>,ygit'f'ort\ie,j'"Qrmaltrit@nlititaliQfa
          'writtim'deficiency letter or thereceiRt'of"a writterrresponsebefore recommending
           the Coihttiissioii approYethe,otdeii

     •    F,ma1i~~,1:htrOIG repott"s sWementthat.'TI\{failed1ufolloWUP Qjjlssues raised by
          OCIE;:iJ~jrjiig:its.:insp~ctioIi<ofaec¢ is:inl;:ott~¢t.AsJ¢1i."pl.utie(hQ; OlG.$~ffifi
          't;K;r;"s iJU'Qni1at~()mil)e~~,',J,1;l ~,~~4 r~~9lv~d m;~i~t iSS9.¢S i'd~jjne41ly.
          OCIKandthe;repoifnasn-of:Cited allyfaetual basis fOr"fitlding 'otherwise; .


 ~ee<mml¢fidad(jirt7.·:.
 ne-.·Divi~iprtsgfG.()q>·~ratiQl1·.·FiIiatli,')!-l;(CF):at,l~···l'~i;lillg   aJ:l(1 M<tJ'1(e~(JM)~h9til4:~e
 concrete steps to improve1heir'collahorationeffortsandshould de'tenniitewhe'ther TM's
 lllfOhnatioii on theColUloIidated.superviSed Entity (CSE)'t'iiifu;couldbeused.1)Y:'CFfu
 lt~revieWofth:¢ :CSE tifin~.




 Tlvl:corictirSwlth·thiS recommendatton, alld,\vHlwotkwilli CFt6 assessilie·d'egreero
 whlchaddtti9i1a1 i1it~ott and inton~9il'\yo\lld h~ lJSeml.                     .

     '. :U:oWevet, iW;fhe.istalfexplijiti:~ujn-ib{fuform:ali,19m:ttients.             TM~affJ,rtet    -
          repl;)at,e41y ",vitJi':Cf~,s*,aff\twing 2QQ7'aJJ:d~OQ~i9disCJJ~s 1heiSsu~s*edinth~




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                September 25, 2008
Report No, 446-A
                                                               102
                                                                   APPENDIX VII CONTINUED ..


         report around public disclosure ofcapitalinformation. Noacknowledgementof
         thOseeff'Ortsis made mtheformal driift" report.

 Recommendation.18:
 l1teDlvision. OfTtiidirig Met };ifMketS{TM).andtlte Officeof'Coril.pIiarice Inspections
 ahdExamihatlolis (OCIE)sboiJIc.l de\ielop acoilabol'atiOh aweenient{e.g., disc\1Ssiiig
 ihfcjfIIl.mi(n.1 snw:ing)thai tl:liUrMifiS, ·a. :ctea(delilieiti!otlQftesPQD$ibilljie.sb¢t\i\!¢ehThl
 ~et.OGIE \vithrel>peet···t9th~'C(mso1idated $l.~peryilfedElliity·p~gram. 'I1J.~ysllq\ild
 irifonn·theChaiiman~s Office of.any·ilisagreement(s) sothatthe'issne(s) can be resolved,




 11\'ri;)OI1C1.1r~with·thi.s rec()ll1ll).entlatiotJ,M!l\villwqrk""itl)0Q1Kartl:lthe'Chainnro:l's
 office to detennille howcollaborationshould·befurtherfonnalized.

     "Asw,einformedorfin oUf·infonnaI ~Olllments,ho\Vever~ a~ldwhatisnot
       desetibedirtthe OIGrepott,;iSthat'Th1           ana
                                             DelE issuedjQirtt gtlidailce toalfstirlf
         (egardin~ihedivi.siQDo[respohSiQilities@d the sharin.gQfitIfMfi#titlli'with
         xespei;)ttotb~ C$E.f]Jlll,s·QtlMar9h 19. 2Q07.s49rtJ~' aiterihe'COJJlI1lissipn
         transferred inspectiollsresponsibilityftomOOIE'ioTM; TN! has complied with
         all piovisionsof tliatg..lidfu1c.e.


 Jl~f:~n:l»l~11tl,atitQlt9:
 The;Division of Trading and Markefsandthe Offioe>.ofRisk Assessmenlshoulddevelop
                                                             tiS.. wel1as methOds fQthuonriatlori
 ,ariagreemerit,()11t1iningtheiir01eSarid:ieSP6t:is1bill:ties~,
 ~llM1tig;$l1¢h :as¢ofi~Dicatitlgproj¢¢tteg:ult.s. .Th~etWQ~Ciffi¢es ihQldd itifqrlilth¢
 Qha@l}lti·sQfl)ce.of any d~a.gt:ee1l1el:li~g):>otlIl:lrtheiSslwt$):canhereflolve.tk

 Management-Response (Collcuror NOll"£oncur}:

 T1V!p,OficlJtS\vtththis r¢¢omm<m<WiQ~ andwnrWQrkWiihQRA.• ~dthe efuirtn,ah's
 o:fil<::eto det¢nuh1.e hoW :con~01'atiollshouldbefurihertpnu~ize&
     •   Wen()~~hQW~ver" t1latT~'s1"elatignshipwith ORA iss1rofig; ~evidenceclby
         colIaborauonon anumber;ofissues ranging<from creditratingagencies:io
         anaiyiiSofBearStetiriiS" failure.'                                     . .'

     • Formalizing an agreementbetWeenti,vo offices :Witillifthe CoJ:'.lifrilssidfi WOtlldbe
       tehtfi.vely1lJlilS\latiD. qOrttxast tq'CMclutiing af~'['Jl'iat M(1)with.a,n ext¢tti~f
          ageIlPys»ch~slhe Eel;leI<l1~~sen'e.              .-




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                          September 25, 2008
Report No. 446-A
                                                        103
                                                                      APPENDIX VII CONTINUED ..


  Recommendation ZO:
  tll.e-'DlVision otCorporatioll Finanoe sb:o(lld: (J)dbvelQI,itrtetrialguide1irtes,fo:f
  tevi¢wuIg filiIlg~.in: <t.tilil¢lYrtlAtlIl:er.and C:Mtr<lCkmr4·'itioJ'lit9t,Col:Itpliap:qe ;\¥ltb.the&¢
  i1).~n:ta;1 ~iJiqeli1re.~.·                          "                           .

  N'fanagemellfResponse:(ConcnrorNon"ConCUl7J;



  Recommendation:!1:
  'fhlfDivisionofC6rppiatl'oft' Fiiiance (CF)sh6u1d (1) establiShapoH.cy outffiUng ",'hen
  f"liillS at(;: ¢xp~te.("'t6:s1.1hS13ht1veIyt(;:~l'ond'to issti¢siaised in b:F;,~¢onunent i¢tt¢rs,and
  (2) ttackanqijioIlit9c ¢QUlpHano¢ witlltliiifp9Il<:y.
  ,1\lanagement:R'esponsei(Concur···oriNon:.,concur)~.




  Recommendafion:12;


  ~th~~~~'~:~~~~~:~i~~~:::~~~r:~e~r~v~~:;:~=~~:~d.
  the..OfficeofCbmplianceJnspecl:ions,andExaminations,. TIle TaskForce sllouJtlP,eifonn
  an analysis,ofl~edirms'withcustomeraccount'5·that hold significantamoUlrts ·of

  :~=~:;~~:n~~V=~~=i~l~·~:ii;~~:=ic~:;~s~n:~~~~~¢~~S;ih~
  tlle$'ecl:lriijes aq(f' ~~¢~g¢,c-Qnt!nis$i~(C~A1tnjll$i~~l)\Slt().ll1:~:$UP.~t:\~(~~~~~ ~1®s; ~Il
  a,conso'1idatedbasi~,:it sh()uldmake~[.recommenOation to.the·:Commissionthat involves
  seeliliig'the ri¢cessary:statutoty fuithonty to,o:vers.e~ tliese,ftriilS'ona-,06.risolia'8tedbtiSls.
  1\{3n~~I1l¢ntRe$P9 ..~.:(COJltlt",··o... :N~)l'(~on¢Ut);
  l1vrC()119urs:vIi1}itlti~ r~c()Il11ne.ndati()n.                .'

      •    \VejlQt¢~   hpWev¢t'. thatthis iss].l¢W$pi9.yi9]'J~lY oonsiA¢£'¢4wh¢1l bfipl~m¢nting'
          1he m 1¢,s; (()(' $U~¢J;yi$.edlt1'll'e~ent   ~ a~lp41g'(3()WP~~s (Sn~fI~~);                        .

      • In 'Exc.hMge A~ kel¢as¢ 49S:3:1~ th¢Cpnmussionfi5®itthat its s4P~rvi$i91f:()f:M
           ifiy¢~n1entb~~k;.'J1()lditl:g'CQmpafwalla SJBI1C wolI1't}pe 'i1¢C~llam' art'4
           appropri'ateonly when the IBFIeis affiliate.a withabroker~dealer thafhasa
           '!s\ibstantialpresence!~:fu:the&ecurifies
                                                   b\lSmess: The'requiremeriHhata fwm·have
           A <~slibstatitlal presence" was 'to identity b.t9Ket-<ieaIers and ·their. holding
           cQrnparrles-   wb:~~ liil1li:~cowdh<.iYe.·, {lijia~ti~lly adV¢tse            Impact    Qll   ,oth¢t
          ;s'e~llf.iji~sro~ke~;'pArtf~lp~~,;thtl~1e:(hlgit)S$!,st~mfuti~}(:'                .

      •   trrtdet1h~    SlEne.   iiJles~ami)fig'otb~f .iAi)'IgS, e\>idenc¢that :ili1' u'i\ie.stilieiit hank
          .b()l(1j.l1g'<?bmp~y. :o.wn~~t: l<qptr.dlsa·~ml;,et-de:~ertb'atm~ntp,'ms ~$J'()qmiJl~i?J:l: in




SEC's Oversight of Bear Stearns and Related Entities: TheCSE Program                            September 25, 2008
Report No. 446-A
                                                           104
                                                                APPENDIX VII CONTINUED ..


            tentative net c.apitat would be srifficielltio ,demonstrate· 'asuootantial presence; in
            th¢ sectiritiesbtisiri~s. Oil¢:flrm: hasappiied'tobostlp¢tVlsed il'SaStBItC.


 It¢¢()n:uuend:a:tlbJi)$;
 The' Divis'i9n QfT~d,ii;tg AA~ }'b,rk~ •.'ill CPlJ,SVltAAioQ,WiUl ~~ Q(uw:n;uui's;ofliqe. ~19\jlcJ·
  detennine what additional changes n:eedto~belnade'tothe Consolidated Supervised .
  Entlty{CSEj piogratn llillgJit ofthe'.collapseofBMr Steams and:ehangtiig.ecoiloDuC
 ~hVito,ntl'i¢tlt;


  M~n~gentel1t.R:~P9,,~,(pO"91rorNQIl;,cQn~)~
 We understandlhei recommendation,.andarenow actively :working withtheChainnan's
 offlcefucoriSider'wiwfdWiges are appropriat¢in::llghtoftecent develOptheritS, In
 additiQli,theOhititlitan:jiasnmdeat1tUl1bet ot'tequests tot le~Mative¢hangesthat MuM
  (eqWr~:fu:rth~r:moditlq.ati~lSo(theCSEiproW;,t.t'll';


  Recommenda:titiri :24:
  :~~~~:i~:~~~;~:~~::~~:~:~:~~:~=~·e=n:u\:~:i·~d'
  program~sfunctiongoing,f()nvard.TIvr shorild'alsoest.ablish milesionesfor,completing~
  eachphase',of'an inspeclionandimplement aprocedure:to ensure that the IriilestOnes are
  mel.
  Man~~~l'~()n~'{Gon~l"~,r1N:oll~~Ii~~):'

 TM:eon¢iirS'wl1J.l'this rec()i1'ifuendatto~ and we have alriiadyfuidertal<:en efforts~that fuliy
 respOiiclto'It.                                                                                .
      ..W~iliavepQ~ed"a:p:ositiQilfot:~\irAss1stant D1t¢etot fCSE InspectiQt1$}'ltfN¢w
            York. '~~,w~tl ~·stitf.jQb$' ()tih,? q$E"il,l~pe-~j().lsU.Mf$m bQth,N~\TIo·tork ~4
            WtiShin:glon.·                                ,

      _ltls worthnotillg~,however.that this recommendaiiol1 arises lllpartfrom a
        misJ,>,erce.pti6riofthe CSEiiispect16ns'progtfun.

      tit   .A,s\ve 'Uif9Ifue4:thtf6IGin.o\itilif&rijate)jmmeri.&~1l1ree iriSpeC;tiQriSbave':j)een
             con.d:tltrted. andtwQ ul$peqtiot1J:¢po$ haN¢ prpg(¢s~edi()f1iefmaI s:htg¢$ofr~v.i'c;:w
            in1h~ ]:~rn$)nt1)~,~in~e W$PQlll>i\il.ll:fy wa~d;r~feqe<1frowOOIE~~lfu;th~ 9
            months sfuce"'niI'!s inspecti'oDs'unitbeeame operational.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                     September 25, 2008
Report No. 446-A
                                                      105
                                                                APPENDIX VII CONTINUED ..


          financial market conditionsthathaveprevailed through nmchofthis year have
          affecfedthepac¢ of:tllisWork. alldlllu¢helse.

  lt~¢{)ttml.el1Jlatlon2'5:
 The Division of Trading and Marke~iil1 consultation withthe OtliceofCompliance
 ltlspectio:l1s aridExatiunatl.ons arid .theCol111ilissio:l1~s·Ethics office? shoUld develop an
  ethics matltlal.
  Man~eJ:fimtRes}){)It~(P9n~r·{)rN{)n~~It~IU'):

  TMconcursw;iththis recomnrendation, and We have a}rea.dY1:iiidetfii:k:.en etl'oi1sthat fully
  r¢sp9iidlO1lie:re¢olntiieri,datioli.                                                                 .

      •   As.· we ·1nfollil¢dtheQI(Tirt~urinfo:rnial¢oliirii¢ntS.tlie:fitiairtg is based li~(jri
          f#tw~dl.Jlldet:St')lldiilgofth~:91J~ntsitl~i()tl,.In.. p~!Clllar; ollMarcl1.• 1 ,2pO?;the
          Division Director ofTM. direcled the Division staffto·followOOIEfsEthics
          Gliideliiies Witli·twQ.riii:l1ofVariatio:l1s.

      •   ·Fotshl1pllcity ssak.e,TM riiaiikgeliieritreCetltly con¢ludedthatstaff4lhoitld
                             f


          fc,l1()WthiaiOQlE@id¢lirt,¢s. An eluail bas baensentlO1he statrpi'oyidmgthat
          c41rifi,catI9l'L       ....



  RetonUn.eJldatlQrt26:
  the,Division. o(1'ifi,dlllg atlet M~ei$sh()lild C()tl~ltl~ iO$getc ollhvaysfoinc:@Me its
  communicatioll,coorwnation., . andinfoflnation sharing, with the EederalReserve and
  other FederoLRegwators.



  TM concurs with the recommendll:tion.andwe have already undertaken efIortsthatfuUy
  :t¢sporid1othei~coil1ihetldationSiliceiliception. TM hascollaboraredW:1th alarge
  lllIDi1?e:r of'otllet :re~l.ltators ill the C01lt¢A't()fthe¢SEPt0W'am~incitutitigth¢ F¢d¢ral
  R.es¢;hieiaoarq,th¢ Ney~' YorkFeaet~tl{e'g¢tYe:Ban1C, .1he F1jlb, 1heStht¢ oft1;'tah,ariq
  ot:h.e.rs.Eff9$ c(:jntinuet9 e~pand1h~     ra1:lgeof'b9thbilat(:r<4flJldtnulijlmer<lL~cl.iviijy:;.




                                                     21




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                       September 25, 2008
Report No. 446-A
                                                     106
                                                         APPENDIX VII CONTINUED ..


                                MEMORANDUM

TO:                              David Kotz
                                 Jill Lennox
                                 Office of Inspector General

FROM:                            Lori Richards, Director
                                 Office of Compliance Inspections and Examinations

SUBJECT:                         OIG Draft Report 446 -A: "SEC's Oversight of Bear
                                 Stearns and Related Entities: The Consolidated
                                 Supervised Entity Program"

DATE:                            September 24, 2008

The Office of Inspector General provided a draft of its report, OIG Report 446 -A
"SEC's Oversight of Bear Stearns and Related Entities: The Consolidated Supervised
Entity Program" and has requested that we provide a written response indicating
whether or not we concur with each recommendation that refers to the Office of
Compliance Inspections and Examinations. This memo outlines our response.

There are three recommendations in the Report that are directed to the Office of
Compliance Inspections and Examinations (OCIE) (Recommendations 18, 22, and
25), and one recommendation that references the Office (Recommendation 15). Our
response to each is discussed below.

        Recommendation 18:
        The Division of Trading and Markets (TM) and the Office of
        Compliance Inspections and Examinations (OCIE) should develop a
        collaboration agreement (e.g., discussing information sharing) that
        maintains a clear delineation of responsibilities between TM and
        OCIE with respect to the Consolidated Supervised Entity program.
        They should inform the Chairman's Office of any disagreement(s) so
        that the issue(s) can be resolved.

OCIE concurs with Recommendation 18. We believe that a collaboration agreement
that maintains a clear delineation of responsibilities between TM and OCIE with
respect to the Consolidated Supervised Entity (CSE) program would improve the
effectiveness of the oversight by both offices. While the two offices issued a
memorandum on March 19, 2007 to all staff involved in CSE oversight that
described the allocation of responsibilities and the reallocation of CSE examination
oversight from OCIE to TM, a more detailed agreement could enhance the
information sharing and corroboration between the two offices.

        Recommendation 22:
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                107
                                                         APPENDIX VII CONTINUED ..


        Chairman Cox should create a task force led by the Office of Risk
        Assessment (ORA) with staff from the Divisions of Trading and
        Markets, and Investment Management, and the Office of Compliance
        Inspections and Examinations. The Task Force should perform an
        analysis of large firms with customer accounts that hold significant
        amounts of customer funds and have unregulated entities, to
        determine the costs and benefits of supervising these firms on a
        consolidated basis. If the Task Force ultimately believes that the
        Securities and Exchange Commission (Commission) should supervise
        these firms on a consolidated basis, it should make a recommendation
        to the Comr.nission that involves seeking the necessary statutory
        authority to oversee these firms on a consolidated basis.

OCIE concurs with Recommendation 22. A joint TM, OCIE and 1M task force led by
the Office of Risk Assessment to determine the costs and benefits of supervising
firms with significant customer assets and unregulated affiliates could be very
valuable in producing evidence supporting the need for consolidated oversight. At
the current time, the SEC is generally limited in its oversight authority of financial
firms to registered broker-dealers, investment advisers, and transfer agents; the
Consolidated Supervised Entity oversight is a voluntary program. In the current
environment, where firms are highly diversified and deal in very complex products
and businesses, with much of this activity in unregulated material affiliates,
consideration of additional statutory authority would be valuable.

        Recommendation 25:
        The Division of Trading and Markets, in consultation with the Office
        of Compliance Inspections and Examinations and the Commission's
        Ethics office, should develop an ethics manual.

OCIE concurs with Recommendation 25. OCIE has implemented strong written
ethics procedures for the OCIE examination force, with requirements and
prohibitions that are more stringent than the SEC procedures that apply to all SEC
staff. Examiners are entrusted with special responsibilities that require the utmost
integrity, avoidance of even a remote appearance of a conflict of interest, and the
highest level of professional conduct. Because SEC exam staff are evaluating
compliance with the law and effectiveness of risk management controls, their
credibility, judgment, and independence must be above reproach. For this reason,
OCIE believes that the stringent ethics procedures that apply to OCIE examination
staff should apply consistently to all SEC staff that perform examinations, and
would work with TM to develop an ethics manual for the CSE program.

While Recommendation 15 does not require any action by OCIE, it does reference
the Office and therefore we add the comment below.

        Recommendation 15:
        The Division of Trading and Markets should: (1) reassess all the prior
        Office of Compliance Inspections and Examinations (OCIE) issues to

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A                    •
                                                108
                                                         APPENDIX VII CONTINUED ..


        ensure that no significant issues are unresolved (given the belief that OeIE
        followed up); and (2) follow up on all significant issues.

We note that the OClE examination process generally involves requesting and
receiving documents, reviewing and evaluating those documents and conducting an
onsite review, determining if any deficiencies or weaknesses exist, conducting an
exit interview with the firm, producing an examination report and detajIing
deficiencies in a deficiency letter sent to the firm examined. The OClE staff request
that the firm provide a detailed written response to the deficiency letter that
describes any corrective action. OClE evaluates the response and determines
whether the firm has responded appropriately. For significant findings that do not
appear to be appropriately resolved, OClE works with the firm on resolution. All
responses to findings that required action by the firm are then followed up in the
next examination. The most recent CSE examination of Bear Stearns that was
conducted by OClE resulted in an examination report issued by OClE in December
2005, and Bear Stearns provided its response in January 2006. The results were
provided to TM. TM subsequently assumed responsibility for the overall CSE
examination program in March 2007, and OClE ceased CSE examination activities
as of that date (OClE"examiners continue to be solely responsible for examinations
of broker-dealer firms that are part of CSEs).

                                                ***
As an additional matter, on page 37 of the report you indicate that in 2007 the
Government Accountability Office commented on our method of tracking
recommendations regarding Self-Regulatory Organization ("SRO") inspections.
Please note that following receipt of that comment, OClE developed a formal
tracking system for recommendations in SRO inspections, and deployed the system
for use in SRO inspections in early 2008.

Finally, you requested that OClE indicate whether there is non-public OClE
information in the report. Any non-general examination-related information would
be considered non-public. Examples of this are found on pages 20, 37, and 39 of the
report.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program    September 25, 2008
Report No. 446-A
                                                109
                                                                   APPENDIX VII CONTINUED ..



                                                    UNITED STATES
                                   SECURITIES AND EXCHAN(;E COM.MISSION
                                              WASHINGTON, .D.C. 20549



     D:1V1810N ·OF
:ORPORATIO.N PINANCII:




                                                                  September 24, 2008



              H. DavidKotz
              Inspector Geneqil
              u.s. SecuntiesandExphange Commission
              lOOF Street, NE
              Washington, DC 20,549

             Dear.Mr. Kotz:

                    ThaiJk you for the oPPOrtunity to respond to lhe recommendatiol1$relatingto the
             Division ot COrpQ~tionFiIiancein youx: AUgtJSt 18, 2008 draft report SEC'$ ()versight of
             Bear Stearns and RelatedEntities: The Consolidated SupervisedEntity Program (Audit
             Report NoA46-A).

                    In 2007;Cotporation Finance selected Bear Stearn&' 2006.Form 10-I<, for review.
             On Septeinbet 27, 2001, two months prior to its intemalguidellne for issuance ofa
             comment l~tter to a company selected for review, Corporation Finance issued its
             pomment:letter to Bear Stearns. That letter included a focus On sUbprirne mortgage
             l11att~, Soon after ~ceiving this letter, and wellbefoteBearSteams' collapse mMarch
             2008, Bear Stearns began addingimprovemehts to its disclosures about subprimt?
             mortgage securities in its publicly available filings. Those additional dIsclosures appear
             in:

                         ItsForl11 nH~filedon October 10,2007 (details on net inventory markdowns
                     relatedW losses in residential mortgages and leveraged finance areas);
                     Its F0tJjl8-Kfiled on November 15,2007 (updated information on coUateraJized
                     debtobligatioIis and subprimerelatede~p9sures);

                     Its Form 8..Kfiledon~ember 21. 2007 (fourth quarter fmancial.results,
                     including a detailed exhibit of CDO and subprime tnortgage asset exposures); and

                     Its. Form to-Kfiled on January 29. 200g (schedule ofsubprime exposure),




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                         September 25, 2008
Report No. 446-A
                                                          110
                                                                  APPENDIX VII CONTINUED ..


      H. David Kotz
      Illspector General
      U.S. Securities alid Exchange Commission
      Page 2                      .

      Di"i~ion of COI"pClration 'Finan~e concerns :about Audit'Report tmdings·onBear
      Stearns filing review

              In Finding 8 ofyour audit report, you recommend whatcould be sweeping
      changes to Corporation Finance's full disclOSUre prograntbaseduponconclusions you
      draw from a single Corporation Finance review - the review ofBear Stearns' 2006 Form
      !O-K. Youinciudeconclusions regarding that review in Finding 8 with which 1cannot
      agree. the two most significantofwhich are:

          1.   That COrP()]J;l,tl,()n F'inance's"untimely review deprived investors ofmaterial
               infonnation that they could have used torp.ak:e well-informed investment
               decisions/, and

          2. That CotporationFirn{nce'sreview of Bear St~arnswas ''w1tirile.ly.''

               The Division ofCorpordtionFihtlnCe reView ofBei:tr Steams resulted in
               improved and timely dfsclosure!orJnvestors

               As to the first ofthese conclusions, .you indicate that~\Belir Steams' response
      letter (coupled with CF'.s COlllPlent letter) cQnwneq.·rp.atepalinforml,luon that investors
      co1l1dhave used to make well·informed investnlent decisions." Y oualso concllldethat
      ''the information (e.g., Bear Stearns' expoSUte to sUbprime IllQrtgage secuntie.s) could
      have potentially beenbenefieiaI to dispel 'tuDlQrsihat led to Beat Stearns'collapse."
      WIllIe you go on to identifyinfotIllation in: that letter and state that Albert S, Kyle, the
      oro expert, believes that this 'information wouln 'have been "helpful" to investors. you do
      notnote the$ignificant redacttonsofinformanon. I do not understand the basis for your
      or ProfessorKyle'sconclusiol1S .

             First, as 1 indicate above•.Bear Stearns began making additional puhli~d,i$closures
      concerlling,jtssttbprime exposures in itspubliofilillgs soon after it received oUr
      Septembet27, 2007 comment letter. In addition, the information that was in Bear
      Stearns' response to our comment letter, which we later posted OIl oUr website, Was
      heavi1y~ct~ Wlderthe,coll1.1@Jltia1ity p,rovisiol1S ofRuIe83, I note that in well over
      100 places in the, letter, BearStearns redacted slgpificant information. 1 I have difficulty
      agreeing with Professor Kylethatthis heavilYr¢dacted letter) whicb wou1d not have

      I RedaetedJnformation included: variouS memcs util~tO detei'IhilleF1CO score$ arid designatiQn pf
      loans as sllbprime; Joan to value ratios; subprimeproductlonin2005 and 2006; trend data fodoan-to-'value
      ratios and full-document loans durihg 2007; percentage ofloans with full documentation; size ofdata
      sample upon: Which risk models are based;. table ofmarginJequirements by collateral type; fairyalue of
      stibptime loans at various dates; mit value and baIimce of non~perfonningsubptimeJoans;fair value of
      rened interestS ill sllbprime securitizations; reduction·of subprime exposure fromhedgirtg; fair valileof
      se~yrltizationtrusts; amountofsubprime.loans servi¢e<4 amounts securitized through SPEs; amounts
      proVided tomance subprime collatetalto counterparties; fair value ofothenubprime telatedinStruments;
      revenues derived fromsutiprime actiVity for all periods presented; litigation reserves.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                        September 25, 2008
Report No. 446-A
                                                       111
                                                                        APPENDIX VII CONTINUED ..



  B. Oavid Kotz
  Inspector General
  U.S. Securities and Exchange Commission
  Page 3

  become available under our posting pQlicy until at least 45 days after we cQmpleted our
  review and after Bear Steams had made additional subprittle disclosures (which inclUded
  actual nUttleric data and dollarafnouuts), would have been "helpful" to investors or
  would have provided material infonnatioll that Bear·Steams had not already provided in
  the public reports it fIled with us. The redacted letter, however, is publicly available and
  Ittrge investors and-other readers ofthis report to review the Bear Stearns response letter,
  and reach their own concillsions about the importance ofthe additional infonnation
  appearing in the redacted letter, plllticularlyinlight ofpublic disclosures in the FOtIns 8-
 .K, 10-Qand lO-K lreference above}

          The Division ofCorporation Finance review was timely
          As to the second c.onclusionwith which I cannot agree,. you concludMhat "OF's
 filing review of:Bear Stearns' 2006 to-I<: was not timely." This lsnot correctand the
 implication ofyour cc>nc1usioll is that We shcmld review Forms 10-I<. immediately upon
 filing and that a failure to do So means that we are "untimely." As ba~k.ground, we have
 a sel~tivereview prqgram,guided by Section 408 ofthe Sarbanes-Oxley Act of2002,
 through which we review all public companies ona regular and systematic basis, at least
 once ina rolling three-year period. Following thisstatut()ry direction, we select for
 review between 35% and 40% of public C<'>mpantes each year ..... which results ill
 approximately 4,000 to 4,500 company reviews. We do not have a requirement to review
 each company each year and there areIllany C<'>mpan.ies that We do not select for review
 in any given year. Although mostFonns 10-K are filed ill February and March, we
 conduct our reviews ofthose companies we select for review thropgho"llttheyear.

        As you corre~tly point out, our longstanding internal gqideline is that we should
 issue ourihitial C<'>mments t()a ~ompanY we selectfor review before the .end ofthe
 company'sfiscal year. By folloWlngthis guidelille, We give the companies 'we select for
 review time to reflect our COIllIllellts,if appropriate, ill the disclosure in their next Form
 10-K. As yop' state in YOllt repol't, we metthis internal gqiclelinein our review ofBear
 Stearns' 2006Fonn lo-I(, filed. on February 13,2007, byprovidillgco:mmentson
 September 27, 2007- Qvertwomonthsptidr to the end ()fBear Stearns' fiscal year OIl
 November .30,2007. Thus, I.cannot agree With your stateIlleIltthat tlieamoulltoftime
 we spent to review :Bear Stearns, filing is "simply'unacceptable.,,3




 2 http;l!wWw.sec.gov/Arcllives/edgatJdatal777001l0000914J21 08(}00089/filename I.txt


 3 IIIfact, in 2Q()6, theIIlspectorGene1"ll1 (AuclitAOl)reco1lllJlend¢cl that Corpbration Fitiance consider ways
 tOIlla.l1~eworkloadpeakstesulting frOIll the bunehitigorFonn         10-K fif     inFebmaryand March. This
 recommenQationretlected the Inspector General's acknowledgement of . . . . .culties we face in meeting
 ourSarbanes..()Xleymandared and inrernalreview guidelines. The implication ofthis Inspector General
 tec()1lllJlendatioj) in 2006 Wasacmlllly that Weshould.collsidethmgthenmgthe tiIl')efi'aIlle for our filing
 tevieWS,llQtcoj).densing itClosetto the February and March filing peak.                                    .



SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                 September 25, 2008
Report No. 446-A
                                                            112
                                                           APPENDIX VII CONTINUED ..


  H. David Kotz
  Inspector General
  U.S. Securities and Exchange Commission
  Page 4

          As an aside, I should point out that our comment letters to the other four CSE
  finns, all ofwhich we select~ for review in 2007, were· sent out weUbefore their fiscal
  year ends in November and December. We isslled comments to Lehinan Brothers -
  Holdings Inc. on August 1,2007; to Morgan Stanley on August 30,2007; to Goldman
  Sachs Group, Inc. on September 2.0,.2007; to Merrill Lynch &- Co., Inc. on September 25,
  2007; and to Bear stearns Companies, Inc. on September 27, 2007.

         Curfentand petiodicreports are theappropriilte disclosure mechanism

          Separate from any discussionofthese two conclusions, I thought it would be
 useful to provide some backgrpundon our review process Mdits role in proIDptinggood
 public company disclosure. Our commentletters and company responses are not the
 mechanismJordisclosure of material Information to investors envisioned by our full
 disclosure program. The goal of disclosure ofmaterial information to investors, which is
 paramoUIltin oureffol'tS, is achieved m our program by seeking improvements to a
 company's public disclosUres in its periodicandcurrentreports. ThoserepoItsare
 readily available to all investorS. These changes :ind1sclosure are subject to the full
 liability provisions ofthe federal securities laws applicable to infonnation.appearingm
 these reports and, when they are included ina perlQd.icrepo1't, tlle •sEifegwrrds provided by
 the Sarbanes-OXley ,Act Qf2002 apply, including senior officer certifications.and the
 disclosureconttolsand procedure.sproceSS.

         The public posting ofcomment letters andtesponses is only a recent development
 in our full disclosure program and is intended toinctease the transparency ofour review
 process and to Inake this·cotrespondence available to all interested persons atnocost.
'We believe that comp@ies like to look at tlle comment letters we send to their
 competitors to See what comments they might expect, as weUas togleancoIDpetitive
 information. To address ¢ompany concerns about public disseminationof¢ompetitively
 hanttful infonnationintheir comment response letters, wepennitcompanies to redact
 such infonnationpursllaht toa Rule 83 confidential treatment request. Companies
 frCQ.uently take advantage ofthis provision, as Bear Stearns did in its response letter in
 the review ofits 2006 10-K.

         Wemtentionally wait until at least 45 days after we complete a filing review
 before we post correspondence. Our separation ofthe. e'Xchange of views reflected in this
 correspondence :from the disclosure PUblic companies provide in their :filings is
 intentional = we seek to promote a :freegive,.;and-take in the review process andto avoid
 having concltiSionsdra.wn from our questions before acoIhpany has an opportunity to
 respond. FrequentlY,acompany'sexplanation or analysis ofan :issue will satisfactorily
 resolve an issue wiihoutMY chliIlges to previously filed. or filture disclosure. When a
 CQmpany imprQves.itsdisclosure, it makes those improvements; in its widely available
 periodic and. current diScloSure docil.Itients. which iswh¢te investors expect to .flnd
 materiald1sclosures. To my krtoMedge,investorsdo not useteview correspondence,
 whiCh may be heavily redacted, and vvhichwedo notpost Ullti145 clays after we



SEC's Oversight of Bear Stearns and Related Entities: The CSE Program              September 25, 2008
Report No. 446-A
                                                 113
                                                              APPENDIX VII CONTINUED ..


H. David Kotz
Inspector General
U.S. Securities and ExchangeComrtrission
Page 5

 complete our review, as a source ofdisclosure. To revamp our program to make this
 pack-and~·;forthcorresponQence with a company a, disclosure vehicle to investors would
 reql.tire significant, and I believe unwarranted, changes to our program, which would
 significantlytWde!mine its ·e:ffectivene~ for jlwestQts.         .

        The Division ofCorporationF'inance seeks timely responses to its comments

        You also discuss Corporation FinaIlce's general practiceofreque'sting, butnot
requiring, thatcompanies respond to comments within ten business days. Whileitis true
that we rarely insist that a company respon4iJIthat nmeframe, it is. importanttg note that
in many cases, companies do respond during that time period. You recolIl1l1end that we
establish apolicyo~tliriing·when weexpectCQmpanies to substantively respond to issues
we raise in our comment letters andmonitotcompliance with this policy.

         Our disclosure review program is built on the ,common goal we share' with
 companies ~to enhancediSClosureandiniproVe compliance with the disclosure
 requirementS ofthefedetal secliritieslaws. Although the limited COnsequehceS ofnot
 responding to our comment:s can be quite significanr- for example, a company is
 ~quir~ togis.close materi~sta:ff CQritments that have been outstandillg for six months in
its Form rO~K anqlor Corporation Finance may rerera I;I,on~omp1iant Company or one
 with faulty dis~los:ure to the Division ofEnfofcement for further inyestig~ion- th~y 'are
rarely"l:he outcome of astafIfiling . review. While you recommend that we change our
                                     .                 .

'pOlicy in this area, ou:rexpetience is that most 'companies do respond' to us, in some form,
 within the ten business 'dayS ,it1whichwe seek a response. Our experience is also tha4
 similar to the Bear Steams review described above, a company may respond to staff
 COlIl1l1entsinits public disclosure documents. Although we believe.that extending the ten
 busin.ess day r¢quest..for-re~ongetimeperiod will be cOl.l1lterproductive to our ongoing
 efforts to enha!1cepublic 'diSclosure, we will consider your recommen~tionan4 how it
 would impact our program.

Diyjsion of Corp,oration Finan~e's l"olewithrespechothe CSE prowam

        The Commissioii~sC.sEprogram is the focus of yotJrrep6rt. You explain in the
 Executive S1itIi:Iii81y that your objectives in this audit '<Were to evaluate the Cortuilission.'s
 eBE program, empha,sizingtheCommissioni s oversight ofBear Stearns, and to
 detennine whether'improv¢ments are needed in the Commission';s mon,itoiing ofCSE
 firms and its administration ofibe CSE program." You also summarize the work of
Albert S. Kyle, the. expert you obtained to .assist you With your audit, and indicate that
Professor Kyle's focus was on "the Division of Trading and Markets' oversigbtofthe
,CSE :finns, W1tlla particular focus on Bear Steams;" .

        The Division'of COl'{iorationFinahce is not·directly involved with the CSE
program and, asJ understand youtteport, neither the DiVision ofCorporation Finan~,
noritg full disclosure program generally, was the f\Jcus ofyour audit or of Professor



SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                  September 25, 2008
Report No. 446-A
                                                   114
                                                          APPENDIX VII CONTINUED ..


H. David Kotz
Inspector General
U.s. Securities and Exchange Commission
Page 6

Kyle's work. However, in connection with your audit ofthe CSE program, you did
review Corporation Finance's review ofBear Stearns' 2006 Form lO..K, filed in Feb11lary
2007, and, based .on that single review,yoll haverecomrnended what could be sweeping
changes to Corporation Finance'sfulldisclosUteprogtam. In oUt full disclosUte
program,. we review the filings ofmore tha:n4,OOO companies each year. 1 believe it is
inappropriate for you to have reached conclusions, and. to have made recommendations,
about our program based upon your examination ofour review ofjust one company's
filings.··                                                                      .

        1 believe, based on the scope oryouraudit work, that you.r comments and
recomrnendationsto Corporation Finance would have more appropriately focused on our
full disclosure progratnas it relates to the CSEprogtam. To the extentyour
recornttlenclationsdo focus on Corporation Finance's interaetionwith the CSEprogram, I
agree fully that we shotildexaminethe interaction between out reviews orthe CSE flrtns
and Trading and Markets' administration ofthe CSEprogram. For example, we will
consider whether we shou1dreviewCSEfirms promptly after they make their annual
Exchange..A.ctfilitIgs and issue comments,gany, wi'thin a specific timeper1o<l.We will
discuss our thoughts on this with Trading and Markets. In addition,inl"inding 7, you
recommend that we shouldtake concrete steps to.in1prove our collaboration efforts with
Trading and Markets and that we· showd detetnline whether the information Trading and
Markets receives fromtheCSEfinn.s. would be helpful inotir reviews ofthe filings these
companiesl11a.ke.. As you .i1ote, we were notable to respond to yOU! questions durin~the
audit about the potential usefulness ofthis information since we did not know wb4t it
was. Furthermore, as we previously conveyed to you, we are concerned about basing our
comments to a company, which we will make public, on non..public information that a
company provides to another Division or Office for diffetentpu.rposes. That being said~
we will take.steps to wotkclosely with Ttadingand Markets to pursue this.


        I appreciate your givingIlle the opportunity to p.(es~ntmyyiews on your report
and. I very much appreciate your commitment tQpresent this letter as an attachm.entto it.
Doing so will allowteaders todTaw theit own. conclusions, and·isconsistentwith the
transparentfulldisclosUte review process I and the staff oftheDivision of Corporation
Finance are proud to administer.

                                                      Sincerely,




                                                      ~
                                                          .LW.~
                                                         Lw.
                                                       J.·..•. ·..
                                                        .•, ltootor   Wlrl~
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program         September 25, 2008
Report No. 446-A
                                                115
                                                                        APPENDIX VIII




Office of Inspector General Response to
Chairman Cox and Management Comments
The Office of Inspector General (OIG) has received responses to its audit report
entitled "SEC's Oversight of Bear Stearns and Related Entities: The-
Consolidated Supervised Entity Program" from Chairman Christopher Cox, the
Division of Trading and Markets (TM), the Office of Compliance Inspections and
Examinations (OGlE), the Division of Corporation Finance (CF), and the Office of
Risk Assessment (ORA).

In total, the Commission's responsible management officials have concurred with
21 out of the 26 recommendations contained in the report.

Response to the Chairman's Comments

We are particularly pleased that the Chairman has commented that he believes
that the 26 specific recommendations are well-considered and worthy of support.
We also appreciate his comment that the report provides an invaluable and fresh
perspective for the agency to carefully review and consider.

Response to the Comments of the Division of Trading and Markets (TM)

The OIG is pleased that TM concurred with 20 out of the 23 recommendations
addressed to them in the OIG audit report. The OIG, however, is, quite
disappointed in many of the assertions made in TM's "Management's
Commentary."

The OIG made supreme efforts throughout the entire audit process to engage
and consult with TM on every aspect of the audit report. Over the five months of
fieldwork, OIG auditors had weekly and sometimes daily conversations with TM
management, including senior officials, on all issues relating to the audit work. In
many cases, TM management did not provide full responses to questions posed
and issues raised by the OIG.

It is important to point out that specifically because the OIG recognized that this
audit involved numerous issues of a technical and complex nature, the OIG
retained a renowned and highly-regarded expert on many aspects -of the capital
markets, and market microstructure in particular, to assist the OIG's efforts. The
expert worked closely with the OIG's auditors, providing technical expertise and
guidance. The expert also spent countless hours reviewing detailed notes and
memoranda that TM staff had prepared during the time periods pertinent to the
audit and conversed in detail with TM management and staff.

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program    September 25, 2008
Report No. 446-A


                                                116
                                                        APPENDIX VIII CONTINUED ..


Even after having numerous conversations with TM staff throughout the audit
field work, immediately prior to finalizing the draft report, the OIG convened a
meeting with the Director of TM and several senior management officials to
discuss the findings and recommendations in the report. TM officials stated that
they were unable to provide any substantive responses without viewing the
report in writing in its entirety.

Shortly after this meeting, the OIG also provided TM officials with an initial
working draft of the report, complete with findings and recommendations, for
their comment. TM management provided in response a red-lined version of the
report and an additional memorandum containing substantive comments. OIG
staff painstakingly reviewed both TM's red lined version of the report and its
memorandum. Thereafter, the OIG incorporated many of TM's suggestions,
including making major revisions to one finding, and removing another finding
altogether. The OIG then provided TM with a second draft for comment and
invited another round of substantive responses. The OIG also posed two
separate sets of questions to TM officials regarding some of tb.e assertions they
had made in response to the working draft of the report. TM failed to provide
any response to these two sets of questions.

Instead of responding to the OIG's questions or providing additional substantive
suggestions regarding the OIG report, TM decided to issue its "Management's
Commentary," which claims the report is flawed and inaccurate, and asserts that
TM was not provided with a fair and meaningful opportunity to address the
issues raised in the report. It is worth noting that notwithstanding the rhetoric
contained in "Management's Commentary," TM concurred with nearly of the
report's recommendations. Moreover, while the commentary asserts that the
report in fundamentally flawed in all aspects, it provides only a few examples of
actual statements being inaccurate, all of whom are relatively minor, even if true,
and have no impact on overall findings and conclusions of the report.

We sincerely hope that the tone adopted in TM's "Management's Commentary"
is not indicative of TM's unwillingness to take the OIG report and its findings
seriously and responsibly as these matters are of utmost importance to the
Commission and the country, particularly as lawmakers consider the
administration's proposed unprecedented bailout of the nations' financial
markets.

Response to the Comments of the Office of Compliance Inspections and
Examinations (OCIE)

The OIG is pleased that OCIE has concurred with all 3 recommendations
addressed to it, and commented favorably on an additional recommendation.

Specifically, OCIE concurred that the development of a collaboration agreement
that maintains a clear delineation of responsibilities between TM and OCIE

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                117
                                                        APPENDIX VIII CONTINUED ..


would improve the effectiveness of the oversight by both offices and that a joint
TM, OCIE and Division of Investment Management task force led by the ORA to
determine the costs and benefits of supervising firms with significant customer
assets and unregulated affiliates could be very valuable in producing evidence
supporting the need for consolidated oversight. OCIE also concurred with the
recommendation that TM develop an ethics manual, agreeing that stringent
ethics procedures should apply consistently to all SEC staff that perf9rm
examinations, and indicated that it would work with TM to develop an ethics
manual for the CSE program.

Response to the Comments of the Division of Corporation Finance (CF)

The DIG is disappointed that CF concurred with only 1 of the 3
recommendations addressed to it. The DIG also disagrees with several of the
comments contained in the management response submitted by CF.

First, CF indicates that the DIG recommends what could be "sJVeeping changes"
to its program. The DIG's finding concluded that CF has not established
guidelines for the timeliness of second level filing reviews. We recommended
that CF establish such guidelines and thereafter monitor compliance with the
established guidelines. We do not view these improvements to be "sweeping
changes" but rather reasonable and necessary management practices.

Second, CF points out that its current view of timeliness, as it pertains to the
entire filing review process, is dictated by the requirements of Section 408 of the
Sarbanes-Oxley Act (SOX) of 2002, as well its internal guideline of issuing
comments before a company's next fiscal year-end. While these factors may
guide the timeliness of filing reviews (and the issuance of comment letters) as a
general rule, CF ignores the need to address high-risk filings in an expeditious
manner. As evidenced by developments in recent years, a company's stock
price can have a dramatic downward swing in a very short period of time. Under
the particular circumstances involving Bear Stearns, we simply disagree that
CF's review of its 2006 10-K was "timely."

Third, CF questions what value to investors an earlier release of its comment
letter on Bear Stearn's 2006 10-K and the company's response would have had
because those documents were heavily redacted when publicly disclosed.
During our audit, we considered whether the information would still have been
useful, even though it was redacted, and we concluded it would have been quite
useful. Further, the DIG expert opined on the redacted version ana found the
information to be beneficial.

Fourth, CF notes that under Section 408 of SOX, it is not required to review
every company each year, and there are many companies that are not reviewed
at all in a given year. While this may be true, CF is overlooking a critical aspect
of Section 408, which contemplates that CF will consider the risks associated

SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                118
                                                        APPENDIX VIII CONTINUED ..


with filings when scheduling its filing reviews. Bear Stearns' 2006 1O-K filing was
high-risk, in our opinion, given the company's high exposure to subprime
mortgages and, accordingly, should have been reviewed in a more timely
manner.

Fifth and finally, CF maintains that investors do not use review correspondence,
which may be heavily redacted, as a source of information on which Jo base
investment decisions. In addition, CF explains the practice of publicly disclosing
the comment letters and the associated responses as a relatively new
development intended to increase the transparency of the review process and to
make correspondence available to all interested person at no cost. However,
according to SEC Insight (now known as Disclosure Insight), an independent and
private investment research firm, CF's comment letters and responses can be
quite beneficial to investors. In fact, it was stated by SEC Insight as follows:

                The comment letter proposal [to make the comment
                letters public] provides one important means for _
                investors to level the playing field with registrants
                [companies] by enhancing their ability to do what
                investors do best in transparent markets; that is,
                assess and discount risks. [Emphasis added].




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program   September 25, 2008
Report No. 446-A
                                                119
                                                                                                                APPENDIX IX


Gross Leverage Ratios

Figure 1. CSE Firms- Gross Leverage Ratios

                Gross Leverage Ratio: August 2006 - February 2008


                34
                32                                                                               -+-- Bear Stearns Company
                30                                                                               -        Goldman Sachs
                28                                                                                        Lehman Brothers
                26                                                                               -*- Morgan Stanley
                24
                                                                                                 --1IE-   Merrill Lynch
                22
                20
                       s;)CO      s;)CO       ~           ~         S'         S'        s;)'O
                     ~         ~           ~           ~         ~         ~         ~
                ~",       ~\:)'      ~'          ~",         ~",       ~\:)'     rf,>'
             ~q. :Qr/t         q,<::\      _t.t..~        ~q. :Qr/t         q,<::\
        ~..:§!$   0~   '$;I''::>           ~.        ~v.CJj   0~    '$;I''::>
         l      ~~   ~0                              l      ~~   ~0

                                          Date of Quarter Closing

Source: This data was provided by TM. They obtained the information from public filings (i.e., 10-K) and
Bloomberg. We verified each firm's year-end gross leverage ratio amount, but did not verify its quarterly
ratios.




SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                                            September 25, 2008
Report No. 446-A


                                                                         120
                                                                                     APPENDIX X



            Criteria

Basel II Standards.

Final Rule: Alternative Capital Requirements for Broker-Dealers _That Are
Part Of Consolidated Supervised Entities" (Release No. 34-49830).201 In
2004, the Commission adopted rule amendments under the Securities and
Exchange Act of 1934 (which created the CSE program) that allowed firms (the
broker-dealers) to apply for an exemption from the net capital rule and instead
use the alternative capital method.

TM's Policies and Procedures describing its administration of the CSE
program.

Publicly Disclosed Information about the CSE Program.20~ The Commission
has posted the following documents on its website about the CSE program:
      •   Program Overview & Assessment Criteria;
      •   Program Description; and
      •   SEC Holding Company Supervision With Respect To Capital Standards
          And Liquidity Planning.




201 Source: Final Rule: Alternative Net Capital Requirements for Broker-Dealers That Are Part of
    Consolidated Supervised Entities (69 Fed Reg. 34.428). Commission. 21 June 2004.
    <http://www.sec.gov/rules/finaI/34-49830.htm>.
202 Source: SEC [Commission] Holding Company Supervision Program Description. Commission. 5 June
    2008. <http://www.sec.gov/divisions/marketreg/hcsupervision.htm>.
SEC's Oversight of Bear Stearns and Related Entities: The CSE Program                  September 25, 2008
Report No. 446-A
                                                  121
                     Audit Request and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

u.s. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F. Street N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov
